<html>
<title> - FISCAL YEAR 2004 BUDGET</title>
<body><pre>[Senate Hearing 108-60]
[From the U.S. Government Printing Office]




                                                         S. Hrg. 108-60
 
                        FISCAL YEAR 2004 BUDGET

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   ON

OVERSIGHT HEARING ON THE PRESIDENT'S BUDGET REQUEST FOR INDIAN PROGRAMS 
                          FOR FISCAL YEAR 2004

                               __________

                           FEBRUARY 26, 2003
                             MARCH 5, 2003
                             WASHINGTON, DC

____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                      COMMITTEE ON INDIAN AFFAIRS

              BEN NIGHTHORSE CAMPBELL, Colorado, Chairman

                DANIEL K. INOUYE, Hawaii, Vice Chairman

JOHN McCAIN, Arizona,                KENT CONRAD, North Dakota
PETE V. DOMENICI, New Mexico         HARRY REID, Nevada
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
ORRIN G. HATCH, Utah                 BYRON L. DORGAN, North Dakota
JAMES M. INHOFE, Oklahoma            TIM JOHNSON, South Dakota
GORDON SMITH, Oregon                 MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska

         Paul Moorehead, Majority Staff Director/Chief Counsel

        Patricia M. Zell, Minority Staff Director/Chief Counsel

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

                           February 26, 2003

Statements:
    Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado, 
      chairman, Committee on Indian Affairs......................     1
    Cheek, John, executive director, National Indian Education 
      Association, Alexandria, VA................................    27
    Conrad, Hon. Kent, U.S. Senator from North Dakota............    19
    Culbertson, Kay, president, Denver Indian Health and Family 
      Services, Denver, CO.......................................    23
    Davis-Wheeler, Julia, chair, National Indian Health Board, 
      Denver, CO.................................................    21
    Edwards, Gary, CEO, National Native American Law Enforcement 
      Association, Washington, DC................................     8
    Hall, Tex, president, National Congress of American Indians, 
      Washington, DC.............................................     2
    McNeil, Ron, chairman, President's Board of Advisors on 
      Tribal Colleges and Universities, Sitting Bull College, 
      Fort Yates, ND.............................................    29
    Sossamon, Russell, chairman, National American Indian Housing 
      Council, Washington, DC....................................     5

                                Appendix

Prepared statements:
    Cheek, John..................................................   131
    Culbertson, Kay..............................................   121
    Davis-Wheeler, Julia.........................................    35
    Edwards, Gary................................................    64
    Hall, Tex....................................................    41
    Inouye, Hon. Daniel K., U.S. Senator from Hawaii, vice 
      chairman, Committee on Indian Affairs......................    35
    McNeil, Ron (with attachments)...............................    74
    Sossamon, Russell............................................    58
Additional material submitted for the record:
    DeWeaver, Norman C., national representative, Indian and 
      Native American Employment and Training Colaition, letter..   146

                             March 5, 2003

Statements:
    Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado, 
      chairman, Committee on Indian Affairs......................   149
    Dorgan, Hon. Byron L., U.S. Senator from North Dakota........   163
    Erwin, Donna, acting special trustee, Department of the 
      Interior, Washington, DC...................................   153
    Grim, Charles W., M.D., interim director, Indian Health 
      Service, Rockville, MD.....................................   156
    Hartz, Gary, acting director, Office of Public Health........   156
    Jones, Lonna B., acting director, Elementary Secondary, and 
      Vocational Analysis Division, Budget Service, Office of 
      Deputy Secretary, Department of Education, Washington, DC..   161
    Kincannon, Louis, director, Bureau of the Census, Suitland, 
      MD.........................................................   150
    Lincoln, Michael E., deputy director, Indian health Service, 
      Rockville, MD..............................................   156
    Martin, Aurene, acting assistant secretary, Indian Affairs, 
      Department of the Interior, Washington, DC.................   153
    Martin, Cathie L., group leader, Office of Indian Elementary 
      and Secondary Education, Department of Education, 
      Washington, DC.............................................   161
    Murkowski, Hon. Lisa, U.S. Senator from Alaska...............   160
    Russell, William, deputy assistant secretary, Public and 
      Indian Housing, Department of Housing and Urban 
      Development, Washington, DC................................   159
    Vanderwagen, Craig, M.D. acting chief medical officer........   156
    Vasques, Victoria, director, Office of Indian Education, 
      Department of Education, Washington, DC....................   161

                                Appendix

Prepared statements:
    Carlson, Ervin, president, Inter-Tribal Bison Cooperative 
      (with attachment)..........................................   580
    Daniels, Deborah J., Assistant Attorney General, Office of 
      Justice Programs (with attachment).........................   175
    Grim, Charles W. (with attachments)..........................   511
    Kincannon, Louis (with attachments)..........................   180
    Martin, Aurene...............................................   500
    Russell, William (with attachments)..........................   538
    Vasques, Victoria (with attachments).........................   558

Note: Other material submitted for the record will be retained in 
  committee files.


                        FISCAL YEAR 2004 BUDGET

                              ----------                              


                      WEDNESDAY, FEBRUARY 26, 2003


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m. in 
room 485, Senate Russell Building, Hon. Ben Nighthorse 
Campbell, (chairman of the committee) presiding.
    Present: Senators Campbell, Inouye, and Conrad.

 STATEMENT OF HON. BEN NIGHTHORSE CAMPBELL, U.S. SENATOR FROM 
        COLORADO, CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    The Chairman. The Committee on Indian Affairs will be in 
order.
    This morning we have a business meeting with three pending 
bills. Unfortunately, Senator Inouye is going to be late; 
probably that murderous weather that is already accumulating 
out there, but he will be along. So what we are going to do is 
reverse the order and go ahead with the hearing part on our 
fiscal year 2004 budget request and then come back when 
Senators show up to second the motion for the business part of 
our meeting.
    This will be the first of our two oversight hearings on the 
President's fiscal year 2004 budget request for Indian 
programs. As we all know, our Nation is now on the verge of a 
major conflict. All of us hope that is not going to happen, but 
unfortunately it appears very close. This effort has cost, and 
will cost, billions of dollars.
    We are also engaged in a coast-to-coast effort to protect 
our homeland with the building up of the national defense 
program. The President's fiscal year 2004 budget reflects those 
realities and, at the same time, provides for a modest increase 
in a number of Indian accounts.
    The Department of the Interior's budget is pegged at $10.7 
billion with more than one-quarter of the entire Department's 
budget dedicated to Indian accounts, including $2.314 billion 
for the BIA, and $275 million for the Special Trustee. The 
Indian Health Service account would receive $2.89 billion, an 
increase of $68 million over fiscal year 2003.
    I won't recite the litany of all of the accounts, but all 
of the dollar figures, as we will hear today, are for the major 
Indian programs. Next week we will hear from the Federal 
departments and the agencies on the budget request.
    I will be paying particular attention to the Homeland 
Security budget, and the committee will be most interested in 
seeing the degree to which it involves Indian tribal 
governments, law enforcement, and medical personnel in our 
security efforts.
    When Senator Inouye gets here, we will take a break so he 
can make his statement.
    With that, I would like to welcome our guests in their 
order of appearance. We have Tex Hall, president of the 
National Congress of American Indians, Russell Sossamon, the 
chairman of the National American Indian Housing Council, and 
Gary Edwards, the CEO of the National Native American Law 
Enforcement Association.
    Welcome we will go ahead and proceed with your testimony. 
As in other committee hearings, if you want to insert your 
written testimony, all of that will be included in the record 
and you are welcome to abbreviate your testimony.

STATEMENT OF TEX HALL, PRESIDENT, NATIONAL CONGRESS OF AMERICAN 
                    INDIANS, WASHINGTON, DC

    Mr. Hall. Thank you, Mr. Chairman.
    Thank you, Chairman Campbell, and members of the Senate 
Committee on Indian Affairs. My comments today will be brief as 
our written testimony provides the details of our concerns 
about the President's budget request for fiscal year 2004. I 
invite you to consider our written testimony carefully.
    [Prepared testimony of Mr. Hall appears in appendix.]
    Mr. Hall. I thank you for this opportunity to speak before 
you and to continue to foster a good government-to-government 
relationship between the United States and the Indian Tribal 
Nations. For the past several years I have served on the BIA 
Budget Advisory Council representing the needs of my region of 
the Aberdeen area of the Bureau of Indian Affairs, as well as 
the agenda of the National Congress of American Indians.
    During many of these sessions, representatives of OMB, the 
Office of Management and Budget, have been present at these 
meetings. This has always been a painful experience because our 
national needs are so great. Yet, we are repeatedly told that 
we will have to do much with less. Once again, we are faced 
with tremendous shortfalls for the most vital programs that 
serve our people. This is especially true in health care, 
housing, education, and public safety. Further, in my BIA 
region in Aberdeen, the President's budget for fiscal year 2004 
allocates zero for our water development needs.
    Let me talk about health care first. Last weekend we sat 
down with the acting director, Charles Grimm, of the Indian 
Health Service. He told us that under the ``PART'' methodology, 
which is the Program Assessment Rating Tool that OMB uses for 
efficiency rating, the Indian Health Service and IHS Sanitation 
Services scored the highest of any programs of the Department 
of Health and Human Services. Yet, despite this high praise, 
the fiscal year 2004 IHS budget request does not even keep pace 
with medical inflation.
    At the same time, the IHS budget at $3.6 billion is barely 
one-third of the estimated annual need of $10 billion. So if 
the PART methodology that OMB uses is really intended to award 
the most effective and efficient programs, then where is the 
increased budget for IHS? In further talking with Charles 
Grimm, we learned that the VA, the Veterans Administration's 
health programs, were exempted from the PART methodology, which 
is good. But if the PART program is such an effective tool for 
evaluating our Federal Governments, then why is it not 
universally applied to all agencies?
    Our health status, Mr. Chairman, as you know, are well 
known, but deserve mentioning again. The diabetes rate on our 
reservation is more than ten times the national average. It is 
at epidemic levels, as we know, and many of our children are 
now being diagnosed with juvenile diabetes. And yet the 
requested fiscal year 2004 IHS budget again does not keep pace 
with inflation.
    Our life expectancy in the Northern and Great Plains of 
this country for men is still 12 years less than the national 
average. And yet again the requested fiscal year 2004 IHS 
budget does not keep pace with medical inflation.
    Funding is not available to our people to receive simple 
tests for cancer screening. I, for one, can attest that my 
mother died prematurely because she did not receive a simple 
mammogram. And yet the 2004 IHS budget again does not keep pace 
with medical inflation and will deny many other women a chance 
for a mammogram or cancer screening tests that they so most 
importantly need.
    These abysmal statistics do not, in many ways, permit our 
tribal nations to achieve the health status we need to truly 
achieve our economic development goals for healthy tribal 
people. Without good health, our tribal members cannot work as 
hard or as long. This makes it more difficult for our 
reservations to attract good paying job in strong businesses as 
this affects our work force. It makes it harder for our people 
to contribute as taxpayers to our country. It makes it harder 
for our people to avoid the need to be on welfare assistance. 
It also makes it harder for our people to complete their 
education.
    The Supreme Court of the United States has recognized the 
health care trust obligations of the United States. So, Mr. 
Chairman, we ask Congress to adopt the same position and 
appropriate the funds that will fulfill this Trust with the 
obligation of the United States for the health care of its 
indigenous people.
    Housing is another severely under-funded trust function. In 
the Great Plains, as elsewhere in this Nation, our members wait 
as long as 20 years on a housing waiting list. And while we are 
taking steps to improve our housing capacity on each of our 
reservations through our own means, the budget in this area 
does not significantly reduce the waiting time our members to 
have houses and rental units.
    The President's elimination of the Rural Housing and 
Economic Development Program in fiscal year 2004 budget 
compounds this problem even more. Housing funding is another 
reason, as we mentioned in our written testimony, that Indian 
programs should be exempt from OMB's PART methodology.
    Shortly after his election, President Bush announced a bold 
new education plan: Leave no child behind. We applaud these 
efforts, but the President must put real resources behind that 
goal. Nowhere is this more true than an Indian education. 
Tribes do not have a local property tax base. We are like the 
military. Reservations are largely dependent on the Federal 
Government for education funding. Our schools are still falling 
apart faster than the Government is appropriating funds to fix 
them. This has to stop.
    Another area under funded is public safety, including 
funding under the recently enacted Homeland Security 
legislation. Tribes should be able to directly receive grants 
from the Federal Government and from Homeland Security for the 
purpose of protecting our tribal homelands just as States do.
    The one area of growth in the BIA budget has been trust 
reform. Yet the Department itself has communicated that it has 
had to scramble to find funds for this purpose. Throughout 
Indian country, I continue to hear worries that the money to 
fix the Trust Fund's management mess is being taken from other 
core Trust Service functions of the Department of the Interior 
and other agencies.
    Additionally, tribes continue to communicate to me that 
there is a genuine lack of consultation on trust reform issues 
that are critical for the beneficiaries, the Indian tribal 
governments, and the individual Indian beneficiaries.
    Congress should ensure that other BIA services are in no 
way impacted by the need to comply with trust reform orders 
from the Court. I also call for Congress to comply with the 
American Indian Trust Funds Management Reform Act of 1994 and 
adequately consult with tribes in foregoing a trust reform 
solution.
    On a regional note, it is critical that we get all possible 
assistance in the Great Plains States for the Rural Water 
Distribution projects that have been promised to us for more 
than 50 years. The fiscal year 2004 budget proposed by the 
President eliminates all construction funds for programs like 
the Mni Wiconi and the Dakota Water Resources Act which 
authorizes the completion of our Rural Water Distribution 
Systems on those reservations in the Great Plains.
    Under the President's plan, similar projects in South 
Dakota, Montana, North Dakota, and other States that are 
greatly affected by our tribal nation's budget have been zeroed 
out.
    We have been waiting patiently for the United States to 
fulfill its responsibilities and promises to us for good, clean 
drinking water to our tribal homes. We have been waiting for 
this since the hydroelectric dams authorized in the 1944 Pick-
Sloan Act were built along the rivers in the early 1950's 
flooding our tribal homelands. This has not yet happened and 
yet the President's budget says that the effectiveness of these 
programs is not demonstrated under the PART analysis I 
described earlier.
    I do not understand how a project is not deemed effective 
that delivers good water to households where water has been 
hauled in by hand for the past 50 years. So this is of great 
importance to us on trying to put those dollars back in.
    Finally, I want to close with a few thoughts of what has 
been a main theme of both my presidency of NCAI as well as my 
chairmanship of the Mandan, Hidatsa, and Arikara Tribes on the 
Fort Berthold Reservation in North Dakota. That is economic 
development. We must have adequate funding for as many of our 
economic development initiatives as possible in the 2004 
budget.
    Senator Campbell, you have supported and reintroduced a 
number of our initiatives in the 108th Congress. Some of our 
ideas do not cost any money, if they cost anything at all. It 
will be more than made up for in the increased economic 
activity these initiatives will bring to Indian reservations. 
Examples of such initiatives are reenacting the Indian 
Investment Act, providing for energy development incentives on 
reservations, supporting economic development technical 
assistance centers, and raising the ceiling on loans under the 
Indian Finance Act.
    Still another idea that should be given consideration by 
this committee is the extension of the 5 percent set-aside rule 
by the Department of Defense for Native American contractors to 
all U.S. Departments; not just the Department of Defense. 
Tribes are now banding together to take advantage of Government 
and private contracting opportunities. My tribe is part of this 
new consortium, but any help this committee can provide is very 
welcome indeed.
    We hope that as this committee considers economic 
development issues, the appropriate budget dollars that were 
put in place to make these incentives and ideas, will be a 
reality for this session of Congress. Throughout this process, 
we hope that we are consulted on a government-to-government 
basis as these ideas are developed further.
    Again, Mr. Chairman, I want to thank you for all of your 
support on these very important issues. I want to thank you for 
the opportunity to provide testimony today on the needs of 
Indian Tribal Nations in this great country of ours.
    Thank you.
    The Chairman. Thank you. Just for your information, Tex, 
one of the big thrusts of the committee this year is going to 
be to try to get a number of bills passed that will be designed 
to improve the economic situation and improve the opportunity 
for jobs on reservations. That is one of the things that we are 
really interested in trying to get through this year.
    Sometimes, as you know, you have to do these bills two or 
three times in a row before we get them passed. It has been a 
personal interest of mine for a good number of years, as you 
know.
    Mr. Hall. Absolutely.
    The Chairman. Thank you for bringing up a number of 
important points in your testimony. Some of those I will ask 
specifically next week of the Administration when they appear 
before the committee.
    Mr. Hall. Thank you.
    The Chairman. We will now go to Mr. Sossamon. Please 
proceed.

  STATEMENT OF RUSSELL SOSSAMON, CHAIRMAN, NATIONAL AMERICAN 
             INDIAN HOUSING COUNCIL, WASHINGTON, DC

    Mr. Sossamon. Thank you, Chairman Campbell, and the members 
of the committee.
    My name is Russell Sossamon and I am the chairman of the 
National American Indian Housing Council, an organization that 
represents the interests of over 400 tribes and their tribally-
designated housing entities. I am also the executive director 
of the Housing Authority of the Choctaw Nation of Oklahoma.
    I appreciate the opportunity to testify before you today on 
the President's fiscal year 2004 budget for Indian housing and 
related community and infrastructure programs. I have submitted 
a written statement which I asked to be included in the hearing 
record which will provide clarification on the issues I bring 
before you today.
    The Chairman. It will be included in the record.
    [Prepared testimony of Russell Sossamon appears in 
appendix.]
    Mr. Sossamon. In the brief time allotted to me today, I 
would like to focus on seven areas of the budget with two 
additional items that we feel require Congress' urgent 
attention and support.
    We were disappointed with this budget. It again did not 
include an increase for tribal housing. I understand there is a 
return to budget deficits and a need for homeland security. But 
that does not make our members in inadequate housing feel any 
more safe or secure in their situation. This would be the 
fourth straight year of flat-line funding for the Indian 
Housing Block Grant, despite inflation, the increased cost of 
construction, and the growing native population.
    A letter signed by many of our members was sent earlier 
this week to the members of this committee, the President, 
other members of Congress, and the Administration with the 
information I would like to share with you today. I thank this 
committee for all the work that it has done into passing and 
improving the NAHASDA during the past three Congresses. But 
that effort will not fully be realized without adequate funding 
for the programs.
    We request that you support an increase for the NAHASDA 
block grant on the track to a total of $1 billion by fiscal 
year 2007, and appropriating at least $700 million for fiscal 
year 2004. The President's request is $646.6 million. If 
inflation were applied to the past 4 years of stagnant funding, 
this year's budget amount would be $700 million.
    We are requesting at least that much to cover the current 
unmet need of 200,000 housing units, and increases in the 
Indian Community Development Block Grant from 1.5 percent to 3 
percent of the total CDBG allocation to an increase in the 
amount of $150 million, since this program has been so 
successful in aiding the development of tribal economies. The 
President has requested $72.5 million.
    The next item is the Rural Housing and Economic Development 
Program. It is a very important tool for building the capacity 
of the tribes and should be funded again in fiscal year 2004, 
although it was zeroed out by the President's budget. Tribes 
generally receive about one-half of these grants for capacity 
building and job creation.
    The BIA Housing Improvement Program has also been funded at 
the same level for many years. This program assists tribes in 
rehabilitation of homes and fills in the gaps of many under-
funded tribes. We would like to see this increased to at least 
$35 million for 2004.
    Mounting water and sewer infrastructure costs must be 
considered by the tribes when planning for housing development. 
We oppose current Interior report language that precludes 
tribes from using sanitation facility construction funds in 
conjunction with HUD funded homes. It is causing complicated 
accounting and engineering issues for the tribes back homes. 
Since HUD no longer fully subsides infrastructure development, 
we feel the tribe and not the Indian Health Service should 
decide where the funds are going since it is all for the same 
recipient.
    We are requesting that this committee investigate the 
situation of infrastructure funding for tribes and make a 
recommendation as to the best policy. Tribes seem to be caught 
in an Agency turf battle. Please refer to my written testimony 
for more information on this matter.
    We applaud the $20 million increase to sanitation 
facilities construction in this budget, but feel the need is 
much larger, and an increase of up to $180 million would be 
more appropriate.
    We are told that the Administration will be using 
performance-based budgeting, and that 45 percent of all Indian 
housing funds under the IHBG remain unspent, implying that a 
cut to IHBG could be in the future. We have never seen any data 
to back this up, but we are willing to make the efforts to 
reach out to HUD and understand their interpretation of the 
data and make the improvements where warranted.
    The allocation does not take into account the following 
issues: The figure is both obligated and unobligated funds. 
Tribes must spend their funds within 72 hours of drawdown. 
Tribes have 2 years to obligate these funds. HUD often takes 
several months to make the funds available after appropriation, 
meaning most of this funding is likely from the past two years 
and within the regulatory authority of obligation. HUD collects 
data and Indian housing plans in annual performance reports but 
seems never to have compiled that data to assist in documenting 
the progress or difficulties of the tribes. We hope this 
committee will join us in working with HUD in demanding a full 
and complete accounting on these funds.
    Technical assistance funds were cut in this budget. NAIHC 
has been receiving over $4 million a year to conduct technical 
assistance and training for the past several years to assist 
tribes in implementing Federal housing programs. The portion of 
this funding normally taken as set-asides out of IHBG has been 
cut out of this year's budget.
    Why threaten to cut funding based on capacity and then cut 
technical assistance which is used to improve capacity? NAIHC 
did over 150 on-site visits to tribes last year, and served 
over 1,300 students who attend our training courses. We are 
requesting full funding for technical assistance and training 
for NAIHC in fiscal year 2004, which ideally would all be out 
of a CDBG set-aside rather than out of the Indian Housing Block 
Grant set-aside.
    Mr. Chairman, we believe that in the scheme of things these 
are modest requests and we hope that the Subcommittee and 
Congress will address these. We recognize that funds are scarce 
and tough decisions lie ahead. However, the needs of Indian 
country are great, and without an expended level of support of 
Congress and the Administration, the problems will only grow 
worse.
    Thank you, Mr. Chairman, for this opportunity to present 
the views of NAIHC. I will be happy to respond to any 
questions.
    The Chairman. Thank you.
    My intention now that Senator Inouye here is to give him 
time for his opening statement.
     Senator Inouye. I would like that be inserted in the 
record.
    [Prepared statement of Senator Inouye appears in appendix.]
    The Chairman. We will go to Mr. Edwards. Then we will go 
back to our Business Meeting. We will then hear from our second 
panel on the fiscal year 2004 budget.
    Mr. Edwards, please proceed.

 STATEMENT OF GARY EDWARDS, CEO, THE NATIONAL NATIVE AMERICAN 
          LAW ENFORCEMENT ASSOCIATION, WASHINGTON, DC

    Mr. Edwards. Mr. Chairman, Mr. Vice Chairman, and members 
of the committee. My name is Gary L. Edwards. I am the chief 
executive officer of the National Native American Law 
Enforcement Association. I am also the vice chairman of the 
Native American National Advisory Committee for Boys and Girls 
Clubs of America. I am also an Advisory Board Member for the 
Helen Keller Worldwide Child Sight Program.
    Today my testimony will focus on three categories of Indian 
programs. The program categories are Native American Youth 
Programs, Native American Law Enforcement Training Programs, 
and Indian country Homeland Security Training Programs.
    The Boys and Girls Clubs of America will be the group that 
I address first. Currently, we have 140 Boys And Girl Clubs 
that are open in Indian country today. We serve over 60,000 
Native American Youth across Indian country.
    In January of this year we had the 2003 Summit for Clubs 
serving Native American youth. Our focus was expanding the 
circle, and continuing the legacy of our children. It infused 
our attendees with the hope that by the year 2005 we will be 
able to open 200 clubs in Indian country to serve our youth. It 
also embedded within our hearts the need to sustain the clubs 
that we opened, and that we hope to open in the future. Senior 
members of the Boys and Girls Clubs of American, like Robby 
Callaway, are committed to sustaining these clubs.
    Another way that we are looking to sustain the clubs is 
through partnerships--partnerships through organizations such 
as the U.S. Secret Service, the Department of Justice, Office 
of Community-Oriented Policing, the Bureau of Indian Affairs, 
Office of Law Enforcement Services, and the Alcohol, Tobacco, 
Firearms and Explosives Division through their Great Program.
    A highlight of these partnerships that I would like to 
bring forward to you is the Great Program. Currently, the 
National Native American Law Enforcement Association has 
entered into partnerships with the groups that I just mentioned 
to develop six pilot programs in Indian country Boys and Girls 
Clubs. These are clubs in areas where we have high rates of 
violence among all age groups and income categories of people 
that live in the areas. We also have a growing gang problem 
within these areas.
    What we have done with the Great Program on the six pilot 
sites is that we have brought law enforcement officers into the 
programs to work hand-in-hand with the children. This has 
created a dynamic where the children no longer look at the law 
enforcement officers in an adversarial role, but they look at 
them as partners. They look at them as avenues to solve some of 
the problems they face on a daily basis, and they look at them 
as role models.
    This Great Program serves not only the community and the 
Boys and Girls Clubs by sustainability, but it also serves our 
Nation in putting people in closer contact through community 
and police working together. This program, the Boys and Girls 
Clubs of America, if we are going to be able to reach our goal 
of 200 clubs by the year 2005, we will need additional funding, 
and we will also need to have programs such as the Great 
Program to be expanded to more than just the six clubs in the 
pilot program. We want to sustain those and take it to all the 
clubs in Indian country.
    Another exciting program that is coming for our youth this 
year to Indian Country is the Helen Keller Worldwide Child 
Sight Program. The Child Sight Program has committed to giving 
32,000 free eye examinations and free designer eyeglasses to 
children in need. The Child Sight Program has committed 60 
percent of these eye exams and eye glasses for Indian country 
youth.
    Our first pilot program in Indian country will be held in 
April of this year at the Pueblo of Laguna in New Mexico. If 
additional funding becomes available, we will be able to expand 
this program, not only in Indian country, but throughout the 
United States. We hope to establish a deliverable through the 
Boys and Girls Clubs of America. The great thing about the 
Child Sight Program is that it is not a one-stop visit. The 
idea is to provide a vision health care program within the 
communities. When they come to the communities, they will be 
sustainable.
    With the support of Congress and the White House, 
additional partnerships such as the ones just mentioned, will 
help us to serve America's youth and to develop our communities 
and prepare them as we look into the future and the needs with 
regard to homeland security.
    The next program I would like to discuss briefly is the 
National Native American Law Enforcement Association's training 
program. For the last ten years, the National Native American 
Law Enforcement Association, NALEA, has been bringing Federal 
law enforcement training to Indian country law enforcement 
officers throughout the United States. We have done this on a 
partnership basis by bringing together Federal law enforcement 
agencies that actually provide the training, as well as state, 
local, and community programs that also support training and 
also help us bring the people to the conference.
    We would like to thank you, Senator Campbell, for being a 
keynote speaker at last year's conference on the Indian country 
homeland security summit. This year, NALEA is looking to 
develop an unique program for Indian country law enforcement. 
The program is going to be a program that will be a center for 
academic excellence in Indian country law enforcement training. 
This is something that we feel is greatly needed. We are 
partnering, and attempting to partner, with many colleges and 
universities across the country as well as all Federal, State, 
and local law enforcement agencies and many tribal agencies.
    Some of the colleges that we are working to partner with is 
the Central University of Oklahoma, Western Oregon University, 
Fort Lewis College of Colorado, and also the Federal Law 
Enforcement Training Center, which is now part of the newly 
formed Department of Homeland Security.
    The concept that we are going to utilize in this law 
enforcement training is an uniquely Native American concept 
that I don't think has been tried in Indian country before. We 
are entitling the new program, ``Wearers of the Shirt.'' The 
idea of this particular program is that we will go back to the 
different tribal leaders and elders from across the country. We 
will get their perspectives of how tribal order was achieved 
prior to the European intervention on this continent.
    From those ideas and methods and theories, we will work 
with educators across the country to develop a program that is 
uniquely for Indian country law enforcement officers, and that 
will be applied to the modern technologies of today. Some of 
the problems that our Indian country law enforcement officers 
are having is a very high dropout rate before graduation at our 
national police academies. We want to also take a strong look 
at that and see what we can do to remedy that particular 
problem.
    As we look at going into the future, in Indian country we 
need to work very hard to bring our Indian country law 
enforcement and first responders to parity with communities of 
reservations and trust lands.
    Another very exciting opportunity that we are looking at in 
this particular unique law enforcement training is E-Learning. 
As I mentioned before, one of our partners is the Federal Law 
Enforcement Training Center, FLETC. They are currently 
developing a distributive learning program. That program has in 
it over 2,100 particular courses that deal with all types of 
administration, law enforcement, first responder techniques, 
and current state-of-the art training that is of importance to 
events that are happening today.
    FLETC has agreed to work with NALEA to create programs that 
are uniquely designed for Indian country law enforcement 
officers. Also, as a result of this distributive learning 
program, we look to go satellite and utilize dishes to connect 
remote areas of Indian country.
    This not only will help the ability of our law enforcement 
officers to take a wide variety of training which could lead to 
certifications and college degrees, but it could also connect 
them on-line in-time with programs and classes that are 
currently going on in different parts of the country.
    To give one example, we have major problems with regard to 
communications and officers--as I am sure you are aware, having 
been a former police officer in Indian country--with maybe one 
officer in a remote area that doesn't even have cell phone 
connection to his office. Through this remote satellite 
connection, he could actually be on-line with the computer. For 
example, he could be on one side of a large dam, like on the 
Covell Reservation, and be talking at the same time with an 
officer on the other side of the reservation via his lap top 
computer.
    We hope to coordinate these particular dynamics that we 
bring to Indian country--again through the Boys and Girls Clubs 
of America--by providing additional computers and training 
labs. This will also provide training for our children. As we 
look to the community, we can bring tribal leaders and elders 
to the community to also take courses of interest in that 
particular program.
    Next, I would like to briefly discuss homeland security in 
Indian country. Mr. Chairman and Senator Inouye, I believe our 
Nation, as well as tribal lands, have a three-part approach to 
homeland security. We must realize the reality of today, define 
our vision of homeland security for tomorrow, and act to make 
that vision a reality of the future.
    When we look at the realities of today, and in particular 
in Indian country, we must realize that we have certain 
vulnerabilities on tribal land that affect the security not 
only of our tribal lands, but of the Nation as a whole. 
Specifically, some of the primary vulnerabilities that we have 
on Indian lands is the border and port security of tribal 
lands, the critical infrastructure located on tribal lands, 
such as dams, water impoundments, reservoirs, electrical 
generation plants, and waste systems.
    There is also the existence of nonintegrated law 
enforcement and the minimum emergency response for the medical 
capacity planning and implementation, in case we did have a 
terrorist attack.
    Unfortunately, these vulnerabilities exist because tribal 
communities lack the resources to address these 
vulnerabilities. The lack of the resources is a direct result 
of inadequate funding. Inadequate funding has created the lack 
of law enforcement and first responder personnel, giving rise 
to insufficient training of existing human capital and greatly 
reducing technical assistance and resources. As such, 
inadequate funding is a major road block to the elimination of 
vulnerabilities in tribal lands.
    Further complicating the matter is the jurisdictional 
issues that our tribal officers and courts have to face in 
Indian Country. These vulnerabilities need to be addressed as 
indicated by AUSA Tom Heffelfinger who is with the Attorney 
General's Subcommittee on Indian Programs. He suggests that 
certain laws, rules, and regulations governing jurisdictions in 
Indian country must be changed.
    Next, as we look to define our vision of homeland security 
in Indian country for tomorrow, we must look to the President 
and the Department of Homeland Security for their basic 
guidance. The President has identified three strategic areas of 
terrorism and to minimize the damage and recovery from attacks 
that do occur.
    Accomplishing these missions at an affordable cost will 
take time and require all levels of government, tribal, state, 
local, and private industry to cooperate as they never have 
before. There are some concepts that should drive our vision of 
the future. Homeland security must be a locally-organized, 
grassroots-developed efforts that requires people providing the 
security to know three things.
    They need to know what they are protecting. They need to 
know who they are protecting it against. And they need to be 
thoroughly familiar with their local territory.
    Equipment and services that will improve the daily health 
and safety issues in tribal lands should be funded as a 
priority over the single use items and services. Duplicative 
services should not be funded, but complementary services 
should be. Every proposal for funding should include the 
criteria that will be used to determine whether or not the 
program is effective or not effective. Programs that have 
failed and have not been completed should no longer be funded.
    Funding programs should be directly to the priority 
programs. We should encourage adjacent jurisdictions to 
partners to define our partners in tribal, law enforcement, and 
tribal governments, to gain Memorandums of Understandings and 
Mutual Agreements to support each other with our assets. We 
should encourage homeland security planners to think outside 
the box, to prepare America for the next terrorist attack, not 
for the last one.
    We should teach chemical, biological, radiological 
operations, and decontamination procedures at the local level. 
We need to be prepared to respond to denial of service attacks 
as well as chemical, biological, and radiological attacks of 
weapons of mass destructions.
    We must act to make our vision a reality of the future. The 
50 million acres of tribal lands are replete with military, 
energy, water, and other facilities that significantly affect 
the American economy and American living outside the 
reservations. Potential targets that lie with Indian lands 
include the dams, oil fields, oil and gas pipeline, coal slurry 
lines, communications towers, casinos, other tourist 
attractions, power generating stations and transmitters, 
radios, ports, and international borders.
    These critical infrastructures on tribal land, if 
compromised by terrorists, will produce a devastating impact 
that will reach far beyond the reservations and Trust lands, 
tearing into the very heart of America. We must act to prevent 
this from happening.
    Some conclusions that we have drawn from the NALEA tribal 
lands homeland security summit and other research, have 
produced the following recommendations for the Department of 
Homeland Security.
    First, establish a coordination unit within the Department 
to provide a single point of contact for the Indian nations. We 
envision this unit being the conduit for providing the Indian 
share of homeland security funding directly to the Nations 
involved, thereby recognizing Indian rights of sovereignty and 
self determination.
    Next, deliver a comprehensive list of targets within the 
Indian nations as well as the rest of the country. Also, 
apportion homeland security funds based on the cost of reducing 
specific priority vulnerabilities, not on population or other 
non-related criteria.
    Next, develop a homeland security emergency communication 
system and frequency that all levels of government--Federal, 
tribal, State, and local--have access to, and with which to 
provide two-way communication of terrorist alerts, 
notifications, and national and man-made disasters and relevant 
operational intelligence.
    Next, encourage State and local jurisdictions to enter into 
mutual support agreements with Indian nations, to share 
complementary resources in times of crisis. And finally, 
encourage state and local governments to establish cross-
deputization agreements that provide certified Indian police 
officers equivalent status as all other police departments.
    We have three suggestions for the Department of Justice. 
Develop legislative language that clarifies the right of Indian 
nations to arrest, detain, and prosecute non-Indian Americans 
committing crimes on reservations and trust areas.
    Next, support uniform national standards for law 
enforcement officer training and certification, and actively 
encourage states to enter into cross-deputization agreements to 
facilitate the mutual sharing and support of peace officers, 
particularly in times of crisis.
    Mr. Chairman, you have said it best. Native people are 
Americans and want to stand shoulder-to-shoulder with the rest 
of their countrymen in defending American lives and homelands 
from threats now before us. NALEA will take its place providing 
training and technical assistance in inventive ways for Native 
American law enforcement to lead by service to our communities 
and to the United States of America.
    I would thank you very much for letting me speak here 
today. I would be happy to answer any questions that you might 
have for me. I would ask that my written testimony be entered 
into the record.
    The Chairman. Your complete testimony will be included in 
the record.
    [Prepared statement of Gary Edwards appears in appendix.]
    The Chairman. Where did I say those profound comments? Was 
that out in Reno?
    Mr. Edwards. No, sir; they were in a speech that you gave 
to Indian Country Today. But you did say some great remarks out 
of Reno, as well.
    The Chairman. Frankly, most of the profound comments in 
this committee come from my colleague, Senator Inouye.
    Let me ask you a few questions before we go back to our 
Business Meeting.
    Since you spoke last, Mr. Edwards, let me tell you that I 
am a big supporter, as most of us are I think in this 
committee, of some of the programs you mentioned, like the 
G.R.E.A.T. Program, and the Boys and Girls Clubs. I think we 
recognize very well that you have a choice in this business. 
You put some resources ahead of the curve by helping young 
people.
    A fundamental question is: Are we going to build more cells 
and more prisons and all that later on which is much more 
expensive to say nothing of the trauma that families and 
communities are driven through because we don't have the 
foresight to recognize that we need to help the youngsters more 
often?
    You mentioned several programs that you are working with 
now in different parts of the country. One you mentioned was 
with Fort Lewis College. I didn't know they had anything at 
Fort Lewis College in Colorado that had anything to do with law 
enforcement. What are you doing there?
    Mr. Edwards. Well, they have Southwestern Studies Programs, 
as I am sure you are aware.
    The Chairman. Yes.
    Mr. Edwards. We have made an initial contact with them to 
help us to study and analyze problems in Indian country law 
enforcement.
    Just to give you a brief example. When we look at this 
tremendously high dropout rate, in particular with one of the 
national training facilities for Indian country law 
enforcement, it is approaching 50 percent. Well, whenever we in 
Federal law enforcement have problems that we think is well out 
of line with what it should be and what the rest of the country 
is, then we do a study. From that, then we make adjustments.
    What I don't think has ever really been done is that we 
have gone back and we have looked at our particular tribal 
communities and we have looked at seen exactly what our needs 
are for the recruits' applications, courses, and to deal with 
community specialized issues, problems, and traditions.
    We thought that we could use two of the schools that have 
one of the highest populations of Native Americans in them, 
such as Fort Lewis and also at East Central University--they 
both have close to 1,000 Native American students enrolled in 
each one independently. We feel that if we can give them the 
information that we gather, that they can better help us, based 
upon their experience, to develop a meaningful program for 
Indian country, and where we can cut this dropout rate and 
improve our basic policing.
    It is imperative that we bring our policing levels up to a 
parity with the rest of the United States communities before we 
can really start truly addressing critical infrastructure on 
Indian land for homeland security.
    The Chairman. Fort Lewis college is the only public college 
in the country that I know of that gives free tuition to Indian 
students, too, as you probably know. So I commend you on that 
and hope there is some progress made in that area.
    You mention a number of things on Indian reservations 
including strategic assets, natural resources, borders, and so 
on. We know we have to do a lot more to make sure that the 
Homeland Defense Agency is working well with the Indian 
reservation communities.
    It is a huge job. We have to start somewhere. Where would 
you start as a strategic plan to start improving the security 
of the Nation that is bounded by reservation lands?
    Mr. Edwards. Well, sir, I think that we have already made 
the first step. When you brought people together to discuss the 
problems that we are going to be facing in homeland security 
back about a year ago, we followed that up with the Tribal 
Lands Homeland Security Summit in Reno, Nevada where we 
developed an eight-step training program that the people of the 
conference could train the trainers.
    We are not looking for a wish list from them. Each 
community is individual and different. So we developed a 
program that we could take back to each individual community 
that we could define what terrorism is to the local people. We 
can then look to see what assets that we have in our particular 
communities that might be of interest to a terrorist attack.
    Once we have defined these potential vulnerabilities in our 
areas, then we have to look at how we can protect them. Once we 
look at how we protect them, then we go back and we start 
looking at partners that we can call upon to help us protect 
them.
    The Chairman. When you had your conference in Reno, though, 
we didn't have a Homeland Security Department set up yet. It 
was still bits and pieces.
    Mr. Edwards. Yes, sir.
    The Chairman. At your Reno convention, was there 
interaction between the Federal Government dealing with the 
interaction between homeland security agencies and tribal 
governments?
    Mr. Edwards. Yes, sir; within the program that I was 
describing, we had different sections on each days where we 
actually had discussions between Federal law enforcement 
programs. We had a representative there from the Office of 
Homeland Security at that time that was part of that. We also 
had people from Secret Service, FBI, FEMA, ATF, and the Border 
Patrol. All of these people talked and interacted with tribal 
leaders as they tried to develop stages and plans for preparing 
their communities for homeland security.
    At the end of that particular meeting, we decided that we 
would do a publication, which we are nearing completion now, 
that will be widely distributed. I think that will give a lot 
of enlightenment as to the current situation in homeland 
security on tribal lands.
    As I mentioned, I think the next and most important step 
that we must do is within the Department of Homeland Security, 
to develop a special office just for Native American programs 
and nations. I feel that this should be, at a minimum, at the 
Assistant Secretary's level so that they can interface and deal 
with the particular divisions and offices and agencies within 
the Department of Homeland Security. I think it is critical to 
start there.
    Then from there it is a step-by-step program of actually 
going out, assessing each community, seeing what 
infrastructures we have there, and to bring up the important 
fact that our first responders and law enforcement officers 
traditionally lag behind the rest of the American communities 
in their ability to deal with just the police work challenges 
on a day-to-day basis.
    These priorities have to be brought up to parity with the 
rest of the American communities before that we can really 
effectively protect much of this infrastructure. We have some 
tribes that have some resources, and they are doing the best 
that they can with them. We have other tribes that are not 
addressing this at all. We have to bring this awareness to the 
people.
    We have to have the people to help us identify problems we 
have. We have to be able to relate that to homeland security. 
Homeland Security, through the guidance of the White House and 
Congress, needs to direct funds to these specific areas of high 
vulnerability so that we can secure our homeland, and that 
Indian country can fit seamlessly into the fabric of the 
National Homeland Security strategy.
    The Chairman. Thank you. Homeland security, obviously, is 
going to have to deal with hospitals and health, too, in the 
case of internal attacks.
    Let me go to Mr. Sossamon. Let me start by saying that you 
mentioned in your testimony the average infant mortality rate 
for American Indians and Native Alaskans is 25 percent higher 
than the national average of American infants.
    A study in the Aberdeen area indicated that education and 
outreach programs focused on both of those. Sudden infant death 
syndrome and fetal alcohol syndrome can significantly decrease 
infant mortality. I don't know very much about sudden infant 
death syndrome, but I know quite a bit about fetal alcohol 
syndrome.
    Reducing infant mortality is only part of the real problem 
with FAS. Some of the youngsters that are born, even if they 
are born and have relatively good health, because of the high 
degree of alcohol in their mothers' system, those youngsters 
are born incapable of functioning to the level they would had 
that alcohol not been in their system. Some of them, in fact, 
are to the point where they literally have to be 
institutionalized for life. They almost cannot function by 
themselves.
    Would you like to address that a little bit? I don't quite 
understand. You reduce the infant mortality--which I am very 
supportive of, by the way--but it doesn't get to the long-range 
problem of what happens to those youngsters then throughout 
their life.
    Mr. Sossamon. Mr. Chairman, if I may, I believe that 
testimony was submitted by Mr. Hall.
    The Chairman. Oh, was it? Excuse me. I got all my notes 
mixed up here. Did you do that?
    Mr. Hall. Yes; I talked about the need for health care, Mr. 
Chairman.
    I think that you hit the nail on the head. The real issue 
is the alcohol abuse itself. So clearly there has to be funding 
to prevent alcohol abuse. Then for treatment there is 
intervention, and then finally for those people who are 
affected by SIDS or FAS, there needs to be funding, in some 
cases, unfortunately for long-term care. Sometimes permanent 
institutionalization is needed for these individuals.
    But clearly an intervention would have the resources to 
make a broadbased effect to really protect against alcohol 
abuse, especially during the pregnancy years. That education 
effort really has to be a broadbased educational effort. I 
think the tribal colleges and alcohol and drug programs in a 
coordinated effort can really address that issue. But we really 
have to have a targeted focused approach.
    The Chairman. Targeted toward mothers?
    Mr. Hall. Exactly.
    The Chairman. Since you have the microphone there, you did 
talk about the budget requests for contract support costs. That 
level of funding--$135.3 million--is the White House's 
proposal. Each year the tribes are assuming more responsibility 
for more programs under the Self Governance Act. Do you, as 
NCAI, have an estimate of how many more BIA programs that 
tribes will take over this year?
    Mr. Hall. I think we have an estimate that's pretty close. 
Actually, I think we're funded at about 70 percent. So there is 
probably close to 30 percent more additional that will be 
coming into the system.
    The Chairman. I see.
    Let me now ask Senator Inouye if he has some questions.
    Senator Inouye. I just want to make a few general 
statements. On homeland security, if the provisions of the 
present law are permitted to stand, then the application of 
U.S. Supreme Court's ruling in Nevada v. Hicks may be further 
expanded because the present act says, ``Tribal governments are 
local governments.''
    Therefore, we are working on a measure which we hope to 
introduce sometime this week or early next week, that will 
recognize the inherent authority of tribal governments to 
exercise jurisdiction--criminal, civil, and regulatory--over 
any person who violates homeland security laws. In other words, 
to reorganize your sovereign authority to do this. Otherwise, 
you may have to do whatever the county or the State tells you 
to do.
    The funding that you will under the current act receive 
would be whatever is left over. It would be up to the State or 
the local government to decide whether you get a nickel or five 
dollars. Therefore, I hope that the bill we are working on will 
be well received by the Members of the Congress and passed. We 
will have to, someday soon, enact a measure that will overturn 
Nevada v. Hicks because that is a basic matter before us 
because it concerns sovereignty. As long as Nevada v. Hicks is 
the law of the land, you, and this Committee, will have a lot 
of problems.
    I just want to ask President Hall a question. It has been 
suggested by authorities in the Department of the Interior that 
funds that are set aside for Indian programs be used to pay for 
trust reform out of other Indian programs. Do you favor that?
    Mr. Hall. Absolutely not, Senator. We feel that those are 
trust core functions, like home improvement. Russell Sossamon 
will further attest to that. It is completely underfunded. Road 
maintenance is one-fourth of the funding. TPA is underfunded. 
Contract support costs are underfunded. The list goes on.
    Those core functions are underfunded. If we were to 
transfer those precious few dollars to trust reform for that 
initiative, would really be an under-service and further 
deplete and jeopardize those departments from carrying out that 
Trust responsibility.
    We strongly oppose that initiative.
    Senator Inouye. President Hall, as you know, the chairman 
and I have many things in common. One thing that we believe in 
is that Indian country paid their dues a long time ago. They 
gave their sons and daughters and shed their blood for our 
Nation. They gave their lands. They gave their resources. It is 
about time the U.S. Government met its obligations.
    Anything that will underfund these basic things, I can 
assure you, we are not in favor of. We will not stand for any 
attempt to pay for trust reform. I don't suppose you had 
anything to do with making trust management the way it is.
    Mr. Hall. Absolutely not, Senator.
    I just want to add that one of the reasons I wore the war 
bonnet today was that because of what you just stated. The 
eagle feather represents the highest honors politically and 
militarily for our people in the Northern Plains.
    It saddens me to see that water appropriation dollars are 
zeroed it. It saddens me to see that trust core functions may 
be depleted for the Bureau of Indian Affairs to carry out its 
trust responsibility. It saddens me to see that our colleges, 
like the United Tribes College in Southwestern polytechnicals 
are zeroed out.
    It saddens me to see that these are 3 years of IHS medical 
bills for individuals. One of our tribal members, a young 
mother in her thirties, is afflicted with diabetes and she 
needs a transplant. But she is on this list. She won't be able 
to get a transplant because IHS doesn't have the resources in 
contract health to pay for her unpaid medical bills back 3 
years. The health care vendor has gone after her personally. 
She will be subject to State court because she now resides off 
the reservation to be close to a regional health care facility.
    There are many people in her shoes. We just have to have 
the dollars. For some of our people, it really is a matter of 
life and death. We really appeal to the committee to increase 
these dollars in all of the budgets for BIA, for IHS, for 
education college, and for all of those programs that so most 
deservedly need those dollars. Our people were promised those 
things for the last 150 years now.
    I thank you for that comment, Senator Inouye.
    Senator Inouye. When I saw your eagle feathers I assumed 
that you were not here to beg for anything.
    Mr. Hall. No; I wasn't. That Trust responsibility disturbs 
me and the PART methodology, which is the Program Assessment 
Rating Tool, that OMB is using. In a meeting yesterday with OMB 
officials, I felt that that was being insinuated that I was 
here to beg for those dollars.
    I showed a picture of our tribal council in the 1953 
Garrison Dam legislation where the chairman was crying. It is 
one of the pictures that our sociologists use for socioeconomic 
trauma on forced removal of our people as many of our 
reservations were forced to moved, giving up 156,000 acres of 
land and basically our economic engine.
    This did lead to the Equitable Compensation Act which 
Senator Conrad sponsored. One of the things it said was ``Free 
quality drinking water because we are going to dam up your 
river and it's going to create Lake Sacajawea.''
    When that legislation was signed in 1953 that 
responsibility was promised to those who today are in their 
seventies and eighties. Today they are the ones still having to 
haul water. They told me to demand that the Federal Government, 
the Bureau of Reclamation, the U.S. Congress, and the 
Administration live up to that Trust responsibility of 
replacing these kinds of dollars. They told me, ``That is our 
right since we did live up to our end of the bargain.''
    I was disappointed in some of the discussions. Maybe there 
were some young CPAs that didn't really understand the history 
of what our people had to give up. So thank you for that 
question.
    Senator Inouye. I just want to note something here. Senator 
Conrad is the ranking member on the Budget Committee. The 
chairman and I are members of the Appropriations Committee. I 
will become a new member of the Homeland Security Subcommittee.
    Mr. Hall. Very good.
    Mr. Sossamon. He and I will be members of the new 
Subcommittee on Homeland Security.
    Mr. Hall. That's excellent.
    Senator Inouye. We are going to do our level best to make 
certain you get your money.
    [Applause.]
    The Chairman. I can only second that and add my voice to 
Senator Inouye's. We both are on some committees that I think 
are crucial to Indian country. We work together very well, Tex.
    Mr. Hall. Absolutely.
    Senator Conrad. We will do our very best.
    One thing I want to ask you. The land you said you lost. 
That is really the land that is now under water in the Garrison 
Dam; is that correct?
    Mr. Hall. 156,000 acres under water.
    The Chairman. One other thing. It would be an interesting 
debate at some other forum. But what kind of transplant is the 
lady waiting for that you mentioned?
    Mr. Hall. Kidney.
    The Chairman. Sometime, perhaps not today, I would like to 
talk with you, not necessarily in this format, about the belief 
of Indian people as opposed to modern medicine. I bet there are 
some interesting debates going on about whether transplants of 
organs are within the keeping of what the traditional beliefs 
are of Indian people. It is not for this hearing. It has 
interested me as scientific knowledge moves ahead more and more 
in medical science, how we interact that with the traditional 
beliefs about healing. We will deal with that some other time.
    Mr. Hall. There is, Senator. I would be happy to discuss 
that.
    The Chairman. Senator Conrad, do you have an opening 
statement, comments, or questions? You have always been such a 
great champion for Indian people. I certainly want to give you 
an opportunity.

 STATEMENT OF HON. KENT CONRAD, U.S. SENATOR FROM NORTH DAKOTA

    Senator Conrad. I thank the chairman. I thank the vice 
chairman as well.
    First of all, I want to send a message to OMB that the 
comments yesterday that were made that have been passed on to 
me are totally inappropriate. Frankly, I am angered by it. To 
suggest that the settlement of the outstanding claims around 
the Garrison project are a Federal handout is insulting. And 
it's wrong.
    The Federal Government took land to build a reservoir to 
protect downstream areas and downstream States from flooding. 
We understood the necessity for doing that, and we supported 
it. Now the question is: Does the Federal Government keep its 
word with respect to the promises that were made. That is what 
the settlement was about.
    Promises were made that were never kept. This isn't just my 
opinion. This is the conclusion of a commission from the Reagan 
administration, appointed by President Reagan, that came back 
and reported that the promises were not kept.
    The Federal Government owed hundreds of millions of dollars 
to the Indian people at two reservations in North Dakota, Three 
Affiliated Tribes that Chairman Hall leads, and the Standing 
Rock Sioux Reservation. We achieved a settlement based on money 
that is owed, due and owing, to these people.
    For the people to OMB to suggest that this is some kind of 
welfare, that we are here begging for something, they have it 
all wrong. This is money we owe based on a conclusion of a 
commission, the Joint Tribal Advisory Commission, from the 
Reagan era. It was headed by very distinguished Americans on a 
bipartisan basis who came back with the conclusion that this 
money was clearly owed.
    I apologize for taking this time of the committee, but the 
OMB needs to straighten out their attitude. They ought not be 
insulting people who come here. That's not appropriate.
    I want to especially extend my greetings to Tex Hall, who 
is president of the National Congress of American Indians and 
as I indicated, chairman of Three Affiliated Tribes, we are 
proud of the job that you are doing. I think you have just done 
splendid work. We appreciate it.
    I also want to recognize Ron McNeil, the president of 
Sitting Bull College, and chairman of the President's Board of 
Advisers on Tribal Colleges. He has been a leading advocate. 
Ron is here for increased funding for tribal colleges.
    Let me just say briefly, if I could, Mr. Chairman, there 
are a number of parts of this budget that give me deep concern. 
First, the United Tribes Technical College. It has been funded 
in every budget of every President since 1981. This President 
pulls the plug. No warning. No rationale. No justification. 
That cannot be the conclusion as we move through the work of 
this committee and the institutions of Congress.
    United Tribes is a unique institution. It is the only 
intra-tribally controlled vocational institution in the United 
States. It provides valuable educational opportunities to 
students from 40 tribes across the Nation. The president has 
told me that they are going to have to shut down if this 
funding is pulled as the President has proposed. That just 
cannot be the result. It is not fair. It makes no sense. Tribal 
colleges have a 10-percent cut.
    I have seen first hand the profound difference the tribal 
colleges are making in my State. I will never forget the look 
on the faces on graduates as I have attended the graduation of 
these schools. There is the sense of accomplishment, and the 
opening of the doors of opportunity for people who have had 
them shut in their face for generations.
    This is going exactly in the wrong direction. Let me just 
say that we are providing $9,000 per full-time student for 
other public institutions, and $3,900 for tribal colleges. That 
disparity cannot be justified. The President's proposal to cut 
the funding is without merit.
    On Indian water projects I was frankly shocked by the 
elimination for projects in North Dakota. This is what people 
are expected to drink. This is water from western North Dakota.
    The Chairman. Has that been analyzed, Senator? What's in 
that?
    Senator Conrad. About 20 million carcinogens are in here. 
These are coal seams and the water is on top of the coal seams 
and they soak up things that are in those coal seams, known 
carcinogens.
    They cut the funding to get decent quality water to these 
people? That is inexplicable. That is outrageous. I must say I 
don't know what these people are thinking of.
    On housing, we have families who get their running water 
from a garden hose run through a hole in the wall. We have 
homes in North Dakota insulated with duct tape, cardboard, and 
hay bales. This is reality.
    To see these conditions it is difficult to believe you are 
in the United States and not in a Third World country. I have 
just come from Cuba where the average income is $13 a month. 
You talk about a failed economic system. That's it. But we've 
got a failed system here, too. You go to the Indian 
reservations of my State. It's desperate.
    The National American Housing and Self Determination Act 
has been a good step forward but this budget provides only 
level funding when the need is over $1 billion. Now, this is 
our responsibility. We can't duck this and say, ``No, it's the 
State's responsibility.'' No, no. This is the Federal 
Government's responsibility. We can't duck it and we can't 
suggest it's not there. There is not a person with eyes in 
their head that could come to my State and say that this isn't 
a travesty.
    Finally, on health care, on contract care a patient must 
now fall within the Priority 1 category which means the patient 
has to have a life-threatening illness or injury to receive 
care from a contract carrier. That's wrong. It's immoral.
    If people want to start talking in moral terms, let's start 
talking in moral terms. This is immoral. It's wrong. We have to 
change it.
    Mr. Chairman, I have much more but I wanted to at least 
make those remarks. I thank you very much for your patience.
    The Chairman. Thank you for that very strong statement. We 
will be looking forward to working with you, particularly on 
those issues such as the United Tribes College. I agree that if 
there is going to be a future for Indian people, a good portion 
of it has to come through education. I can't see how we can get 
them to that venue if we are going to cut off the bridge that 
they have to travel across. Thank you very much.
    I would like to thank this panel for being here today.
    We will take a short recess.
    [Recess taken.]
    The Chairman. The committee will be in order.
    We will now proceed with our second panel.
    Julia Davis-Wheeler, Kay Culbertson, John Cheek, and Ron 
McNeil, would you please come forward?
    All of your written testimony will be included in the 
record. I will tell you that we are running a little close on 
time. So if you can be direct with your spoken statements, the 
chair would appreciate it.
    Why don't we start as I listed them. Ms. Davis-Wheeler.

STATEMENT OF JULIA DAVIS-WHEELER, CHAIR, NATIONAL INDIAN HEALTH 
                       BOARD, DENVER, CO

    Ms. Davis-Wheeler. Thank you, Senator Campbell and Vice 
Chairman Inouye. Thank you for this opportunity to comment on 
the President's fiscal year 2004 Indian Health Service budget 
request.
    I am here today on behalf of the National Indian Health 
Board. The Board of Directors send their regards and their 
congratulations for doing this hearing. As you know, I am on 
the tribal council for the Nez Perce Tribe. I serve as 
Secretary, but I also serve as chair of the Northwest Portland 
Area Indian Health Board. My compliments and support go to Tex 
Hall, Mr. Sossamon, and Gary Edmonds on their testimony 
previous to ours.
    You have our written testimony, but I want to be very 
specific about our budget concerns. You may be aware that the 
Administration and the Department needs to tweak the actual 
fiscal year 2004 request a bit to reflect the enacted fiscal 
year 2003 budget that was not available when the President 
submitted this fiscal year 2004 budget which he did last 
Thursday.
    So we don't really have exact numbers to work with at this 
time. It is my hope that the Administrative can revise the 2004 
budget now that they have the President's 2004 budget.
    The Northwest Portland Area Indian Health Board always does 
an analysis on the President's budget, and we are going to do 
that the second week in March. We will analyze his budget and 
send you a copy of the analysis.
    First of all, I would like to talk about the goal of the 
Administration to reduce health disparities. The best way to do 
this is to adequately fund the Indian Health Service. A minimum 
of $325 million increase is needed to maintain the current 
program funded by the IHS budget.
    The Administration is requesting an increase that will 
create a $250 million shortfall in funding. The fiscal year 
2003 budget signed by the President contains a 3.3-percent 
increase, or $90 million. This was about $220 million less than 
needed to maintain our health programs. So you can see in just 
two short years we are facing nearly one-half million dollars 
in funding shortfall for Indian Health Service funded programs.
    It is also a strong principle of this Administration to 
hold governments to their treaty obligations. Most tribes will 
have to fill in the funding shortfall with their own funds to 
maintain the Federal obligation for health care services to 
Indian people. Unfortunately, some tribes cannot do this, and 
services will cut.
    Every tribe will now have to spend money on health that 
they had hoped to spend on other priorities, such as economic 
development, education, or training for our people. States are 
cutting back on their Medicaid programs, and the first cuts 
will affect our dental programs and our pharmacy programs which 
are high-cost services that are going to be cut by the State 
programs. This has already happened in Idaho. It will also be 
the case in Oregon on March 1.
    These State Medicaid cuts are very significant and they 
call into question the wisdom of depending on States to honor 
the Federal obligation to Indian tribes. It isn't working in my 
State.
    I would like to give you an example on how the President's 
request falls shorts of reasonableness even in this time of war 
and poor economic performance. The contract health service line 
item is $475 million this year. Medical inflation is about 12 
percent. This means we need $50 million added to the budget to 
buy specialty and hospital services. The President is 
requesting a $25 million increase just one-half of what we need 
to stay even.
    The $1.2 billion hospitals and clinics line item does not 
even sufficiently fund the pay-out cost increases and the 
increases needed for paying staff and new facilities. There is 
no money for the Indian Health Care Improvement Fund unless 
that money is taken from other parts of the program that need 
inflationary increases.
    There is no increase for contract support costs at all. 
This means mature contractors will get no increase to keep in 
pace with inflation, and anyone wishing to expand or enter into 
new contracts, like the Navajo Nation, will have to forget 
their plans and get in line and hope for funding in the future.
    Self governance is a successful example of contracting that 
we think deserves continued support. Facilities funding remains 
inadequate, but we welcome the $20 million increase for 
sanitation facilities, which has been a long time coming. Last 
year the urban programs only received a 1.2 percent increase, 
far less than the 10 percent required to keep pace with medical 
inflation.
    My 5 minutes are over, but I very much would like to answer 
any questions you have. I look forward to coming back to 
testify on the Indian Health Care Improvement Act. At this 
time, I would like to thank your staff, namely Patricia Zell, 
for working with our technical people on getting that Indian 
Health Care Improvement Act. I want you to know that we are 
pursuing to get that bill completed by the end of March and 
introduced into the 108th.
    Thank you.
    The Chairman. Your written statement will be placed in the 
record.
    [Prepared statement of Julia Davis-Wheeler appears in 
appendix.]
    The Chairman. Ms. Culbertson, you may proceed.

 STATEMENT OF KAY CULBERTSON, PRESIDENT, DENVER INDIAN HEALTH 
                AND FAMILY SERVICES, DENVER, CO

    Ms. Culbertson. Good morning, Honorable Chairman Campbell, 
Vice Chairman Inouye, and committee members. My name is Kay 
Culbertson. I am the president of the National Council of Urban 
Indian Health, and more importantly I am a member of the Fort 
Peck Assiniboine and Sioux Tribes from Poplar, MT. Right now I 
am also serving as the executive director of Denver Indian 
Health and Family Services.
    On behalf of NCUIH, I would like to express our 
appreciation for the opportunity to address the committee on 
the fiscal year 2004 President's budget request and its impact 
on the off-reservation Indian population.
    Before I begin, Chairman Campbell, I want to make special 
mention of your article in Indian Country Today entitled, 
``Charting a New Course for Indian Health Care.'' This article 
addressed the full spectrum of Indian health both on and off 
reservations. NCUIH is thankful to you for your acknowledgment 
and support of urban Indian health needs.
    NCUIH is a membership organization representing urban 
Indian health programs. Our programs provide a range of health 
care services and referrals in 41 cities throughout the Nation. 
Our programs are often the main source of health care and 
health information for urban Indian people.
    The urban Indian health programs have achieved 
extraordinary results despite the great challenges that we 
face, mainly the lack of funding. As you know, the 2000 Census 
reports that 66 percent of the American Indians live in urban 
areas. We realize that not all of that 66 percent lives in the 
41 cities that we serve, but there are 66 percent of the Indian 
people who are going without services throughout this country.
    As opportunities for employment, education, and housing 
become more strained on reservations, we anticipate that these 
percentages will continue to increase over the next ten years. 
It should be added that the American Indian population is 
widely considered the most under-counted group in the Census 
overall. Although the total number of Indians may actually be 
low, our experience is that the percentage of Indians living on 
reservations compared to those who reside off reservations is 
accurate.
    The fiscal year 2004 President's budget request for the 
Indian Health Services is $3.6 billion, a net increase of $130 
million. However, if the budget request keeps spending, the 
urban Indian health programs are flat.
    Of course, NCUIH supports any increase to the IHS budget, 
but that same increase should be reflected in the budget line 
item specifically for urban Indian health programs. Much like 
the on-reservation programs, urban Indian health programs have 
experienced a continual increase in the need for our services. 
In fact, the increase of the Indian population residing in 
urban areas is likely greater than the increase than it is on 
the reservations.
    The Indian Health Service budget funds, and the urban 
Indian health programs, are only a small percentage of the 
total number of Indians eligible for those services in most 
cities.
    In fiscal year 2003, urban Indian health programs received 
1.12 percent of the total Indian Health Service budget. 
Although urban Indians constitute well over one-half of the 
total Indian population, in 1979 at a time when urban Indians 
made a much smaller percentage of the overall Indian 
population, the urban Indian programs received 1.48 percent of 
the Indian Health Services budget.
    These figures indicate a dramatic decline of the level of 
funding for urban Indian health programs and off-reservation 
tribal members. As a result of this less funding, urban Indian 
health programs can only service 95,767 people of the 605,000 
urban Indians that are currently eligible to receive services 
in our area.
    In providing these services we have encountered barriers 
that the tribes do not face. Unlike tribal facilities, urban 
Indian health programs are not extended by the Federal Tort 
Claims Act for medical malpractice insurance. We are facing a 
malpractice crisis, much the same as the surgeons that are in 
Florida where they have walked out because malpractice 
insurance is so high. We face those same costs in the urban 
Indian health care programs because of our lack of the Federal 
Tort Claims Act leverage.
    We have been quoted rates for malpractice insurance that 
range from $5,500 to over $10,000 for one general practitioner. 
This is one person. The malpractice insurance costs, especially 
for obstetrics and psychiatry, are cost prohibitive to most of 
the urban Indian health programs.
    One of the clinics in our membership has malpractice costs 
in excess of $50,000. That is more than we pay probably a 
nurse-practitioner in my clinic at this time.
    Recruitment and retention continue to be difficult for 
urban Indian health programs. Although our professional staff 
are eligible for the loan repayment and the scholarship 
payback, we continue to compete with tribes and the private 
sector in the cities where we live.
    As nonprofit 501(c)(3) organizations, our salaries and 
benefits differ greatly from the Indian Health Service and the 
tribes and the private sector. I can give you an example. I had 
a job open for probably six months because I couldn't bring on 
a diabetes educator. The diabetes educators in the general 
market in the Denver area get around $65,000-$70,000. Indian 
Health Services will pay between $50,000-$65,000. I could only 
offer $45,000. So it was very difficult finding a qualified 
person that could come in and do the work that we needed with 
our diabetics.
    So I can honestly say to you that the staff who are working 
in these urban Indian health care programs have a true sense of 
commitment to bettering the health of Indian people across the 
country regardless of where they live.
    We also need money in order to enhance program data 
collection and funding from third-party collections. It is 
imperative that urban Indian programs utilize an accurate data 
system much like the Resource Patient Management System for 
Indian Health Service, RPMS, as it is formally know. Although 
RPMS software is provided at a minimal cost, the cost 
associated with the use of it can exceed over $500 a month.
    Now this may seem like a small amount, but that can be the 
difference between buying medications for a diabetic, or buying 
medications for someone with hypertension. So it is a strain on 
us. Then you incur additional costs through trainings and 
updates and additional hardware.
    Many of the urban programs have also gone to other 
commercial software packages to other commercial software 
packages to do their data collection. Those are expensive; we 
have heard between $25,000-$75,000 for those sources. We need 
to have something that meets the needs of the urban Indian 
health programs and can collect all of the data from all of the 
other funding sources that we have. Some programs have as many 
as 25 different funding revenues to their programs.
    One of the greatest needs that we have are dental services 
for Indian health programs. I know that we have talked about 
this before. Currently we see people in Denver who are in need 
of extensive dental work. We brought a small package plan so 
that we could promote dental prevention and hygiene. We have 
not had one person that has just only need of cleanings. We 
have had people that come in that need root canals. Children as 
young as 5 years old need root canals. They are young--30 years 
old--and they have dentures. Dental care for urban Indians is 
just nonexistent. Many of the private doctors do not take 
Medicaid so our patients are pretty much stuck out there 
without dental work.
    We must also address the medical inflation rate. 
Considering these factors, we are actually getting a decrease 
in the amount of funding. Urban programs already experience 
severe limitations as a result of inadequate funding.
    I want to give you an example of a patient of mine that 
came in to our clinic. He is 40 years old. He is a member of 
the Sisseton-Wahpeton Tribe with diabetes and hypertension. He 
presented to our clinic for routine management of his diabetes 
and hypertension. We saw him. We were able to provide him with 
medications and exams.
    While we were trying to control his diabetes with 
medications and diet, his hypertension went out of control and 
his lab work suggested the beginning stages of renal failure. 
Attempts were made to improve the patient's renal function 
through diet and medication modification. Despite these 
attempts, the patient's renal function continued to decline and 
he was in need of a renal consult.
    This was a difficult situation. The patient was fully 
employed but he did not have health insurance and yet he could 
not pay for a specialist to look at his kidneys. Assessing the 
State-funded programs became very difficult. The patient needed 
to work, and continued to work to support his family, but his 
income was too high to qualify for any assistance.
    He moved to Denver because of the influences that 
surrounded him at home were having a negative effect on his 
health and well being. He came to Denver looking for work and 
for opportunity. He felt that returning to the reservation to 
access care at the IHS facility was not an option for him. Thus 
begins the search for services.
    We were able to contact a nephrology clinic at the 
University of Colorado Health Sciences Center. This facility 
will see uninsured patients with the understanding that they 
will be required to pay a $300 deposit, which he did not have 
and which we did end up paying, and then be billed later for 
services.
    We tried to work with the contract health care back at his 
home reservation without success. We were unable to get calls 
returned. We were unable to provide services for him. 
Ultimately the patient couldn't afford it. He moved back to the 
reservation and now he has qualified for contract health care 
which we have heard is already in severe shortages. Then he has 
to look for a job. If not, he will go to the tribe and look to 
them for further assistance.
    There have been multiple instances of this where we have 
had to send people to the emergency room because of cardiology 
referrals. We just can't access them in a timely manner. Many 
of our patients who benefit from stress tests are unable to pay 
for and access such services. That is critical when you are 
looking at diabetes prevention and hypertension as far as the 
complications that go along with it, and being able to set up 
an exercise program or a diet program for them.
    To access the urban Indian health planning disparity in an 
amount that urban Indian programs could effectively put to use, 
NCUIH recommends a $6-million increase to President Bush's 
fiscal year 2004 budget for urban Indian health programs. This 
would lift our funding from $29,947,000 to $3,947,000.
    While we realize this will not address the total need, we 
believe that it will be a beginning for us to start closing the 
gap of health disparities for people living off-reservation. 
The proposed increase would have a huge impact on the provision 
of health care. A $6 million increase for urban Indian health 
would find much needed resources to allow for the recruitment 
and retention of personnel essential to the provision of health 
care in urban settings, and would enhance the integration of 
clinical expertise for medical and behavioral health. Substance 
abuse is very big issue for us.
    Ms. Culbertson. Am I almost out of time?
    The Chairman. Unfortunately, we are going to need to move 
along, please.
    Ms. Culbertson. Okay. Needless to say, the Indian Health 
Service really has not provided us with the money that we need 
to provide services to urban Indian health programs. We would 
like to thank you for letting us testify today. We look forward 
to seeing you hopefully at our conference in March.
    I would ask that my written testimony be inserted in the 
record.
    [Prepared statement of Kay Culbertson appears in appendix.]
    The Chairman. Thank you.
    John, why don't you proceed.

 STATEMENT OF JOHN CHEEK, EXECUTIVE DIRECTOR, NATIONAL INDIAN 
             EDUCATION ASSOCIATION, ALEXANDRIA, VA

    Mr. Cheek. Good morning, Chairman Campbell and Vice 
Chairman Inouye. My name is John Cheek. I am executive director 
with the National Indian Education Association. We are a 
membership organization of almost 4,000 members. I bring 
greetings from our President, Robin Butterfield, who could not 
be here today.
    Today's hearing focuses on the fiscal year 2004 funding for 
Indian programs. This is a period of tremendous challenge in 
all schools, but especially in Indian schools across the 
country. The requirements of the ``No Child Left Behind Act'' 
mandate much more from students and schools than they have ever 
had to produce before. Since Indian students as a group tend to 
score lower than other groups, the challenges they face are 
going to be much harder to achieve.
    The ``No Child Left Behind Act'' assumes all students leave 
the starting line at the same location and reach the finish at 
the same time. This is simply unrealistic when you factor in 
economic status, access to resources, family income, etc. The 
``No Child Left Behind Act'' requires all students to reach 
proficiency levels, and sanction schools when students do not 
make substantial progress. Indian schools and administrators 
are under the gun to produce results or risk losing their 
students, their schools, and their jobs.
    How does a school change to create such substantial 
increases in achievement? We hear that students are being 
subjected to more homework. Will that increase achievement? 
Schools that do not have a new idea are going to try more the 
same. We do not think that is a successful approach.
    Resources are needed if the ``No Child Life Behind Act'' is 
to be fulfilled. Resources for curriculum development, 
resources for innovation, resources for new and better use of 
technology, and resources for staff development are also 
needed. The Department of Education budget has some increases 
but not nearly enough. The BIA school system gets a little more 
than pay cost adjustments, but yet has the same challenges and 
responsibilities as the State system.
    There was a promise of substantial new resources for 
schools in the act. For example, title I, the largest title in 
``No Child Left Behind'' was authorized at a level of $18.5 
billion in fiscal year 2004. But the request falls short by $6 
billion. Across the board there is funding to maintain the 
status quo. Pay increases are generally provided for, but this 
is law is requiring much more than the status quo. This law 
mandates substantial increases in achievement.
    NIEA's concern, of course, is focused on funding for Indian 
education. Most program for American Indians are located in the 
Departments of Interior and Education. Within the Education 
Department funding is being requested at the same level as 
2003. The request of $122 million provides educational services 
for over 460,000 K-12 Indian students and 1,200 public schools 
in 43 States.
    NIEA is requesting a nominal increase to $129 million to 
include additional funding for the American Indian 
Administrator's Corps, the National Advisory Council on Indian 
Education, and the travel departments of education and Indian 
fellowships. With the exception of travel education 
departments, all of these programs have a successful track 
record of meeting the educational needs of Indian country.
    One innovation provided for in the ``No Child Left Behind 
Act'' is the authorization for tribes to assume more control 
over their educational programs. Through the development of 
tribal educational departments, which would operate in a manner 
similar to State departments of education, the authority is 
there but the funding is not.
    We believe that a tribally-controlled educational system 
would be more likely to motivate students and achieve the 
success required if they are allowed to do so. Funding for 
travel education departments is a step toward true self 
determination.
    Another program is the American Indian Administrator's 
Corps authorization. It is the companion program alongside the 
American Indian Teacher Corps. Today, the Teacher Corps program 
is on its way to adding 1,000 new Indian teachers to the 
teaching force in Indian schools across the country. While 
teachers are greatly needed, they equal only part of the 
equation. Without inspired and effective school leaders at 
these schools, we will likely continue to see high turnover 
rates of Indian teachers that plague Indian schools today.
    NIEA strongly recommends that funding be restored to the 
Administrator's Corps, and to support the Indian teachers 
exiting the program in the next few years. In 2002, the program 
was funded at over $3 million, but in 2003 the program was 
recommended for only $360,000. No funding is requested in 2004. 
NIEA is recommending at least $1 million be refocused on this 
program.
    Education funding for the Department of the Interior's 
Bureau of Indian Affairs is more costly since it covers the 
full spectrum to assist over 50,000 students, numerous tribal 
college students, teachers, and ancillary personnel. The total 
direct education allocation for BIA for K-12, tribal colleges, 
higher education scholarships, and construction is over $930 
million for fiscal year 2004.
    While this may seem like an enormous amount, you must 
consider that the funding covers the students, the class room, 
and everything else associated with it, such as transportation, 
construction, and personnel.
    I want to mention one very positive thing that is 
happening, however. The bipartisan initiative begun by this 
committee a few years ago to replace and repair the facilities 
of the Bureau of Indian Affairs continues with no reduction in 
funding levels. Both the Administration and the Congress are 
staying the course. The facilities, and the schools funded by 
the BIA are greatly improving.
    In closing I did want to make a couple of requests of the 
committee. This year there is a pretty heavy education agenda 
for the Congress. We have three major education 
reauthorizations occurring this year: The Individuals with 
Disabilities Education Act, the Higher Education Act, and the 
Head Start reauthorization.
    NIEA is requesting that an oversight hearing be held on 
each one of these authorizations, the sooner the better, so we 
can make sure Indian county's concerns are included in these 
reauthorization bills as they move forward.
    In closing, I would just thank the committee for inviting 
NIEA to present testimony on the fiscal year 2004 funding 
request. I would be happy to answer any questions the committee 
may have. Thank you.
    I would ask that my statement be included in the record.
    [Prepared statement of John Cheek appears in appendix.]
    The Chairman. I am told by staff that we are going to do 
oversight hearings on all the things you suggested.
    Mr. McNeil.

    STATEMENT OF RON McNEIL, CHAIRMAN, PRESIDENT'S BOARD OF 
  ADVISORS ON TRIBAL COLLEGES AND UNIVERSITIES, SITTING BULL 
                    COLLEGE, FORT YATES, ND

    Mr. McNeil. Chairman Campbell, Vice Chairman Inouye, and 
distinguished members of this committee, on behalf of the 
Nation's 34 Tribal Colleges and Universities, which comprise 
the American Indian Higher Education Consortium, I thank you 
for extending to us the opportunity to testify today on the 
President's fiscal year 2004 budget. I am honored to be here.
    My name is Ron McNeil. I am Hunkpapa Lakota from the land 
known as the Standing Rock Reservation. For the record, I am 
here in my capacity only as the President of Sitting Bull 
College and as a representative of the American Indian Higher 
Education Consortium.
    For 9 of the past 11 years, I have served as president of 
my tribe's college, Sitting Bull College. Sitting Bull College 
is my alma mater. I attended school there in 1982 and 1983 and 
went on from there to achieve my juris doctorate degree and 
then returned home in 1988 to be employed with the College.
    I say that because if it wasn't for my beginnings at 
Sitting Bull College, I don't think I would be here to testify 
today. Sitting Bull College is one of the first and oldest 
tribal institutions of higher education. My tribal leaders 
founded the college in 1973 for a simple reason: The near 
complete failure of the higher education system in the United 
States to meet the needs or even include American Indians.
    For the past 30 years the idea of tribal institutions of 
higher education has spread throughout Indian country. Today 
despite decades of severe funding inequities and Federal budget 
cuts, 34 tribal colleges and universities in 12 States are 
educating upwards to 30,000 Indian students from 250 federally 
recognized tribes.
    I must emphasize that point because I know that at some 
point in time, Senator Dorgan of this committee was asked by 
another Senator why should he support tribal colleges when 
there was no tribal college in his State. The idea is that 250 
recognized tribes are not all in the 12 States that we serve. 
Many of those students come from States that do not have tribal 
colleges.
    I am going to skip a lot of the history about tribal 
colleges and move on very quickly to say that most of our 
institutions are located on Federal Trust land. States, 
therefore, have no obligation to fund tribal colleges. Most 
States do not even provide funding for non-Indian State 
resident students who attend tribal colleges and account for 
approximately 20 percent of our enrollments. In other words, 
funding for tribal colleges and Indian students are helping 
support the education for non-Indian students at our colleges.
    Despite trust responsibilities and treaty obligations 
resulting from exchange of millions of acres of land, the 
Federal Government has, over the years, not considered funding 
American Indian higher education a priority. For the past 21 
years since the initial funding of the Tribal College Act, our 
institutions have been chronically underfunded.
    Our fiscal year 2003 estimated funding level for title I of 
the Tribal College Act is about $3,900 per Indian student, 
which is still less than the two-thirds of the authorized level 
of $6,000 per Indian student. I emphasize that point as well 
because in 1988 all we received for our Indian students was 
$1,800 per student. I would like to see a State-supported 
institution keep its doors open on $1,800 per student.
    But our situation could be even worse this next year. If 
enacted, the President's fiscal year 2004 budget request for 
basic operations of the tribal college would result in a $4 
million cut from the 2003 level recently approved by Congress. 
This marks the second year in a row that the Administration has 
recommended a cut in our funding and has zeroed out funding for 
United Tribes Technical College and Crownpoint Institute of 
Technology.
    Simply put, this is unconscionable and shortsighted.
    We respectfully urge the members of this committee to lead 
the Senate in rejecting this number and appropriating a more 
reasonable level of funding. For 2004 we respectfully request 
$49.2 million for titles I and II of the Tribal College Act. 
This increase would bring funding for basic operations at 
existing eligible tribal colleges to $4,500 per Indian student 
count which still represents just three-fourths of the 
authorized amount of $6,000 per student, and also to restore 
funding to United Tribes Technical College and Crownpoint 
Institute of Technology.
    Last month the President announced that he was increasing 
title III programs by 5 percent. However, the President's 
fiscal year 2004 budget recommendation of $19 million for 
tribal colleges under Title III would actually decrease funding 
from the 2003 level by $4 million.
    We request that funding for the tribal college title III 
program be funded at $27 million, an increase of $4 million 
over fiscal year 2003, and $8 million over the President's 
request.
    One hundred and forty years ago, Congress enacted 
legislation establishing the Nation's first land grant 
institutions. Nine years ago, Congress established tribal 
college and universities as land grant institutions. We call 
them the 1994's. Congress created four very modest programs 
specifically for the 1994 land grant institutions. We urge your 
careful attention to them. Funding details are provided in my 
written remarks.
    Finally, Mr. Chairman, for fiscal year 2001, a bipartisan 
group from the Administration and Congress came together to 
launch a modest, but direly needed facilities initiative for 
our colleges.
    With help from many members of this committee, several 
small competitive grant programs were established to help the 
infrastructure problems that plague our institutions. Programs 
of $3-$4 million were established in the Department of Housing 
and Urban Development, the Department of Defense, and the 
Department of Agriculture's Rural Community Advancement 
Program, called RCAP.
    These programs, together with the Department of Education's 
Title III program, have helped tribal colleges address the 
critical need for new enhanced facilities on our campuses. 
Unfortunately, annual appropriations for these programs has not 
grown in the past 3 years. In its fiscal year 2004 budget 
request, the Administration would eliminate entirely tribal 
college facilities under the USDA's RCAP program.
    We urge the committee to join with other members of the 
Senate to preserve the RCAP program and to strengthen the other 
programs which have enabled our schools to build classrooms, 
computer and science laboratories, child care centers, and even 
a veterinarian clinic.
    Mr. Chairman, I am grateful for this opportunity to present 
our recommendations to help bring equality in education and 
economic opportunities in Indian Country to the tribal colleges 
and universities. Thank you.
    I ask that my testimony be included in the record.
    [Prepared statement of Mr. McNeil appears in appendix.]
    Senator Inouye. I have been on this committee now for many, 
many years. I have had the privilege of serving as chairman and 
Ranking Member during most of those years. It is always sad to 
listen to testimony such as this because I know it is true.
    For example, as you indicated, the per capita amount that 
the Federal Government provides tribal colleges would be $1,800 
per student?
    Mr. McNeil. In 1988; yes, sir.
    Senator Inouye. For Howard University, for African-
Americans, it is nearly $20,000. I have been working on a 
Native American university proposal. It has been a slow 
process. I hope that sometime in the next 12 months I will be 
able to conduct consultation hearings in about four regions to 
get the views of tribal educators to tell me, and to tell the 
committee what they hope to have as a Native American 
university. There are many concepts and ideas.
    But as you have pointed out, the way we have responded to 
the needs of education in tribal colleges is obscene. I can 
assure you that we will keep on doing what you think should be 
done.
    The other thing that I should note is that history 
indicates that whenever this Nation is faced with some crisis, 
such as war, that becomes the priority. And as such, other 
programs begin to get hurt. I can assure you that this 
committee will do its utmost to make certain that your 
priorities do not get diminished or disappear because they are 
very important.
    I have just one question. You qualify as a land grant 
college. There is an obligation and Trust responsibility on the 
part of the Federal Government for the education of Indian 
children. Why is it that many States refuse to provide 
assistance when you provide education to non-Indian students in 
tribal colleges? About 20 percent of the student body is non-
Indian; isn't that correct?
    Mr. McNeil. Twenty percent are non-Indians, yes.
    Senator Inouye. Can you tell me why the States are 
reluctant to provide assistance. They do it for other colleges.
    Mr. McNeil. I can answer that in terms of North and South 
Dakota. That is where Sitting Bull College and Standing Rock 
Reservation is located. In North Dakota we have approached the 
State legislative body a number of times. The last time that we 
approached them, their response to us was that since the North 
Dakota tribes have casinos and many non-Indians go to those 
casinos, that is how they are making their contribution to 
Indian education. They go to our casinos and spend their money.
    That was, in fact, one of the comments that we heard back 
from the Senators of South Dakota.
    Senator Inouye. Which Senators told you that?
    Mr. McNeil. North Dakota.
    South Dakota did appropriate $50,000 for the tribal 
colleges for the non-Indian students attending there. However, 
the Governor at that time said that he thought that it was 
unconstitutional to give money to a special group within the 
State, and therefore, refused to release the $50,000. Our 
comment back was every group that comes to the State 
legislative body, whether it be farmers, ranchers, handicapped 
personnel, veterans--anybody is a special group that goes 
there. So they should have released the money.
    Senator Inouye. Well, we've got problems. [Laughter]
    Homeland security is one of the top priority matters. Has 
the Indian Health Service consulted with tribally-controlled 
hospitals and clinics on matters relating to homeland security 
and emergency response preparedness?
    Ms. Davis-Wheeler. We, as tribes, Senator Inouye, have 
individually looked at homeland security. We have a very 
progressive tribe in Oregon, the Confederated Tribes of Warm 
Springs, that have Commission Corps public health service that 
have pushed their way into county meetings and State meetings 
regarding homeland security. That has pretty much been an 
initiative that that tribe has done.
    So each tribe is basically doing our own thing. The 
National Indian Health Board, on the other hand, has been 
following that homeland security legislation and the whole 
workings on that very closely. We do have some information that 
we have been sending our tribes.
    But as for Indian Health Services, truthfully, they are 
just looking at their budget and how less money they have 
besides looking at homeland security. They are dealing with 
their own. That is my perception.
    Senator Inouye. So they haven't done anything?
    Ms. Davis-Wheeler. Not that I know of.
    Senator Inouye. What about urban Indian clinics?
    Ms. Davis-Wheeler. Yes; not a coordinated effort.
    Ms. Culbertson. And the same goes for the urban Indian 
health programs. I know that one of the programs in Kansas had 
been working with homeland security and was called upon by the 
State. Unfortunately, when she went to the meeting, they said, 
``No, we are supposed to be working with the tribes; so you 
need to leave.''
    So as far as the urbans go, we are just working within the 
counties and States that we are in, and are hoping that we will 
able to dovetail with some of their things. But officially, no, 
Indian Health Services has not looked at homeland security for 
urban Indian health programs.
    Senator Inouye. I have so many questions but every time I 
ask one it makes me sad. [Laughter.]
    I have discussed this matter with the chairman before he 
left, and I can assure you that this committee, whether it be 
on education, health, or any other program, we will seek the 
highest funding possible. If there are going to be any cuts, it 
will not come from this Committee. If we should decide to put 
in a lower figure, then you can be assured that when the 
appropriating committees get into action, they will go below 
that.
    So, frankly, we are going to increase the Indian program 
budget to the extent possible. Otherwise, your priority will be 
low. We don't want to see that happen.
    Ms. Davis-Wheeler. Senator Inouye, if I may, I would like 
to thank you. As a tribal leader I have been familiar with many 
of our tribes across the United States. All of us have a 
constitution and bylaws that we go by that we rule our people 
with. I really hope that we can see a better budget in fiscal 
year 2004.
    Because it is in our constitution and bylaws to take care 
of our people through health, education, and welfare, I want to 
thank you from the bottom of my heart that you will make sure 
that doesn't happen.
    Senator Inouye. The other matter that I think is very 
important--and this is something that we have to work with 
you--is the Indian Health Care Improvement Act. We have been 
working on this for too long. It is about time it became law. 
If it should become law, then your problems with malpractice 
may be addressed. So let's get down to work on this one.
    I think we are getting close to the point of introducing 
the measure. If we are, we should do it as soon as we can so we 
will have at least 1 year. The bill will have to go to several 
other committees. The sooner we get it done, the better.
    I will instruct the staff to get into action now and see 
what we can do.
    Ms. Culbertson. Thank you, Senator.
    Senator Inouye. The Department of Education, because of 
priority fundings, has suggested a decrease in impact aid of 
about $300 million--$289 million. How would that affect schools 
or any other programs in Indian country?
    Mr. Cheek. I think in terms of the cut, that is a 
substantial cut given what that program has received in 2003 
and 2002. It is almost a $300 million cut. I believe that cut 
is occurring under the B category of students that are funded 
under the Impact Aid Program. To the best of my knowledge, a 
lot of the students that are going to be impacted, are those 
students that have parents that live or work in military 
installations.
    I think, given the fact that we have a pending war on the 
horizon, I think the Administration took an unwise move, to 
move money out of that category in light of the military build 
up and all of the resources that are heading in that direction.
    In terms of the impact on Indian students, I think it is 
probably a minimal effect since most of the dollars that go for 
Indian students come out of category A. Actually, American 
Indian students generate the majority of funds under Impact A.
    But typically what I have seen over the past several years, 
the Administration will ask for a lower amount and then I think 
that outside voices will bring the funding back into it. So 
this may be the same thing that they are trying this year. But 
I think the fact that it is affecting military people is 
unconscionable.
    Senator Inouye. Personally I would hate to get involved in 
any process that would reduce the funding for Indian programs. 
But the reality of political life would suggest to me that will 
happen in the budget and appropriating process.
    That being the case, could you provide the chairman, and 
provide me with a list of those things that all of you would 
consider absolute musts?
    Mr. Cheek. Yes; we will be happy to provide that, Senator.
    Senator Inouye. Otherwise, there is a tendency in the 
Congress to have across-the-board cuts--a 10-percent cut across 
the board. When you do that, you would be cutting absolutely 
essential measures and cutting some that are not that 
essential. So if you can provide the leaders of this committee 
a list of those programs that you consider musts, we would be 
most appreciative. Then we can secure some guidance from you.
    With that, I will have to adjourn this hearing because of 
the time element here. But may we submit questions to you for 
your response?
    Ms. Davis-Wheeler. Yes.
    Ms. Culbertson. Yes.
    Mr. Cheek. Yes.
    Mr. McNeil. Yes.
    Senator Inouye. The subject matter that we are involved in 
now is so essential that we would like to get responses in 
detail.
    With that, I thank all of you for your attention. Thank you 
all for your testimony. The hearing is adjourned.
    [Whereupon, at 12:04 p.m., the committee proceeded to 
further business.]
=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator From Hawaii, 
               Vice Chairman, Committee on Indian Affairs

    Mr. Chairman, I am pleased to join you in this hearing today as we 
receive testimony from the tribal organizations that represent the 
interests and concerns of Indian country.
    I am certain that, as they have in the past, these organizations 
have studied the Presidents Budget Request for Indian programs for 
fiscal year 2004 carefully and that they will provide this committee 
with information on the impacts of the President's Request that can be 
anticipated in Indian country.
                                 ______
                                 

Prepared Statement of Julia Davis-Wheeler, Chairperson, National Indian 
                              Health Board

    Chairman Campbell, Vice Chairman Inouye, and distinguished members 
of the Senate Indian Affairs Committee. I am Julia Davis-Wheeler, 
chairperson of the National Indian Health Board. I am an elected 
official of the Nez Perce Tribe, serving as Secretary, and also chair 
the Northwest Portland Area Indian Health Board. On behalf of the 
National Indian Health Board, it is an honor and pleasure to offer my 
testimony this morning on the President's Fiscal Year 2004 Budget for 
Indian Programs.
    The NIHB serves nearly all Federally Recognized American Indian and 
Alaska Native (AI/AN) Tribal governments in advocating for the 
improvement of health care delivery to American Indians and Alaska 
Natives. We strive to advance the level of health care and the adequacy 
of funding for health services that are operated by the Indian Health 
Service, programs operated directly by Tribal Governments, and other 
programs. Our Board Members represent each of the 12 areas of IHS and 
are elected at-large by the respective Tribal Governmental Officials 
within their regional area.
    As we enter the 108th Congressional session, we Gall upon Congress 
and the Administration to address the funding disparities that continue 
to hamper Indian country's efforts to improve the health status of 
American Indians and Alaska Natives. No other segment of the population 
is more negatively impacted by health disparities than the AI/AN 
population and Tribal members suffer from disproportionately higher 
rates of chronic disease and other illnesses.
    Indian country has continuously advocated for equitable health care 
funding. Health care spending for AI/AN's lags far behind spending for 
other segments of society. For example, per capita expenditures for AI/
AN beneficiaries receiving services in the IHS are approximately one-
half of the per capita expenditures for Medicaid beneficiaries and one-
third of the per capita expenditures for VA beneficiaries. Sadly, the 
Federal Government spends nearly twice as much money for a Federal 
prisoner's health care that it does for an American Indian or Alaska 
Native. The failure of the federal government to provide equitable 
health funding for American Indians and Alaska Natives reflects a 
tragic failure by the United States to carry out its solemn Trust 
responsibility to American Indian and Alaska Native Tribal governments.
    Further exacerbating the current funding situation are the 
challenges our Nation faces relating to the war on terrorism, a 
sluggish economy and probable military action in Iraq, which has 
further shifted fiscal priorities away from American Indian/Alaska 
Native health-related initiatives. While we certainly realize the 
significance of these challenges, we must also ensure that the health 
needs of American Indians and Alaska Natives are protected during this 
time.
    At this point in my testimony, I would like to illustrate the 
challenges we face as tribal leaders as we desperately fight to improve 
the status of our people.
    According to the Indian Health Service, American Indians and Alaska 
Natives have a life expectancy 6 years less than the rest of the U.S 
population. Rates of cardiovascular disease among American Indians and 
Alaska Natives are twice the amount for the general public, and 
continue to increase, while rates for the general public are actually 
decreasing. American Indians die from tuberculosis at a rate 500 
percent higher than other Americans, and from diabetes at a rate 390 
percent higher.
    Public health indicators, such as morbidity and mortality data, 
continue to reflect wide disparities in a number of major health and 
health-related conditions, such as Diabetes Mellitus, Tuberculosis, 
alcoholism, homicide, suicide and accidents. These disparities are 
largely attributable to a serious lack of appropriated funding 
sufficient to advance the level and quality of adequate health services 
for American Indians and Alaska Natives. Recent infant mortality data 
indicates that the infant mortality rate for American Indians and 
Alaska Natives is 25 percent greater than all other races in the United 
States. Recent studies reveal that almost 20 percent fewer American 
Indian and Alaska Native women receive pre-natal care than all other 
races and they engage in significantly higher rates of negative 
personal health behavior, such as smoking and alcohol and illegal 
substance consumption during pregnancy.
    The greatest travesty in looking at the deplorable health of 
American Indians comes in recognizing that the vast majority of 
illnesses and deaths from disease could be preventable if funding was 
available to provide even a basic level of care. It is unfortunate that 
despite two centuries of treaties and promises, American Indians are 
forced to endure health conditions and a level of health care funding 
that would be unacceptable to most other U.S. citizens
    Cancer is the third leading cause of death for American Indians of 
all ages, and is the second leading cause of death among American 
Indians over age 45. According to the IHS, American Indians and Alaska 
Natives have the poorest survival rates from cancer of any other racial 
group. Also, our women have disproportionately high incidences and 
mortality rates for cervical cancer, and it occurs at a younger age 
than it does in other racial groups.
    Oral health is also a great problem. Nearly 80 percent of Indian 
children aged 2-4 years have a history of dental decay, compared to 
less than 20 percent of the remaining U.S. population. Further, 68 
percent of our adults and 56 percent of our elders have untreated 
dental decay and gum disease.

Trust Obligations of the Federal Government

    The federal responsibility to provide health services to American 
Indians and Alaska Natives reflects the unique government-to-government 
relationship that exists between the Tribes and the United States. The 
importance of this relationship is reflected in the provisions of 
Article I, Sec.  8, clause 3 of the United States Constitution, which 
gives the Federal Government specific authorities in its dealings with 
Indian Tribes.
    Article VI, Sec.  (2) of the United States Constitution refers to 
all treaties entered into under the Authority of the United States as 
the ``Supreme Law of the Land''. Treaties between the Federal 
Government and our ancestors--negotiated by the United States 
Government in return for the cession of over 400 million acres of 
Indian lands established a Trust obligation under which the Federal 
Government must provide American Indians with health care services and 
adequate funding for those services. Additional Treaties, Statutes, 
U.S. Supreme Court decisions and Executive Orders have consistently 
reaffirmed this Trust responsibility.
    The Snyder Act of 1921 has been the foundation for many federal 
programs for Tribes that have been instituted since its enactment, 
including programs targeting Indian health. It gives broad authority to 
Congress to appropriate funds to preserve and improve the health of 
American Indians and Alaska Natives.
    Since 1964, three public laws have dramatically changed the 
delivery of health care to the tribes. First, the Transfer Act of 1954 
removed responsibilities for health care of American Indians and Alaska 
Native from the Federal Department of the Interior to the, then, 
Department of Health, Education and Welfare. Essentially, one major 
Indian program was excised from a Department that had been responsible 
for a number of key programs for the tribes. The subsequent transfer of 
Indian health to a Department with equal standing in the Federal system 
elevated the health and welfare of American Indians and Alaska Natives 
to a status in which they became a primary focus of Department efforts.
    Second, the Indian Self Determination and Education Assistance Act 
of 1975 changed forever the nature of relationships between Tribal 
organizations and the Federal Government and revolutionized the manner 
in which health services were delivered in Indian country. The Act 
provided guidance and direction to IHS to enable it to work with Tribes 
to develop Tribal based health systems in which Tribal organizations 
were given tools with which to operate their own health programs.
    With approximately half of all service funding through IHS now 
going to programs that are operated directly by Tribes, health care 
systems offering locally accessible, coordinated services that are 
capable of being more responsive to the needs of individual Tribal 
members are now widely available and expanding. In the 1998 NIHB study 
``Tribal Perspectives on Indian Self Determination and Self Governance 
in Health Care Management'', 94 percent of the Tribal leaders and 
health system directors surveyed reported plans to enter into Self 
Determination or Self Governance agreements with the IHS. Tribally 
operated systems, reported significantly greater gains in the 
availability of clinical services, community-based programs, auxiliary 
programs and disease prevention services. In most cases, Tribes 
contracting or compacting with IHS reported improved and increasingly 
collaborative relationships With the agency, with both IHS Area Offices 
and Tribal organizations working together to facilitate the transfer of 
program management.
    Finally, with its comprehensive, far-reaching provisions, the 
Indian Health Care Improvement Act of 1976 created opportunities for 
enhancement of services to Tribes through innovative interventions that 
are responsive to the health needs of the Tribes and their members. 
Areas in various Tribes and the IHS have intervened to achieve positive 
changes under the Act include: Virtually every component of service 
delivery; health profession training, recruitment and retention; 
targeted disease prevention and treatment; funding of health systems; 
and, mechanisms for integrating Tribal systems with federal programs, 
such as Medicaid and Medicare. Additionally, through periodic 
Reauthorizations, authority is given by Congress for IHS and Tribes to 
develop new strategies to improve components of programs in response to 
administrative, technical and professional trends and advances.
    Yet, despite these acts to achieve critically needed improvements 
in health systems serving Tribes, easily preventable health problems 
continue to plague the 1.6 million Americans being served by the Indian 
Health Service and Tribal health providers.

The President's FY 2004 IHS Budget Request

    As you know the FY 2003 Budget was just signed by the President 
last Thursday, February 20, 2003. I understand that some of the numbers 
we are using for FY 2004 will be modified based on the enacted budget 
of last week. The IHS FY 2004 budget request is $2.89 billion, an 
increase of $40 million over the FY 2003 enacted amount for the Indian 
Health Service. Even if the $50 million dollar increase for diabetes 
funding is included the budget request is still over $200 million short 
of what is needed to maintain current services. It is estimated that a 
$325 million increase is required provide the same level of health care 
services provided in FY 2003. This amount would be Sufficient to cover 
pay act costs, population growth.
    The President's budget includes $114 million for sanitation 
construction, an increase of $20 million over the FY 2003 Budget 
Request. This 20 percent increase represents the largest increase 
provided for sanitation construction in over a decade. This provision 
and significant increase is applauded and demonstrates the 
Administration's commitment to providing safe water and waste disposal 
to an estimated 22,000 homes, an increase of 2,600 over the number of 
homes served in 2003. Proper sanitation facilities play a considerable 
role in the reduction of infant mortality and deaths from 
gastrointestinal disease in Indian country.
    The President's budget request also reflects the $50-million 
increase in the Special Diabetes Program for Indians funding approved 
during the 107th Congress. We are grateful to the Administration and 
Congress for recognizing the success and effectiveness of the Special 
Diabetes Program for Indians as a tool to reduce the incidence and 
harmful effects of Diabetes in Indian country.
    As a result of the Special Diabetes Program, today there are over 
300 diabetes prevention and treatment programs serving American Indians 
and Alaska Natives. The funding allows Tribal governments to develop 
and improve wellness centers, purchase newer medications which are 
effective in preventing Type II diabetes, establish education programs, 
and other activities. It is not only an effective tool in preventing 
and treating diabetes, it also provides opportunities to reduce the 
incidence of diabetes related blindness, amputations, and end stage 
renal disease. We ask that the increase in funding for the Special 
Diabetes Program does not come at the expense of other vitally 
important IHS programs.
    Health Facility Construction: The budget includes a total of $72 
million for construction of new health facilities allowing IHS to 
replace its priority health care facility needs with modern health 
facilities and to significantly expand capacity at its most overcrowded 
sites. The request will complete outpatient facilities at Pinon (Navajo 
Reservation, Arizona) and Metlakatla (Annette Island, Alaska); continue 
construction of the Red Mesa Outpatient Facility (Navajo Reservation, 
Arizona) and begin construction of a new outpatient facility to replace 
the Sisseton hospital (Sisseton-Wahpeton Sioux Tribe, South Dakota). 
When the Sisseton hospital is closed, IHS will purchase inpatient and 
emergency care from non-IHS facilities such as the nearby Coteau Des 
Prairies hospital.
    Pay Costs: The budget includes an additional $35 million to cover 
increased pay costs for IHS's 15,021 FTE's and to allow tribally run 
health programs to provide comparable pay raises to their own staffs.
    Approximately 1 year ago, tribal leaders' came together to develop 
a ``Needs-Based Budget'' for Indian Health Service funding. The needs-
based budget was developed through a careful and deliberate process to 
ensure that it was reflective of the health needs of Indian country.
    The budget documented the IHS health care funding needs at $18.2 
billion. President Bush's proposed appropriation of $2.89 billion falls 
well short of the level of funding that would permit Indian programs to 
achieve health and health system parity with the majority of other 
Americans.
    Failure to adequately increase the Indian Health Service clinical 
services budget will force numerous Tribal health providers to cut back 
services, worsening the plight of an already severely at-risk 
population and jeopardizing greater public health. Staff cuts would 
also result, increasing waiting periods to get appointments, as well as 
reducing clinic hours. Also, without adequate funding, several 
successful programs throughout Indian country would have to be 
eliminated, such as patient outreach, nutritional programs, preventive 
care, referral services, dental and optometric services.
    Funding for the Indian Health Service has failed to keep pace with 
population increases and inflation. While mandatory programs such as 
Medicaid and Medicare have accrued annual increases of 5 to 10 percent 
in order to keep pace with inflation, the IHS has not received these 
comparable increases. Current Indian Health Service funding is so 
inadequate that less than 60 percent of the health care needs of 
American Indians and Alaska Natives.
    As we have carefully reviewed the President's FY 2004 IHS Budget 
Request, several provisions would seriously affect the agency's ability 
to carry out its responsibilities pertaining to the health and welfare 
of American Indians and Alaska Natives. Below, I will briefly discuss 
several of these provisions.

Contract Health Service Funding

    The President's Budget Request includes $493 million, which 
provides an additional $25 million or 5 percent increase over the 
previous year's request, for Contract Health Services. While are very 
thankful for any increase, the proposed level of funding is so limited 
that only life-threatening conditions are normally funded. In most 
other cases, failure to receive treatment from providers outside the 
IHS and Tribal health system forces people in Indian country to 
experience a quality of life that is far below the level normally 
enjoyed by non-Indian Americans.
    The documented need for the Contract Health Service Program in 
Indian Country exceeds $1 Billion. At present, less than one-half of 
the CHS need is being met, leaving too many Indian people without 
access to necessary medical services. We recommend an increase of $175 
million, which would raise American Indian and Alaska Native tribes to 
approximately 60 percent of need.

Contract Support Costs

    The President's FY 2004 Budget Request includes $271 million, the 
same as the FY 2003 enacted budget, to support tribal efforts to 
develop the administrative infrastructure critical to their ability to 
successfully operate IHS programs. An increase in Contract Support 
Costs is necessary because as Tribal governments continue to assume 
control of new programs, services, functions, and activities under 
Self-Determination and Self-Governance, additional funding is needed. 
Tribal programs have clearly increased the quality and level of 
services in their health systems fairly significantly over direct 
service programs and failing to adequately fund Contract Support Costs 
is defeating the very programs that appear to be helping improve health 
conditions for American Indians and Alaska Natives.
    We strongly urge reconsideration of this line item in the proposed 
budget. As Tribes increasingly turn to new Self Determination contracts 
or Self Governance compacts or as they expand the services they have 
contracted or compacted, funding necessary to adequately support these 
is very likely to exceed the proposed budgeted amount. We ask you to 
fund contract support costs at a level that is adequate to meet the 
needs of the Tribes and to further the important Trust responsibility 
charged to the federal government. We recommend an additional $150 
million to meet the shortfall for current contracting and compacting.

Tribal Management/Self-Governance Funding

    According to the President's FY 2004 Budget, the number of tribally 
managed IHS programs continues to increase, both in dollar terms and as 
a percentage of the whole IHS budget. Tribal governments will control 
an estimated $1.6 billion of IHS programs in FY 2004, representing 53 
percent of the IHS's total budget request. Because of this, it is 
critical that funding for self-governance be provided in a manner 
reflective of this. Therefore, we feel it is necessary to provide 
funding over and above the proposed amount of $12 million. The enacted 
FY 2003 budget cut the office of Self-Governance funding by 50 percent 
without any notice to tribes.

Proposed IHS Management Initiatives/Administrative Reductions

    The President's budget includes savings of $31 million from 
administrative reductions and better management of information 
technology. The IHS proposes to achieve these savings primarily by 
reducing the use of Federal staff. IHS also plans to reduce 
administrative costs and to achieve efficiencies through the 
development, modernization and enhancement of IHS information systems.
    The National Indian Health Board and Tribal governments have long 
been concerned about "cost-saving" provisions contained in the 
President's Budget Request, both in FY 2003 and FY 2004. The result 
will be the elimination of potentially hundreds of full-time staff at 
the headquarters and area levels, which would add new burdens to the 
provision of health care to American Indians and Alaska Natives, rather 
than addressing the widespread health disparities throughout Indian 
country.
    Over the last several years, the IHS has made significant efforts 
to streamline the agency. IHS has previously reduced upper and middle 
management positions by 60 and 58 per cent, respectively, and 
streamlined the Headquarters organizational structure from 140 to 40 
organizational units. The restructuring was made in accordance with the 
IHS Tribal consultation policy and the resources gained through the 
reductions were reinvested into front-line health delivery positions, 
which increased by 12 percent. This achievement ought to be rewarded 
rather than ignored. Given the ongoingrestructuring efforts at IHS, any 
further reductions would severely hamper the ability of the IHS to 
carry out its mission.
    In order to fully explore the possible effects and potential 
advantages of any reorganization efforts put forth by the 
Administration, we feel it is appropriate that the President's 
Management Initiatives be delayed for a period of one year in order for 
the IHS Restructuring Initiative Workgroup to create feasible 
alternatives, which will be developed through a comprehensive tribal 
consultation process. Additionally, any savings derived from such 
restructuring should be exclusively reinvested in IHS mission-related 
activities.

The Need for Homeland Security Funding in Indian Country

    The President's FY 2004 budget request for the Department of Health 
and Human Services (DHHS) reflects the priorities of the United States 
with regard to health and safety concerns relating to Homeland 
Security. It reflects the Administration's commitment to anticipating 
future threats to America's public health care, health infrastructure 
and human services systems. It is important to note that, along with 
the Department of Defense and Veteran's Affairs health systems, the 
Indian Health Service occupies a unique position within the Federal 
Government as a direct health care provider.
    Therefore, we are requesting funding be added during FY 2004 to 
help the Indian Health Service and Tribal governments prepare for and 
respond to potential terrorist attacks, including increases for Data 
Systems Improvements and much needed funds to expand the capacity of 
tribal epidemiology centers.

Conclusion
    On behalf of the National Indian Health Board, I would like to 
thank the committee for its consideration of our testimony and for your 
interest In the improvement of the health of American Indian and Alaska 
Native people. If we are ever to reduce the terrible disparities 
between the health of American Indians and Alaska Natives compared to 
other Americans, we need to properly fund the Indian Health Service and 
we urge the Senate to significantly increase the IHS funding level 
during this fiscal year. IHS and the Tribes are continuing to work 
diligently to develop health systems of sufficient quality and with 
levels of services that our people desperately need. We are deeply 
concerned about the Administration's proposed IHS budget and trust you 
will share our concern and we look forward to working with you on this 
budget.
[GRAPHIC] [TIFF OMITTED] T5423.001

[GRAPHIC] [TIFF OMITTED] T5423.002

[GRAPHIC] [TIFF OMITTED] T5423.003

[GRAPHIC] [TIFF OMITTED] T5423.004

[GRAPHIC] [TIFF OMITTED] T5423.005

[GRAPHIC] [TIFF OMITTED] T5423.006

[GRAPHIC] [TIFF OMITTED] T5423.007

[GRAPHIC] [TIFF OMITTED] T5423.008

[GRAPHIC] [TIFF OMITTED] T5423.009

[GRAPHIC] [TIFF OMITTED] T5423.010

[GRAPHIC] [TIFF OMITTED] T5423.011

[GRAPHIC] [TIFF OMITTED] T5423.012

[GRAPHIC] [TIFF OMITTED] T5423.013

[GRAPHIC] [TIFF OMITTED] T5423.014

[GRAPHIC] [TIFF OMITTED] T5423.015

[GRAPHIC] [TIFF OMITTED] T5423.016

[GRAPHIC] [TIFF OMITTED] T5423.017

[GRAPHIC] [TIFF OMITTED] T5423.018

[GRAPHIC] [TIFF OMITTED] T5423.019

[GRAPHIC] [TIFF OMITTED] T5423.020

[GRAPHIC] [TIFF OMITTED] T5423.021

[GRAPHIC] [TIFF OMITTED] T5423.022

[GRAPHIC] [TIFF OMITTED] T5423.023

[GRAPHIC] [TIFF OMITTED] T5423.024

[GRAPHIC] [TIFF OMITTED] T5423.025

[GRAPHIC] [TIFF OMITTED] T5423.026

[GRAPHIC] [TIFF OMITTED] T5423.027

[GRAPHIC] [TIFF OMITTED] T5423.028

[GRAPHIC] [TIFF OMITTED] T5423.029

[GRAPHIC] [TIFF OMITTED] T5423.030

[GRAPHIC] [TIFF OMITTED] T5423.031

[GRAPHIC] [TIFF OMITTED] T5423.032

[GRAPHIC] [TIFF OMITTED] T5423.033

[GRAPHIC] [TIFF OMITTED] T5423.034

[GRAPHIC] [TIFF OMITTED] T5423.035

[GRAPHIC] [TIFF OMITTED] T5423.036

[GRAPHIC] [TIFF OMITTED] T5423.037

[GRAPHIC] [TIFF OMITTED] T5423.038

[GRAPHIC] [TIFF OMITTED] T5423.039

[GRAPHIC] [TIFF OMITTED] T5423.040

[GRAPHIC] [TIFF OMITTED] T5423.041

[GRAPHIC] [TIFF OMITTED] T5423.042

[GRAPHIC] [TIFF OMITTED] T5423.043

[GRAPHIC] [TIFF OMITTED] T5423.044

[GRAPHIC] [TIFF OMITTED] T5423.045

[GRAPHIC] [TIFF OMITTED] T5423.046

[GRAPHIC] [TIFF OMITTED] T5423.047

[GRAPHIC] [TIFF OMITTED] T5423.048

[GRAPHIC] [TIFF OMITTED] T5423.049

[GRAPHIC] [TIFF OMITTED] T5423.050

[GRAPHIC] [TIFF OMITTED] T5423.051

[GRAPHIC] [TIFF OMITTED] T5423.052

[GRAPHIC] [TIFF OMITTED] T5423.053

[GRAPHIC] [TIFF OMITTED] T5423.054

[GRAPHIC] [TIFF OMITTED] T5423.055

[GRAPHIC] [TIFF OMITTED] T5423.056

[GRAPHIC] [TIFF OMITTED] T5423.057

[GRAPHIC] [TIFF OMITTED] T5423.058

[GRAPHIC] [TIFF OMITTED] T5423.059

[GRAPHIC] [TIFF OMITTED] T5423.060

[GRAPHIC] [TIFF OMITTED] T5423.061

[GRAPHIC] [TIFF OMITTED] T5423.062

[GRAPHIC] [TIFF OMITTED] T5423.063

[GRAPHIC] [TIFF OMITTED] T5423.064

[GRAPHIC] [TIFF OMITTED] T5423.065

[GRAPHIC] [TIFF OMITTED] T5423.066

[GRAPHIC] [TIFF OMITTED] T5423.067

[GRAPHIC] [TIFF OMITTED] T5423.068

[GRAPHIC] [TIFF OMITTED] T5423.069

[GRAPHIC] [TIFF OMITTED] T5423.070

[GRAPHIC] [TIFF OMITTED] T5423.071

[GRAPHIC] [TIFF OMITTED] T5423.072

[GRAPHIC] [TIFF OMITTED] T5423.073

[GRAPHIC] [TIFF OMITTED] T5423.074

[GRAPHIC] [TIFF OMITTED] T5423.075

[GRAPHIC] [TIFF OMITTED] T5423.076

[GRAPHIC] [TIFF OMITTED] T5423.077

[GRAPHIC] [TIFF OMITTED] T5423.078

[GRAPHIC] [TIFF OMITTED] T5423.079

[GRAPHIC] [TIFF OMITTED] T5423.080

[GRAPHIC] [TIFF OMITTED] T5423.081

[GRAPHIC] [TIFF OMITTED] T5423.082

[GRAPHIC] [TIFF OMITTED] T5423.083

[GRAPHIC] [TIFF OMITTED] T5423.084

[GRAPHIC] [TIFF OMITTED] T5423.085

[GRAPHIC] [TIFF OMITTED] T5423.086

[GRAPHIC] [TIFF OMITTED] T5423.087

[GRAPHIC] [TIFF OMITTED] T5423.088

[GRAPHIC] [TIFF OMITTED] T5423.089

[GRAPHIC] [TIFF OMITTED] T5423.090

[GRAPHIC] [TIFF OMITTED] T5423.091

[GRAPHIC] [TIFF OMITTED] T5423.092

[GRAPHIC] [TIFF OMITTED] T5423.093

[GRAPHIC] [TIFF OMITTED] T5423.094

[GRAPHIC] [TIFF OMITTED] T5423.095

[GRAPHIC] [TIFF OMITTED] T5423.096

[GRAPHIC] [TIFF OMITTED] T5423.097

[GRAPHIC] [TIFF OMITTED] T5423.098

[GRAPHIC] [TIFF OMITTED] T5423.099

[GRAPHIC] [TIFF OMITTED] T5423.100

[GRAPHIC] [TIFF OMITTED] T5423.101

[GRAPHIC] [TIFF OMITTED] T5423.102

[GRAPHIC] [TIFF OMITTED] T5423.103

[GRAPHIC] [TIFF OMITTED] T5423.104

[GRAPHIC] [TIFF OMITTED] T5423.105

[GRAPHIC] [TIFF OMITTED] T5423.106

[GRAPHIC] [TIFF OMITTED] T5423.107

[GRAPHIC] [TIFF OMITTED] T5423.108



                        FISCAL YEAR 2004 BUDGET

                              ----------                              


                        WEDNESDAY, MARCH 5, 2003


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The committee met, pursuant to other business, at 10:10 
a.m. in room 485, Senate Russell Building, Hon. Ben Nighthorse 
Campbell (chairman of the committee) presiding.
    Present: Senators Campbell, Inouye, Johnson, Inhofe, Hatch, 
Murkowski, and Dorgan.

 STATEMENT OF HON. BEN NIGHTHORSE CAMPBELL, U.S. SENATOR FROM 
        COLORADO, CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    The Chairman. The Committee on Indian Affairs will be in 
session.
    We will now move to the second of our two oversight 
hearings on the President's fiscal year 2004 budget request for 
Indian programs.
    Today we are joined by representatives of five Federal 
agencies whose business affects the lives of Native people 
across the United States. As I said last week, the President's 
budget request reflects what unfortunately looks like a major 
conflict in the Middle East in our Nation's efforts to protect 
our homeland and our people.
    The request for the BIA is $2.314 billion, with an 
additional $275 million for the Special Trustee. The Indian 
Health Service account would receive $2.89 billion, an increase 
of $68 million over fiscal year 2003. The Indian housing grant 
request includes $647 million which is level funding compared 
to 2003. Unfortunately, the need has grown considerably and 
there may not be enough money that is in that program.
    There are specific increases in several Indian accounts, 
notably Trust reform, substance abuse, school operations, and a 
continued effort to eliminate the backlog of BIA school 
construction.
    I want to assure the members and the audience that these 
hearings are only the beginning of the fiscal year 2004 
appropriations process, and that this Committee will be 
involved for the duration, paying particular attention to the 
homeland security budget, and the degree to which it involves 
tribal governments, law enforcement, and medical personnel for 
our security efforts.
    With that, I would like to turn to Senator Inouye. But I 
would ask Senator Inouye if Senator Inhofe may make a request 
first?
    Senator Inouye. Yes; certainly.
    Senator Inhofe. Mr. Chairman, I was trying to get down here 
to help make a quorum for the appointment of Mr. Swimmer. I 
would like to be shown in voting in support of his nomination.
    The Chairman. For the record we will reflect you were here 
in person.
    Senator Inhofe. Thank you.
    The Chairman. Senator Inouye.
    Senator Inouye. Mr. Chairman, I am pleased to join you this 
morning to welcome the witnesses from the executive branch. I 
look forward to receiving their testimony.
    The Chairman. Senator Johnson, do you have an opening 
statement?
    Senator Johnson. None, Mr. Chairman.
    The Chairman. Mr. Inhofe.
    Senator Inhofe. None, Mr. Chairman.
    The Chairman. We will now proceed with our witnesses.
    We will now have Louis Kincannon, director of the Bureau of 
the Census, from Suitland, MD; Aurene Martin, acting assistant 
secretary for Indian Affairs for the Department of the 
Interior; Charles Grim, interim director the of Indian Health 
Service, from Rockville, MD; Bill Russell, deputy assistant 
secretary for Public and Indian Housing, Department of Housing 
and Urban Development; and Victoria Vasques, director of the 
Office of Indian Education, Department of Education.
    We will start in that order. I need to tell the witnesses 
that I have a fierce cold and may be here only part of the 
time. So if you would like to abbreviate your comments, your 
full written testimony will be included in the record.
    We will start in the order that I introduced you.
    Mr. Kincannon, would you please start?

 STATEMENT OF LOUIS KINCANNON, DIRECTOR, BUREAU OF THE CENSUS, 
                          SUITLAND, MD

    Mr. Kincannon. Good morning, Mr. Chairman. Thank you, Mr. 
Chairman, and thank you, Mr. Vice Chairman. On behalf of the 
Census Bureau, I would like to express our appreciation for the 
opportunity to testify before the committee.
    The Census Bureau does not operate ``Indian Programs'' in 
the traditional sense of the word. Our mission is to provide 
the most timely, relevant, and accurate data about the people 
and the economy of the United States. It is our task, in part, 
to cooperate with this committee in making sure that the right 
kind of information is available to help support its work in 
reviewing programs for American Indians and Alaska Natives.
    This morning I will focus on information from the Economic 
Census, the Survey of Business Owners, the Decennial Census of 
Population, and the American Community Survey. The Economic 
Census is conducted every 5 years for years ending in ``2'' and 
``7.'' We are currently receiving and processing information 
for 2002. The Economic Census is a detailed profile of the 
economy from the national level, to the local level, and 
industry-by-industry.
    It provides information on over 23 million businesses and 
96 percent of the Nation's economic activity. It is used in 
determining the gross domestic product estimates, of course, as 
well as other indicators that measure the national economy. 
Moreover, the detailed data inform economic, and financial 
decisions in the private sector, as well as the Federal, 
tribal, State, and local levels.
    With each Economic Census we also collect data in a follow-
on survey to provide a detailed portrait of minority and women-
owned businesses. This Survey of Business Owners paints a 
portrait of American Indian and Alaska Native owned businesses, 
that is used by agencies such as the Commerce Department's 
Minority Business Development Agency to evaluate program needs 
and opportunities.
    In the last available results from this survey for 1997, it 
shows that almost 200,000 firms were owned by American Indians 
and Alaska Natives, and that the sales from these firms totaled 
more than $34 billion annually. The data also suggest that 
American Indian and Alaska Native economic activity is diverse 
with significant activity across each of the major industrial 
sectors.
    However, the most useful data at the local and tribal 
government levels comes directly out of the Economic Census. 
The 2002 Census will show the number of businesses and the 
employment and sales for businesses by type of activity at the 
State, county, city, and frequently at the zip code level. 
These data will be used by tribal government leaders and 
planners as well as entrepreneurs to outline potential 
opportunities for economic development.
    By combining data from the Economic Census and the 
Decennial Population Census, tribal governments and businesses, 
as well as this committee, can provide a profile rich with 
detail to encourage investors and development. The Census of 
Population is the great national catalog of human capital 
collected every 10 years. To collect these data we visit every 
reservation, as well as every off-reservation tribal Trust 
land, tribal designated statistical area, and State-recognized 
reservation in the Nation.
    Beginning with the 2000 Census, respondents were allowed to 
check more than one race. This contributed significantly to the 
number of people who identified themselves as American Indian 
or Alaska Native.
    In Census 2000, when asked about their race, almost 2\1/2\ 
million persons reported American Indian or Alaska Native 
alone. An additional 1\1/2\ millions persons reported that they 
were American Indian or Alaska Native in connection with one or 
more other races. Combining these two totals means that there 
were over 4 million persons who reported that they were 
American Indian or Alaska Natives.
    According to the 1990 Census, fewer than 2 million persons 
reported that they were American Indians or Alaska Natives. The 
1990 Census respondents were only allowed to mark one box in 
the race question. So these data are not strictly comparable.
    According to the 2000 Census, the largest tribes and tribal 
groupings were Cherokee, Navajo, Sioux, Chippewa, and Choctaw. 
In addition to population data, the Decennial Census also 
collects a wide range of social, economic, and housing 
characteristics. The Decennial Census long form provides the 
most comprehensive and in-depth profile of American Indian and 
Alaska Natives that's available every 10 years. This data is 
used throughout the Federal Government, as well as by tribal 
governments to make decisions, allocate funds, and otherwise.
    Among the key data that were collected in 2000 about 
American Indians and Alaska Natives, we found that over 800,000 
were enrolled in schools at every level from preschool to 
colleges. There were almost 200,000 veterans among this 
population. Over 1 million were participating in the labor 
force. The median income for households was slightly over 
$30,000 per year. The median property value for owner-occupied 
housing units was $81,000.
    According to the Census 2000, of 765,000 American Indian 
and Alaska Native households, 90,000 did not have telephones, 
34,000 lacked complete plumbing facilities, and 30,000 lacked 
kitchen facilities.
    The Decennial Census offers a comprehensive and in-depth 
snapshot of conditions as of census day. These data are 
invaluable to the tribes and the government as it tries to work 
through planning and evaluating programs. It is not, however, 
the best tool for continuing measurement of progress or program 
outcomes. As one moves further away from census day, the data 
becomes stale and, therefore, less accurate. As late as last 
summer, tribal governments were still using 1990 decennial 
long-form data to try to meet the needs of their members.
    The good news is that we have a plan that will dramatically 
improve the way we deliver these data to tribal governments. 
With the American Community Survey, we plan to eliminate the 
long form in the census in 2010 and to collect these data every 
year. The real difference is that we will be able to publish 
data equivalent to the long form every year for every county, 
reservation, tribal Trust land, tribal statistical area, home 
land area, and the census tracts therein. This will allow 
tribal governments to measure change, to plan better to manage 
their programs more effectively, and take better advantage of 
potential opportunities. We have embarked on this path because 
it will improve the data that this Nation uses to meet the 
needs of all Americans, day-in and day-out.
    In summary, entrepreneurs and tribal governments can use 
these data to make the case for investments, strengthening the 
length between possibility and reality. The Economic Census is 
the catalog of economic resources. The Decennial Census and the 
American Community Survey are catalogs of human capital. These 
data express the tremendous potential for progress, growth, and 
opportunity that exists within the United States for every 
American Indian and Alaska Native.
    I do have longer testimony that I will submit for the 
record, Mr. Chairman. I appreciate once again the opportunity 
to appear. I would be pleased to answer any questions, of 
course.
    The Chairman. Your testimony will be inserted in the record 
in its entirety.
    [Prepared testimony of Louis Kincannon appears in 
appendix.]
    The Chairman. I understand this is the first time you have 
appeared before this committee. I am sure impressed with all 
the places you have had to go to find these numbers.
    Mr. Kincannon. Well, I can't believe we were as successful 
in the 2000 Census as we were without closer advice from this 
committee. So I hope that will continue.
    The Chairman. Thank you.
    Mr. Kincannon. Thank you, sir.
    The Chairman. Ms. Martin, welcome.

  STATEMENT OF AURENE MARTIN, ACTING ASSISTANT SECRETARY FOR 
  INDIAN AFFAIRS, DEPARTMENT OF THE INTERIOR, WASHINGTON, DC, 
ACCOMPANIED BY DONNA ERWIN, ACTING SPECIAL TRUSTEE, DEPARTMENT 
                OF THE INTERIOR, WASHINGTON, DC

    Ms. Martin. Good morning, Mr. Chairman, Mr. Vice Chairman. 
Thank you for the invitation to discuss the fiscal year 2004 
budget for Indian programs in the Department of the Interior 
with you today.
    I am accompanied today by Donna Erwin, acting special 
trustee for the Department of the Interior, who will assist me 
in answering questions with regard to that office.
    The fiscal year 2004 budget submitted to Congress 
represents large increases in funding for Indian Trust reform 
and related programs, and includes funding to address the past, 
present, and future of Trust reform. We are addressing 
questions about the past by implementing the Department's 
historical accounting plan. We are dealing with present 
management challenges by reorganizing the Department's Trust 
operations to provide better Trust management. Finally, we are 
planning for the future by expanding the Land Consolidation 
Pilot Program to reduce future fractionation and land 
ownership, a root cause of many of the challenges we now face 
as an institution.
    In total, the fiscal year 2004 budget request for the 
Department of the Interior is $10.7 billion. This budget 
represents an increase of over $340 million over fiscal year 
2003 enacted appropriations. Over one-half of this increase is 
dedicated to the Indian Trust budget. The BIA mission is to 
fulfill its trust and other statutory responsibilities and 
promote self-determination on behalf of tribal governments, 
American Indians, and Alaska Natives.
    President Bush has proposed a $2.31 billion budget for the 
Bureau of Indian Affairs for fiscal year 2004, an increase of 
over $48.6 million over the fiscal year 2003 enacted levels to 
improve the Department of the Interior's management of 
individual Indian and tribal Trust accounts, to operate new 
tribally operated detention centers, and to develop tribal 
economies.
    The request also maintains the President's commitment to 
eliminate the school maintenance backlog and to provide tribes 
with greater opportunities to directly operate BIA schools.
    The Office of the Special Trustee is responsible for the 
oversight and coordination of the Department's Trust asset 
management and reform efforts to effectively discharge its 
Trust responsibilities. The President's fiscal year 2004 budget 
for the Office of the Special Trustee for American Indians is 
$274.6 million, an increase of $134.3 million, or 96 percent 
above the fiscal year 2003 enacted level.
    The $134.3 million increase will support many of the 
reforms discussed in this statement and will be used for Trust 
records, administration, management, storage, and accessibility 
to meet document production and related litigation costs and to 
provide improvements to the Trust fund's accounting system. The 
fiscal year 2004 budget for Indian Trust programs includes $554 
million for Trust operations and reform. This is 50 percent 
higher than the enacted levels for fiscal year 2003.
    Fulfilling our Trust responsibilities remains one of the 
Department's greatest challenges. In July 2001, the Secretary 
created the Office of Historical Trust Accounting within the 
Office of the Secretary. The mission of OHTA, as we call it, is 
to coordinate all activities relating to historical accounting.
    On January 6, 2003, the Department presented a plan 
entitled ``The Historical Accounting Plan for Individual Indian 
Money Accounts,''[IIM] to the District Court in the Cobell v. 
Norton litigation for the historical accounting for about 
260,000 IIM accounts.
    The work described in the January 6th Historical Accounting 
Plan is expected to take five years to complete, and is 
preliminarily estimated to cost approximately $335 million. The 
budget includes $130 million for these historical accounting 
activities. These funds will also be used to provide historical 
accounting activities related to tribal accounts.
    Under Interior's reorganization proposal, the Bureau of 
Indian Affairs retains all natural resource trust asset 
management. The management of the Trust functions at the BIA 
regional and agency levels has been separated by creating 
separate lines of authority for Trust and tribal services.
    Within the Office of the Special Trustee for American 
Indians, the reorganization proposal has given it additional 
operating authority which will be supported by new positions 
intended to be filled by skilled staff who are specifically 
trained for responsibilities with regard to their Trust 
responsibility.
    A regional staff will oversee Trust officers and Trust 
account managers in field locations under this plan. The fiscal 
year 2004 budget provides an increase of $15 million to support 
the new organization, which together with base funding 
available in both BIA and OST, will provide resources needed 
for the new organization.
    Another challenge we continue to face is the land 
fractionation problem. Today there are approximately four 
million owner interests in the 10 million acres of 
individually-owned Trust lands, a situation the magnitude of 
which makes management of trust assets extremely difficult and 
costly. Fractionated interests in individual Indian allotted 
land continue to expand exponentially with each new generation.
    The BIA has conducted a pilot fractionated interest 
purchase program aimed at reducing fractional interests in the 
Midwest region and in fiscal year 2002 alone, acquired 10,699 
fractionated interests. In 2004, BIA will aggressively ramp up 
the Indian Land Consolidation Program. The fiscal year 2004 
budget proposes $21 million for Indian land consolidation, an 
increase of $13 million. The BIA is designing a nationally 
coordinated and targeted purchase program. This program will be 
managed by a national program staff.
    We are implementing and undertaking a number of other Trust 
reform efforts. We are currently developing re-engineered 
business processes based on a meticulous review of all of our 
current processes. We are improving our information technology. 
The proposed $183.8 million increase for Trust management 
reforms includes funding to help rebuild the Bureau of Indian 
Affairs Information Technology infrastructure to support both 
Trust and non-Trust programs.
    We are improving our recordkeeping. The fiscal year 2004 
budget also proposes an increase of $4.5 million to accelerate 
a new strategy to administer, manage, search, retrieve, and 
store Trust records.
    No task is more important to us than the education of our 
children. We are responsible for educating nearly 48,000 
students in 23 States at the 185 elementary and secondary 
schools that form the BIA school system. The Bureau of Indian 
Affairs is committed to the President's promise to improve 
Indian education in America.
    In January 2002, the President signed into law the ``No 
Child Left Behind Act'' of 2001, a landmark education bill that 
will help strengthen the BIA funded schools. Flexibility and 
local control of schools are among the pillars of the 
President's Education Reform Plan. The budget encourages tribes 
to assume management of their schools by providing a $3-million 
increase in administrative cost grants to support their 
programs.
    During the year 2000 Presidential campaign, President Bush 
promised to provide safe and structurally sound schools for 
Indian students. The BIA's request for education construction 
continues the President's initiative to repair and replace 
schools that are outdated and in need of structural 
improvement. The budget includes a request to invest $141.4 
million to replace buildings at a minimum of seven schools.
    Funding for school construction reflects an increase of 
$16.2 million above the fiscal year 2003 levels, resulting from 
an internal transfer of funding from education facilities 
improvement and repair program, and includes $10 million for 
the planning and design of future projects.
    Other budget highlights include an increase of $7.6 million 
to improve the management of Trust land and natural resources 
assets, an increase of $1 million to leverage $20 million in 
additional guaranteed and insured loans, and $51.4 million for 
payment of authorized Indian land and water claim settlements 
in Oklahoma, Colorado, Nevada, New Mexico, and Utah.
    In summary, with this budget request, the President has 
made clear his firm commitment to improving the lives of Indian 
people through Trust reform, education, and economic 
development. The BIA and OST are prepared to meet these goals 
with Congress' support.
    I ask that my written statement be entered into the record. 
I would be happy to answer any questions you might have.
    The Chairman. Your complete statement will be in the 
record.
    [Prepared statement of Aurene Martin appears in appendix.]
    The Chairman. We will now go to Dr. Grim.
    Before you make your statement, Dr. Grim, have you ever 
heard of Indian bear root?
    Dr. Grim. No, sir.
    The Chairman. When I used to get a sore throat some of the 
old ladies up home would make me chew bear root. It worked 
great. I didn't know if you brought any with you or not.
    Dr. Grim. I could probably see if we could find you some, 
though. [Laughter.]
    The Chairman. I hate to resort to NyQuil but I guess I am 
going to have to.
    Go ahead with your testimony. [Laughter.]

 STATEMENT OF CHARLES W. GRIM, M.D., INTERIM DIRECTOR, INDIAN 
   HEALTH SERVICE, ROCKVILLE, MD, ACCOMPANIED BY: MICHEL E. 
 LINCOLN, DEPUTY DIRECTOR; GARY HARTZ, ACTING DIRECTOR, OFFICE 
  OF PUBLIC HEALTH; AND CRAIG VANDERWAGEN, M.D., ACTING CHIEF 
                        MEDICAL OFFICER

    Mr. Grim. Mr. Chairman, Mr. Vice Chairman, and members of 
the committee. Good morning. My name is Charles Grim. I am 
Interim Director of the Indian Health Service.
    I am accompanied this morning by Michel E. Lincoln, our 
deputy director of Indian Health Services, Gary Hartz, our 
acting director for the Office of Public Health, and Craig 
Vanderwagen, our acting chief medical officer.
    We are pleased to be here this morning and have the 
opportunity to testify before you on the President's fiscal 
year 2004 budget. It's a personal honor for me that my first 
appearance before a Congressional committee be the Senate 
Committee on Indian Affairs.
    I am a member of the Cherokee Nation of Oklahoma, and as 
the interim director of the Indian Health Service appointed by 
the President, I also represent the primary health program for 
1.6 million American Indians and Alaska Natives nationally.
    I am here to provide information on behalf of the 
President, the Secretary, and the Indian Health Service for 
programs that are critical to achieving our shared goals of 
eliminating health disparities among all Americans. This budget 
request reflects the priorities of this Administration for the 
health of the American Indians and Alaska Natives.
    It also reflects the Administration's commitment to 
honoring the government-to-government relationship between the 
Federal Government and the 562 sovereign Indian Nations because 
this budget request was developed in consultation with Indian 
tribes and organizations.
    It also reflects the personal interests and commitments of 
the Department leadership to meeting the health needs of Indian 
people and honoring the Federal Government's treaties with 
Indian Nations to provide health care services.
    This is the third budget proposed by President Bush for the 
Indian Health Service. While the Nation faces unprecedented 
challenges worldwide and at home, the President has proposed an 
IHS budget that is 2.6 percent higher than the budget proposed 
last year and which still represents an increase even when 
compared with the fiscal year 2003 enacted budget.
    The collaboration in developing this request ensures that 
it is relevant to the needs of Indian Country for public and 
personal health services and the infrastructure necessary to 
provide them. In addition, beyond the IHS budget request, I 
make note that the collaboration between the operating 
divisions of the Department of Health and Human Services also 
has renewed emphasis and vitality because of Secretary Tommy 
Thompson's initiatives to eliminate health disparities, and ask 
that all those within the Department act as one department.
    Secretary Thompson and Deputy Secretary Claude Allen and 
their staff have visited and met with tribes across the Nation 
and during tribal visits to Washington, DC. They know first-
hand of the health disparities and access to care issues that 
many of our tribal nations face. They are committed to ensuring 
that the Department programs that benefit all people also help 
to meet the needs of Indian country. They also ensure that the 
decisions that would affect the Indian Health Service tribal 
and urban Indian health delivery programs are considered before 
they are implemented. One recent decision resulted in a waiver 
that would have cost the Agency approximately $30 million 
immediately and $17 million annually.
    Meeting the health needs of the Indian country is also 
possible because of the commitment of the members of this 
committee. I begin my testimony today with the gratitude and 
appreciation for your hard work and the outstanding staff who 
support you in your efforts to make a difference in the lives 
of American Indians and Alaska Natives.
    The recent enactment of a 3.3 percent increase in the 
fiscal year 2003 budget appropriation will help us carry out 
our important work and allow us to expand or maintain clinical 
and dental services. It will allow us to continue construction 
of eight health facilities, and continue to provide health 
profession scholarships for 716 American Indian and Alaska 
Native students and loan repayment for 480 health 
professionals, along with maintaining our many other critical 
and necessary programs. So let me say thank you for your help 
on that.
    Improving the health of the American Indian and Alaska 
Native population overall, providing health care to individuals 
in the population are important and challenging goals. 
Comparing the 1997 through 1999 Indian age adjusted death rates 
with the United States all races population in 1998, the death 
rates in the American Indian and Alaska Native population are 
7.7 times greater for alcoholism, 7.5 times greater for 
tuberculosis, 2.7 times greater for diabetes, and 2.8 times 
greater for unintentional injuries.
    The fiscal year 2004 President's budget request and 
associated performance plan represent a cost-effective public 
health approach to make sure that American Indians and Alaska 
Natives have access to health services. Our performance has 
been validated by our documented Government Performance and 
Results Act Achievements, and most recently by our scores from 
the Office of Management and Budget Program Assessment Rating 
Tool which were some of the highest in the Federal Government.
    The President proposes an increase of $97 million in 
program level funding above the fiscal year 2003 enacted level. 
Program level funding includes an increase of $50 million for 
the special diabetes program for Indians, which was 
reauthorized last year, and amounts that we expect to collect 
through our third party billing activities in the dollar amount 
of approximately $6 million.
    The request provides $19.6 million for Federal pay cost 
increases and $16 million for tribal pay cost increases. Funds 
for staffing newly constructed health care facilities and 
operating the new facilities that will open in fiscal year 
2004, or have recently opened, are requested in the amount of 
$25.5 million. It also provides program increases of $18 
million for contract health care and $21 million for sanitation 
facilities projects.
    The budget request also includes $70 million for health 
care facility construction to be used for replacement of 
existing health care facilities. This amount will complete 
construction of the health centers in Pinon, AZ and Metlakatla, 
AK, and partially complete the health centers at Red Mesa, AZ, 
and Sisseton, SD.
    The fiscal year 2004 budget request incorporates savings in 
support of the President's management agenda, and those cost 
savings to the Federal budget include $21.3 million in 
administrative efficiencies, and $9.3 million through better 
management of information technology.
    The increases requested are essential to maintaining IHS, 
tribal, and urban Indian health programs capacity and 
infrastructure to provide access to high quality primary and 
secondary medical services, and begin to slow down the recent 
declines in certain health status indicators.
    The IHS has demonstrated the ability to maximize the use of 
available resources to provide services to improve the health 
status of the Indian people. In 2002, the IHS exceeded the 
healthy people 2010 goal of increasing by 50 percent the number 
of annual diabetic hemoglobin A1c tests. In addition, the 
health data is now showing a steady increase in the percentage 
of American Indian and Alaska Native diabetic patients who have 
achieved ideal blood sugar control. I am confident that these 
achievements will translate into decreased diabetic mortality 
rates in the future.
    The requests that I have just described reflect the 
continued investment by the President and the Secretary to 
maintain and support the IHS tribal and Urban Indian public 
health system. The President and the Secretary are also 
committed to national defense, homeland security, and 
increasing our ability to respond to bioterrorism or health 
threats to the Nation. However, while there will be sacrifices 
the country will be asked to make during this war on terrorism, 
sacrifices at the expense of the health of the American Indian 
and Alaska Natives is not acceptable to the Administration, the 
Secretary, the IHS, or tribal or urban leadership.
    As I mentioned earlier, there are significant disparities 
in mortality rates for a variety of conditions between American 
Indians and Alaska Native people in the United States general 
population. What's particularly alarming is the pattern is 
continuing to worsen. The overall mortality rate for the Indian 
population increased by 4.5 percent from the period of 1994 
through 1996, to 1997 through 1999, while during the same 
timeframe the United States all races rate declined by over 6 
percent.
    While future requests for increases will be affected by 
national priorities, the budget requests for the IHS will 
always be mindful that this health disparity gap for Indian 
people will widen if we are unable to maintain and improve 
access to high quality medical and preventive services.
    I want to thank you for this opportunity to discuss the 
fiscal year 2004 President's budget request for the Indian 
Health Service. I would be pleased to answer any questions you 
might have.
    I would ask that my full statement be inserted in the 
record.
    The Chairman. Your prepared statement will be placed in the 
record in its entirety.
    [Prepared statement of Charles Grim appears in appendix.]
    The Chairman. Thank you, doctor.
    Mr. Russell.

 STATEMENT OF WILLIAM RUSSELL, DEPUTY ASSISTANT SECRETARY FOR 
  PUBLIC AND INDIAN HOUSING, DEPARTMENT OF HOUSING AND URBAN 
                  DEVELOPMENT, WASHINGTON, DC

    Mr. Russell. Mr. Chairman, Mr. Vice Chairman, and members 
of the committee, thank you for inviting me today to provide 
comments on President Bush's fiscal year 2004 budget for HUD's 
Indian Housing and Community Development Programs. My name is 
William Russell and I am Deputy Assistant Secretary for Public 
and Indian Housing at HUD. I am speaking today on behalf of 
Assistant Secretary Michael Liu.
    I have prepared a statement for Mr. Liu that I would ask be 
entered into the record, an abbreviated version of which I will 
provide you today.
    The Chairman. Your complete testimony will be entered into 
the record.
    [Prepared statement of William Russell appears in 
appendix.]
    Mr. Russell. It is a pleasure to appear before you. I would 
like to express my appreciation for your continued efforts to 
improve the housing conditions of American Indian, Alaska 
Native, and Native Hawaiian peoples. HUD's Native American 
programs are available to over 550 federally-recognized and a 
limited number of State-recognized Indian tribes. We serve 
these tribes directly or through tribally-designated housing 
entities by providing grants and loan guarantees designed to 
support affordable housing and community and economic 
development activities.
    Our tribal partners are diverse. They are located on Indian 
reservations, Alaska Native villages, other traditional Indian 
areas, and most recently on the Hawaiian homelands. The 
Department of Housing and Urban Development supports the 
principle of government-to-government relations with Indian 
tribes.
    For fiscal year 2004 the President's budget for HUD 
proposes a total of $738.7 million, specifically for Native 
American and Native Hawaiian housing, community and economic 
development, and education programs. The 2004 budget includes 
$646.6 million for the NAHASDA program. This is the same as the 
2003 request. As with last year's request, reducing set-asides 
will actually allow for an increase in grant dollars available 
to tribes. The training and technical assistance set-aside has 
been increased to $5 million, which is $2 million more than 
last year's request.
    In the coming year, ONAP is planning to provide additional 
training and technical assistance to tribes. The title VI loan 
guarantee set-aside is funded at $1 million to continue program 
activities. The total program is more fully subscribed. It is 
more effective to allocate the funds by a formula directly to 
grantees. There is over $207 million in carry-over of unused 
budget authority in this program.
    The $1 million requested in the 2004 budget for the section 
184 loan guarantee program will provide an additional $27 
million in loan guarantee authority. In this program there is 
over $7 million in carry-over of unused budget authority.
    The President's 2004 budget request for the Indian 
Community Development Block Grant Program is $72.5 million. 
This is identical to the 2003 request and an increase of $1.5 
million over the amount appropriated in 2003.
    The Department is requesting $10 million for the Native 
Hawaiian Housing Block Grant Program. This program addresses 
the housing needs of Native Hawaiian families eligible to 
reside on Hawaiian homelands. An interim regulation 
implementing this new program was published in the Federal 
Register on June 13, 2002. This allowed us to distribute funds 
and implement the program while public comments are being 
considered and incorporated into the final regulations.
    The budget also requests that $1 million be allowed to the 
Section 184(a) Native Hawaiian Loan Guarantee Program which 
will provide up to $35 million in loan guarantee authority.
    The President's budget request includes $3 million from 
competitive grants to tribal colleges and universities, and 
$2.4 million to assist Alaska Native and Native Hawaiian 
serving institutions.
    As of September 30, 2002, $885.6 million remains unexpended 
in the NAHASDA program since fiscal year 1998. I would note 
that grant recipients have two years from the initial awarding 
of the grant to obligate 90 percent of such grant. Combining 
all the production numbers reported for the first four years of 
funding under NAHASDA there have been 25,819 new and 
rehabilitated housing units constructed through the end of 
fiscal year 2002.
    The President's budget request for HUD's Indian housing, 
community development, and education programs supports the 
progress being made by tribes in providing housing and housing-
related activities in Indian country.
    Thank you, again. I would be happy to answer any questions 
you may have.
    The Chairman. Thank you.
    Before we proceed because I don't how long the Senators are 
going to be able to stay when they come in, I would to yield to 
Senator Murkowski, a new member with the committee, who 
incidentally replaces a Senator Murkowski. Did you have an 
opening statement, Senator Murkowski?

   STATEMENT OF HON. LISA MURKOWSKI U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. I appreciate 
the opportunity to speak and to address the President's fiscal 
year 2004 budget for Indian programs.
    First, let me say that 119,000 Alaska Natives or American 
Indians currently call Alaska home which makes it the highest 
per capita concentration in the country. Many of these 
residents live in communities lacking essential services such 
as running water and basic health care.
    As I am sure you are aware, construction and health care 
costs in Alaska tend to be far higher than anywhere else in the 
United States. Alaskans must also contend with poor weather 
conditions in extreme remoteness, although you guys have had 
worse weather here than we have up North. [Laughter.]
    I will work to provide the needed funding for Indian 
projects to address the discrepancy. I have no control over the 
weather so far as I know.
    While the President's budget reflects the need for 
increased security both at home and abroad, I am encouraged 
that overall Indian program funding has increased. I look 
forward to working with the rest of the Committee and with the 
various agencies to use this funding to further improve the 
lives of the 4.1 million American Indians, Alaska Natives, and 
Native Hawaiians across the country. Thank you for the 
opportunity.
    The Chairman. Thank you.
    We will now proceed with your testimony, Ms. Vasques. 
Welcome.

STATEMENT OF VICTORIA VASQUES, DIRECTOR OF THE OFFICE OF INDIAN 
EDUCATION, DEPARTMENT OF EDUCATION, WASHINGTON, DC, ACCOMPANIED 
BY CATHIE L. MARTIN, GROUP LEADER, OFFICE OF INDIAN ELEMENTARY 
 AND SECONDARY EDUCATION; AND LONNA B. JONES, ACTING DIRECTOR, 
ELEMENTARY, SECONDARY, AND VOCATIONAL ANALYSIS DIVISION, BUDGET 
              SERVICE, OFFICE OF DEPUTY SECRETARY

    Ms. Vasques. Thank you. Good morning, Mr. Chairman, Mr. 
Vice Chairman, and other members of the committee. I am pleased 
to appear before you to discuss the fiscal year 2004 budget 
request for the Department of Education programs that serve 
American Indians, Alaska Natives, and Native Hawaiians.
    I request, Mr. Chairman, that my written statement be 
entered for the record.
    The Chairman. Your complete statement will be in the 
record.
    [Prepared testimony of Victoria Vasques appears in 
appendix.]
    Ms. Vasques. Thank you. Since this is my first opportunity 
to testify before this committee, I would like to begin by 
briefly mentioning my background. I am proud to say that my 
understanding of the Indian culture and Indian issues began 
with my upbringing, and more importantly with my father who 
served for almost 20 years as tribal chairman of the San 
Pasqual Band of Mission Indians.
    I have a strong commitment to education, especially Indian 
education, and have no doubt that this an historic time to be 
in the education arena. This past September I was appointed as 
the director of the Office of Indian Education. Prior to that, 
I served as the Executive Director of the White House 
Initiative on Tribal Colleges and Universities.
    The principles of ``No Child Left Behind'' represent a 
milestone for the education of over 600,000 Indian students. 
The act focuses on improving academic achievement by ensuring 
that all children can read by the end of third grade, improving 
teacher quality through high quality professional development, 
increasing accountability for student achievement, and placing 
a stronger emphasis on teaching methods.
    The 2004 request for the Department's Indian education 
programs is $122.4 million. These programs include formula 
grants to school districts, competitive special programs, and 
national activities.
    We are requesting $97.1 million for the Indian education 
grants to local education agencies. This program is the 
Department's principle vehicle for addressing the unique 
educational and culturally-related needs of Indian children. 
Grants supplement the regular school program, helping Indian 
children improve their academic skills, raise their self-
confidence, and participate in enrichment programs and 
activities that would otherwise be unavailable.
    The requested level would provide an estimated $206 per 
pupil payment for approximately 471,000 students including 
41,000 students in BIA schools. Our request for special 
programs for Indian children is $20 million; $10.8 million 
would support demonstration grants that promote school 
readiness for Indian preschool children and increase the 
potential for learning among all Indian students.
    In addition, the 2004 request will provide $9.1 million to 
continue the American Indian Teachers Corps program, which 
trains Indian college students to become teachers, places them 
in schools with a concentration of Indian students, and 
provides professional development and in-service support as 
they begin teaching.
    We are requesting $5.2 million for national activities 
including research, evaluation, and data collection activities 
related to Indian education. The Department developed a 
comprehensive research agenda for Indian education through an 
Indian consultative process. We are beginning a new large scale 
study this year that will establish baseline data on academic 
achievement and retention of American Indian and Alaska Native 
students.
    The fiscal year 2004 funds would be used to continue this 
study as well as to continue research grants and data 
collections initiated in earlier years.
    In addition to the Indian education programs that I just 
mentioned, which are administered by my office, the Department 
also supports the education of Indians through several other 
programs. My written statement describes our proposal for each 
of them, but I would like to touch on a few examples.
    The title I education for the disadvantaged program 
provides supplemental education funding to local educational 
agencies and schools to help some 15 million disadvantaged 
students, including an estimated 250,000 Indian children, learn 
at the same high standards as other students.
    The Department is requesting $12.4 billion for title I 
grants in fiscal year 2004, a 41 percent increase since 2001. 
Under the statute, the BIA in outlying areas receive 1 percent 
of title I grants, which is approximately $85 million.
    Reading First is a comprehensive effort to implement the 
findings of high quality, scientifically-based research on 
reading and reading instruction. It is one of the 
Administration's highest priorities for education. Providing 
consistent support for reading success from the earliest age 
has critically important benefits.
    Under this formula program, the BIA will receive 
approximately $5.25 million. The Higher Education Act for 
Strengthening Tribally Controlled Colleges and Universities 
program authorizes grants that enable these institutions to 
improve and expand their capacity to serve American Indian 
students. Under the budget request, the Department would award 
$19 million for activities to strengthen tribal colleges.
    The Special Education Grants to States program provides 
formula grants to meet the excess costs of providing special 
education and related services to children with disabilities. 
Under the budget request of $9.5 billion, the Department would 
provide approximately $82.5 million to BIA to help serve 
approximately 8,600 Indian students.
    The 2004 budget request for Department of Education 
programs serving Indians supports the President's overall goal 
of ensuring educational opportunities for all students.
    I thank you for the opportunity to appear before this 
committee. I would be happy to answer any questions you may 
have.
    The Chairman. Thank you.
    Before we go to our first round of questions, I would like 
to invite Senator Dorgan to make any opening statement.

  STATEMENT OF HON. BYRON L. DORGAN, U.S. SENATOR FROM NORTH 
                             DAKOTA

    Senator Dorgan. Thank you, Mr. Chairman.
    Just briefly, I have been in an appropriations subcommittee 
hearing that I have to return to. I have had a chance to review 
much of the testimony for this morning. It probably is not 
surprising that I think that the budget request for many of 
these accounts is woefully inadequate.
    For example, the proposal to take action that would 
essentially close the United Tribes Technical College makes no 
sense at all. Underfunding in a range of education, health 
care, and housing accounts is a very serious mistake. Tribal 
colleges which, in my judgment, are the core of some very 
important progress on Indian reservations are going to see 
additional funding problems as a result of this budget.
    The hearing that I am attending on my appropriations 
subcommittee, we hear exactly the same testimony. But with 
respect to our Trust responsibilities for Native Americans, the 
circumstances that exist in both housing, health care, and 
education, I think are emergency circumstances. I think it's a 
full blown emergency in many areas.
    My hope is that as we work through this on this committee, 
that we can make recommendations to both the authorizing and 
appropriations committee, to begin making some significant 
progress in these areas.
    We have four Indian reservations in North Dakota. I have 
visited them a great deal. I want to see us make significant 
progress in dealing with the health care needs that exist that 
are unmet, particularly the needs of children that are unmet. 
We need to make progress dealing with the needs of these 
children and education, Mr. Chairman.
    I visited a school that had 150 kids with one water 
fountain and two toilets. A little girl named Rosie Two Bears 
looked at me and she said, ``Senator, will you help build us a 
new school?'' She was sitting in a classroom whose desks were 
one inch apart in a 90-year-old building, part of which had 
been previously condemned.
    Well, that's not the way to give a child a good start in 
life. Every young child that walks through a classroom door 
ought to be able to go into a room that we think is going to 
give them a first rate education. That is not the case in many 
areas and in particular some reservations these days.
    So we have a bundle of challenges. No one is more acutely 
aware of that than you, Mr. Chairman and Senator Inouye. Both 
of you have provided significant leadership with this 
committee. I appreciate being a part of this.
    I regret that I can't stay for the entire hearing. I look 
forward to working with you, Mr. Chairman and Senator Inouye, 
and my colleagues as well to see if we can't make some real 
progress.
    We have to turn back some of the recommendations of the 
President's budget, build upon them, and make significant 
investments in human potential in many of these very important 
accounts.
    Thank you for calling on me, Mr. Chairman.
    The Chairman. Thank you. You have been a very consistent 
and strong voice in support of Indian country. I look forward 
to working with you, particularly on finding a way we can keep 
the United Tribes Technical College open. I think, as you do, 
that it is extremely important.
    As I said earlier, I am going to leave to go find a 
medicine man.
    I have a number of questions for each of you. I am going to 
submit those and ask you to get those back in writing before me 
before we close the hearing in a couple of weeks.
    There is one I would like to ask Ms. Vasques because it is 
something that has been on my mind for a good number of years. 
You may not be prepared to answer it, but I would like you to 
look into it.
    Are you familiar with Fort Lewis College in Colorado? It is 
a 4-year liberal arts college that is a State college?
    Ms. Vasques. Somewhat, but I have not been there.
    The Chairman. Well, it is the only State college in the 
United States that gives free tuition for Indian students. I 
think there are about 500 students there, if I am not mistaken. 
Of course, it costs the State of Colorado about $5 or $6 
million to reimburse the college to offset that free tuition 
for Indian youngsters--which I support, by the way.
    The College came into being because it had been a fort. It 
was called Fort Lewis. It had been a fort in the old days. When 
it was deactivated by the Federal Government, the land was 
given to the State of Colorado on condition that they would 
educate young Indian people and that there would be no cost for 
tuition to do it. That has been going on. It is a very nice, 
fine little school.
    But almost all of the other Indian colleges get some 
funding through a variety of sources, through Interior, 
Education, Agriculture, or some other agencies. It is never 
enough, by the way, as you know. But at least they get some.
    I have been concerned for some time about that little State 
college that gets no reimbursement whatsoever. I don't suppose 
you are prepared to talk about it at all.
    Ms. Vasques. I do not have an answer for you right now. But 
I will look into it at the Department and see if that has ever 
come up and if there has been a request from the Fort Lewis 
College.
    The Chairman. There never has been a request from Fort 
Lewis College. But there has been a number of times from the 
State government. They get off-set by the money that has to 
come from the State. Every State is running a deficit this 
year, as you know. I know that has become a bigger point of 
contention.
    About 15 or 18 years ago, somebody in the State legislature 
ran a bill to revoke that reimbursement. Of course, they ran 
head-on into the Federal Government who said, ``If you do that, 
you are apt to lose the land because that was the original 
agreement.''
    So the State finds itself in this very uncomfortable 
situation where they don't have the money to off-set it in many 
cases, and yet they are obligated to by the Federal Government.
    Could you try to see if you can find any information on 
that to see if anything ever has been done through the 
Education Department and supply that information to the 
committee?
    Ms. Vasques. Certainly.
    [Material supplied follows:]

                  Tuition Waivers for Indian Students

    We have no information that would indicate whether or not 
the tuition waiver and State reimbursement for American Indian 
students at Fort Lewis College are unique or whether other 
colleges and States have similar policies. However, we are 
aware that many institutions of higher education, foundations, 
and corporations provide special scholarships for Indian 
students. Information on specific scholarships can be found on 
a variety of websites. For example, the American Indian College 
Fund website includes one such listing at the following web 
address: www.collegefund.org.

    Ms. Vasques. Mr. Chairman, it might be a new initiative we 
might want to pursue for my office, as well.
    The Chairman. Well, I would appreciate it if that could be 
done.
    Ms. Vasques. Okay.
    The Chairman. With that, I will submit questions and would 
ask if Senator Inouye could continue with the hearing.
    Senator Inouye. Thank you very much, sir.
    Dr. Kincannon, I note that the Census numbers for Indian 
country has grown considerably in the last two decades. I am 
certain you are aware that tribes have different standards of 
citizenship or enrollment. For example, in some tribes if one 
can trace his ancestry to an original tribal roll, that would 
suffice. In some tribes, there are blood quantum requirements.
    If I should approach you and I said to you, ``I am a 
Sioux,'' even if I am just one-fourth Sioux, what am I listed 
as?
    Mr. Kincannon. Mr. Chairman, you are listed in accordance 
with how you respond. We don't have a way to individually quiz 
people or to know the percent of blood or individual tribal 
rules that apply that in a national context. We ask people to 
identify their race, and if they are American Indian or Alaska 
Native, to identify the tribal membership that predominates. We 
accept their word. They are obliged by law to report honestly 
to the best of their ability. We accept their word.
    Senator Inouye. So if I am proud of my German ancestry, and 
I respond German, that is what is listed.
    Mr. Kincannon. You couldn't respond German to the racial 
question.
    Senator Inouye. Well, I mean to the ethnic question.
    Mr. Kincannon. Yes.
    Senator Inouye. You will be conducting your survey with 
Native Hawaiians. What technique will you follow there?
    Mr. Kincannon. You are speaking of the American Community 
Survey?
    Senator Inouye. Yes.
    Mr. Kincannon. Yes; we will be conducting that survey on a 
similar basis, but we have made special plans. We will conduct 
a certain number of interviews in households throughout the 
country every month if the full funding of that survey comes 
about for fiscal year 2004.
    We have made plans for special sampling provisions to 
ensure coverage to the extent possible of this rather small 
population that is important for us to cover. We have discussed 
that with representatives of the community and with the 
Advisory Committee to the Census on Native Hawaiians and 
Pacific Islanders.
    I will be visiting the Hawaiian homelands later this month. 
I learn better if I can see it. I will be visiting with 
community leaders and Hawaiian homelands in your State later 
this month.
    Senator Inouye. All political polling organizations have a 
caveat saying, ``Three percent, plus or minus.'' What sort of 
caveat do you have for your work?
    Mr. Kincannon. Any survey result that is based on a 
probability sample will have a range of error. The range of 
error will depend on the sample size, the population size, and 
the characteristic being measured.
    I can provide some estimates of that for the record, if you 
would like. But it will be an analogous kind of measure of a 
plus or minus so many percentage points.
    Senator Inouye. Your numbers are very important because 
they not only impact upon economic development but on all the 
programs that these other witnesses have mentioned. Often times 
it is either per capita or per group. Your numbers are the 
determinate.
    Could you provide us with those variations?
    Mr. Kincannon. We can provide you with whatever statistics 
we have collected. We can be guided by the needs of the 
committee to the extent feasible in shaping future data 
collection and tabulation.
    [Material to be supplied follows:]

    Mr. Kincannon. We use either Confidence Interval (CI) or a 
Coefficient of Variation (CV) for each data item we publish 
from our surveys. The term ``margin of error'' has a variety of 
meanings and is most commonly used by the media. There is a 
direct relationship between margin of error and confidence 
intervals, and it is synonymous with the ``plus or minus'' 
quantity in a confidence interval.
    A confidence interval gives an estimated range of values 
that, with some level of certainty, contains the value of the 
estimate that would be obtained from the complete population. 
The width of the confidence interval gives us some idea of how 
certain we are about the estimate.
    For example, from the American Community Survey (ACS), the 
median age in Hawaii in 2001 was estimated at 36.7 years with a 
confidence interval of +/- 0.2. This means that 90 percent of 
the time the estimate of the median age would be between 36.5 
and 36.7 years. The median household income in Hawaii in 2001 
was $49,960 with a confidence interval of +/- $2,632, that is, 
90 percent of the time the estimate of the median income will 
be between $52,592 and $47,328.
    The Coefficient of Variation (CV) is the ratio of the 
standard error of the estimate to the value of the estimate. It 
is usually expressed in terms of a percentage. The lower the CV 
the higher the relative reliability of the estimate. The 
estimates developed from a specific sample survey may differ 
from the results of a comparable, complete coverage survey. 
This difference is estimated by the standard error.
    The Annual Survey of Manufactures (ASM), shows the number 
of manufacturing employees in Hawaii for 2001 at 14,382 with a 
CV of 6 percent. This means that there is about 95 percent 
confidence that the interval, 12,656 to 16,108, includes the 
true value the estimate is approximating.

    Senator Inouye. I would like to ask Ms. Martin a few 
questions. I have one question, and I may submit the rest of my 
questions.
    We were made to understand that there were two new tribal 
colleges that will begin operations this year. We also 
understood that the Department of the Interior is aware of 
these colleges, but no funds were requested. Why is that?
    Ms. Martin. Sir, I am not aware of the two new tribal 
colleges. I don't know right now why funds were not requested 
for them. I will check into that.
    Senator Inouye. I will give you the names. I will submit 
them to you.
    Ms. Martin. Thank you.
    According to press reports, in her testimony before the 
Senate Energy Committee, Secretary Norton indicated that the 
increase in funding in the budget for Trust reform will come at 
the cost of reductions in funding in other department programs 
for Indians. Have you heard that?
    Ms. Martin. I was not specifically aware of her statement 
at that hearing, but I have heard in press reports that 
statement was made.
    Senator Inouye. Well, her testimony has been rather widely 
disseminated. However, it seems clear that existing problems 
with the Trust management have been caused, not by Indian 
beneficiaries, but by the Government. This goes back in 
history.
    Under these circumstances, do you think it is fair to take 
funds from other Indian programs to address a problem that may 
be the Government's sole making?
    Ms. Martin. We are in a position now where we must fund our 
Trust programs. We are doing our very best to prevent the 
funding of those programs from affecting our other tribal 
services and programs. I regret that to some extent our tribal 
services programs may be affected. We are doing everything we 
can to minimize that.
    Senator Inouye. Well, as you know, I cast my vote in favor 
of Mr. Swimmer because we want this matter resolved as soon as 
possible. I hope everything turns out well.
    You have included in your request $15 million to reorganize 
the Office of the Special Trustee for new Trust offices located 
in the field. Do you have duties that have been set forth for 
these Trust offices?
    Ms. Martin. We do have some duties that have been set forth 
for the Trust officers. Donna Erwin, the Acting Special Trustee 
for American Indians, is accompanying me today. I will defer to 
her to answer questions you might have about that.
    Ms. Erwin. Mr. Chairman, we do have duties. We have 
position descriptions.
    The main purpose of putting fiduciary trust officers in the 
field is to be able to give the beneficiaries one point of 
contact. We are not shifting them all over within the Agency 
trying to answer questions. It also will avoid the disruption 
of the day-to-day operations of the people that are performing 
the operation duties.
    The other thing is that these people will be there to add 
an additional resource to the BIA and expand resources on 
fiduciary duties to make sure we are meeting our 
responsibilities and we are representing those beneficiaries, 
as well as looking out for the land as we are moving forward in 
preserving and conserving land.
    Senator Inouye. Have you selected these Trust officers?
    Ms. Erwin. No; we have not.
    Senator Inouye. Do you have any requirements or standards 
that you have set for these new officers?
    Ms. Erwin. Yes; we have. We have been working with the BIA. 
We have had meetings, in fact, as recently as last week, on 
setting out standards and setting out training for both BIA and 
the Trust officers in: ``How do you represent the loyalty to 
that beneficiary? How do you represent and make sure that you 
are meeting your Trust responsibilities?''
    So one of the things that we want to be able to do is look 
for people that have a fiduciary background, but in addition to 
that, to be able to provide this training. We have even 
discussed holding these training programs at tribal colleges so 
that we can develop Indian people to be able to come into these 
positions.
    Senator Inouye. Have you advertised this in Indian country?
    Ms. Erwin. Pardon me?
    Senator Inouye. Have you advertised the need for these 
Trust officers?
    Ms. Erwin. No; we are just completing the reorganization 
and those job descriptions. They will be advertised throughout 
Indian country. We have discussed including them in the 
American Bar, the Indian Bar, and tribal colleges. We do want 
to be able to bring, as we said, the Indian people trained into 
those types of positions.
    Senator Inouye. I note in your budget request that you have 
established a cap for historical accounting at $130 million. 
What is the justification for this number?
    Ms. Erwin. I don't believe that is a cap. I think that is 
the request for this fiscal year; $100 million of that would be 
for the individual Indian historical accounting and $30 million 
of that would be toward tribal.
    We do not have anyone here that can talk to the specifics 
today, but if you have additional questions we can certainly 
get those back to you in writing.
    Senator Inouye. But will you be able to spend more than 
that if you do not have it?
    Ms. Erwin. I would like to defer that to the experts in 
that field.
    Senator Inouye. When you set a cap limitation of this sort, 
how can the Secretary fulfill the requirements of court orders?
    Ms. Erwin. I believe, if you refer to the plan that was 
submitted on January 6, it will outline how that funding would 
be spent during fiscal year 2004. As I said, I would like to 
give you details on that in writing so that we can give you the 
specifics.
    Senator Inouye. This next question I do not expect a 
response, but I would hope you can do it in writing.
    I would like to know what we can do in Congress to assist 
the Department and the Administration in reaching a settlement 
in the case of Cobell?
    Ms. Erwin. I think we would appreciate those efforts. I 
believe, as the Secretary has previously testified, there is a 
disparity in numbers currently. One of the things that you will 
be seeing in that historical accounting expenditures, would be 
to try to document some of the higher dollar amounts so that 
figure could become closer to something that we could settle. 
So I think everyone would appreciate moving toward that.
    Senator Inouye. Ms. Martin, I will be submitting many more 
questions, if I may.
    Ms. Martin. Thank you.
    Senator Inouye. Doctor, about 10 years ago the committee 
took a trip to Alaska. Like most of our trips to Indian 
country, the picture is rather sad because the statistics and 
what you see is not pretty unless you travel to just casino 
places.
    For example, in Alaska we were told that at that time, 
which was about 1990, of the men in the age group of 18-23, the 
suicide rate was 14 times greater than the national average. 
Are you aware of those numbers?
    Mr. Grim. Not those specific numbers, sir. But yes, I am 
aware of the disparity between suicide rates in our population 
and the general population.
    Senator Inouye. What is it now?
    Mr. Grim. It is 2.7 percent higher right now in our 
population. It varies by tribe and by region. But the overall 
average is 2.7 percent greater.
    Senator Inouye. That is for all age groups? In other words, 
it has improved?
    Mr. Grim. It has gotten better. There is still the 
disparity. We are not happy with that.
    Senator Inouye. Is that for Alaskan Natives or all Indians?
    Mr. Grim. That number was for all Indians.
    Senator Inouye. So it is 2\1/2\ times the national norm?
    And the numbers that you gave on diabetes is the same as 
the national norm?
    Mr. Grim. Yes, sir.
    Senator Inouye. Seven times.
    Mr. Grim. The diabetes rates are 2.7 times greater.
    Senator Inouye. We were told about 10 years ago that if an 
Indian man reached the age of 50, the odds were that he would 
be diabetic. At least half were diabetic. Is that the ratio 
today?
    Mr. Grim. I can't answer that specifically. But our rates 
are still high. We are not expecting a decrease in the near 
future. We have seen some indicators, as I mentioned in my oral 
statement, that would lead us to believe that in the not-to-
distant future, the special moneys that have been put out to 
tribes in grants, are making an impact on the prevention side. 
We are seeing a lot of the clinical markers and laboratory 
markers that are increasing in the right direction. But it is 
going to take years before the actual diabetes prevalence or 
incidence starts to shift in the right direction.
    Senator Inouye. The Census Bureau provided us some 
information of the number of homes with telephones and the 
number of homes with toilet facilities. Obviously it is very 
much lower than the American norm.
    What sort of health impact would that have on Indian 
country?
    Mr. Grim. It has a huge impact on Indian country. In the 
early days of Indian Health Service, as we saw the numbers 
increase in the number of homes that we were able to install 
safe water and sanitation facilities, we saw a corresponding 
decrease in gastrointestinal and neonatal deaths. So it makes a 
huge impact.
    We still have huge disparities in the number of Indian 
homes that don't have safe water. Our recent statistics show 
approximately 7-8 percent of Indian homes still do not have 
safe water supplies. The corresponding U.S. rate, I believe, is 
around 1 percent. So we still have a huge disparity there. That 
is one of the reasons we are very excited about the $21 million 
increase that has been proposed for our 2004 budget in 
sanitation facilities. It will help us to make a greater impact 
in that arena. But we still have needs that are far greater 
than that, as you are aware.
    Senator Inouye. $81 million will make a greater impact. 
What do you mean by ``greater impact?'' Is that 10 percent or 5 
percent?
    Mr. Grim. We have some specific numbers for you, Senator.
    The numbers that we would be able to serve with that 
increase in funding is about 765 additional first service 
homes.
    Senator Inouye. Six hundred. Out of how many?
    Mr. Grim. About 21,500 that we have on our list now.
    Senator Inouye. Six hundred out of 20,000.
    Mr. Grim. Yes, sir.
    Senator Inouye. At that rate it might take us 30 years.
    Mr. Grim. It would take a number of years. Right now we 
estimate our unmet need in that arena for sanitation facilities 
as $1.6 billion. But there is a number that are unfeasible. We 
look at the ones that are feasible as costing around $900 
million.
    Senator Inouye. The American populace has become accustomed 
to different color ratings--dangerous, safe, acceptable, et 
cetera. Where would you place this? Unacceptable, dangerous, or 
moderate acceptable?
    Mr. Grim. I think, Senator, for those locations that have 
some of the greatest disparities, the families, and the people 
that have to live with them, would place them as unacceptable.
    I know the Secretary in one of his recent trips to Alaska 
also was able to see some of the needs that the Alaskan Natives 
have relative to safe water and sewer. He was very supportive 
of our $20 million increase that is being proposed in the 
President's budget.
    Senator Inouye. Are there any plans to limit eligibility 
for health care services to only those enrolled members, of 
federally-recognized tribes?
    Dr. Grim. No, sir; we have no such plans.
    Senator Inouye. Are there any plans to privatize or out-
source Indian health care services?
    Mr. Grim. If you refer to privatization as in the business 
private sector, we have no such plans. But as you are aware, 
through Public Law 93-638, anytime the tribe wishes to take 
over their health care programs or operations from us, we are 
fully supportive of that. In a sense, we look at that as 
privatization to the local community. We are not looking for 
any great privatization to the private business sector, but we 
are still very supportive of tribes taking over their own 
programs.
    Senator Inouye. Two words have become very important in the 
American vocabulary--homeland security. Yesterday, the U.S. 
Senate established a new Appropriations Subcommittee on 
Homeland Security.
    Has your Agency begun any negotiations or discussions with 
Indian country as to what can be done to prepare Indian country 
for emergency response to some of these problems?
    Mr. Grim. There are a couple of things that have been going 
on around that, Senator. When the Centers for Disease Control 
and the Health Resources and Services Administration put their 
grants out around preparedness, some of our staff were involved 
in the reviewing of those grants and ensuring that the American 
Indian and Alaska Native tribes were included as part of the 
State planning and implementation process. A lot of comments 
went back indicating a need to ensure that there was inclusion.
    The other thing we have been hearing is anecdotal evidence 
from a number of tribes relative to the resources necessary to 
ensure that all of our tribal homelands are safe and secure. 
This also includes the special needs of those on the borders, 
the U.S./Mexico border and the United States/Canadian border, 
as well as some of the port tribes that are on or near ports.
    One of the things that the Indian Health Service is looking 
at doing in the near future, is working with the new Department 
of Homeland Security. I know that our two Departments, HHS and 
Homeland Security, will work closely to coordinate things.
    One of the things the Indian Health Service is doing above 
and beyond that is we are planning in the spring for a 
conference to be held with the tribes. That conference will be 
looking at homeland security issues and general security 
issues. In essence, we are trying to get prepared to work with 
tribes, to hear what they have to say, and where they think we, 
as a health care system, tribal health care systems, and urban 
health care systems, can fit into the homeland security arena. 
We don't have a set date right now. We are looking at the 
spring. We have some tribal organization representatives that 
will be helping us plan that agenda.
    Senator Inouye. Would I be correct in suggesting that there 
are no tribal or IHS hospitals or clinics that are presently 
prepared to cope with bioterrorism or chemical attacks?
    Mr. Grim. No; I wouldn't go that far to say that there are 
none prepared. In fact, most of our hospitals and clinics do 
get accredited by an organization called the Joint Commission 
on the Accreditation of Health Care Organizations, or other 
similar external accrediting bodies.
    Part of that process requires that they all have a disaster 
preparedness plan that they practice on a regular basis. We 
have gone further with the development at both headquarters and 
regional levels to develop what are called ``Continuity of 
Operations'' plans to ensure that if any of our offices are 
shut down, we are able to operate.
    So I think that much like the rest of the Nation, the 
Indian Health Service and Indian tribes are in a better place 
than they were 1 year or two ago relative to that sort of 
preparedness. There is still a long way to go and a lot that 
needs to be done.
    Senator Inouye. A few years ago one of the proudest moments 
of the Health Service was to announce that infant mortality in 
Indian country has now become equal to the national norm. What 
is it now?
    Mr. Grim. Right now our ratio is just slightly above that, 
1.2. It is a little bit higher.
    Senator Inouye. But it is still within range?
    Mr. Grim. Yes; very close.
    Senator Inouye. Now, if I may go to housing, you have 
testified that approximately 38 percent of all Indian housing 
funds appropriated since the beginning of NAHASDA have remained 
unspent. Did I hear wrong?
    Mr. Russell. Actually, that percentage represents unspent 
funds since 1998. So not since the beginning of NAHASDA which 
was 1996.
    Senator Inouye. Since 1998?
    Mr. Russell. Yes.
    Senator Inouye. Are the tribes aware of this?
    Mr. Russell. I believe they are. What we are trying to do 
is work more diligently to collect tribe-by-tribe data, 
actually on the obligations status of those funds. As you know, 
it is an unexpended amount of money. Maybe much of that money 
has already been obligated. So we are trying to ascertain how 
much of it has been obligated and break that down by tribes so 
we can have a better idea of where the tribes stand on that.
    Senator Inouye. When were these tribes notified that we had 
these funds were available for obligation? I was told 
yesterday; is that correct?
    Mr. Russell. I am not exactly sure when they were notified, 
sir. I can look into that.
    Senator Inouye. I have been on the Appropriations Committee 
now for over 30 years. So I am well aware that in the process 
you begin with what you consider to be priorities and then by 
the time it gets through your Department and goes to OMB, you 
may be lucky if you have half.
    For the 2004 budget request, if I may ask Ms. Vasques, some 
45 education programs will be eliminated; is that correct?
    Ms. Vasques. Yes, sir.
    Senator Inouye. Now, in your budget request, did you 
request that they be eliminated?
    Ms. Vasques. Yes; in keeping with the President's 
priorities, they looked at many of our programs that have been 
in existence. I think the exact number is 45 that were targeted 
for elimination.
    Senator Inouye. Subject to the President's priorities.
    Ms. Vasques. Title I, special education.
    Senator Inouye. What were your priorities? Would you have 
wanted those programs to continue?
    Ms. Vasques. I am not familiar with all 45 of them, but I 
know for the Office of Indian Education, which is where I am 
the biggest advocate, I constantly am at the table to make sure 
our priorities are heard in the Office of Indian Education.
    Senator Inouye. So as far as your program, you don't think 
you are wasting money?
    Ms. Vasques. We are not wasting money. We would like some 
more money. We have $122 million in the Office of Indian 
Education and approximately $97 million of that goes to the 
local educational agencies that are serving our Indian students 
in the public schools.
    Senator Inouye. In order to carry out your mission in the 
proper fashion, how much more money would this Congress have to 
appropriate?
    Ms. Vasques. To the Office of Indian Education?
    Senator Inouye. Yes.
    Ms. Vasques. I wasn't prepared to answer that question. I 
think the exact amount we are asking for is $122 million. I am 
shooting for that in my budget.
    Senator Inouye. You are requesting that because you were 
told to request that, or because you think it is enough?
    Ms. Vasques. We worked together within the Office of 
Elementary and Secondary Education. We sat down and focused on 
our needs.
    Senator Inouye. Do you think that amount is enough?
    Ms. Vasques. Well, for the Department of Education, yes, it 
is enough. If you are asking me personally, I can always 
advocate for more.
    Senator Inouye. What is the dropout rate for high school 
students now?
    Ms. Vasques. I can't recall the dropout rate for American 
Indian students in high school.
    Senator Inouye. Is it worse than the national norm?
    Ms. Vasques. Yes, it is. I am sure I have it here in my 
notes. I can get that exact number for you for the record and 
submit it to the committee.
    [Material to be submitted follows:]

                   Dropout Rates of American Indians

    Data pulled together from the 2000 Census indicate that 
about 16.1 percent of 16 to 19 year old American Indians are 
not enrolled in, and did not graduate from, high school. In 
comparison, the rate is 8.2 percent for whites, 11.7 percent 
for blacks, 21 percent for Hispanics, and 9.8 percent for the 
general population. The percentages are based on responses from 
individuals who identified themselves with a single race and do 
not include those who identified themselves with more than one 
race.

    Senator Inouye. You would like to reduce that dropout rate, 
wouldn't you?
    Ms. Vasques. Absolutely.
    Senator Inouye. At least to make it equal the national 
norm?
    Ms. Vasques. We would like to have no dropouts.
    Senator Inouye. Do you think this program can resolve that?
    Ms. Vasques. Well, I think it is working in concert with 
many of our programs at the Department--the Safe and Drug Free 
Schools, Title I, and other school improvement programs.
    Senator Inouye. If I may, I would like to submit questions 
not only for myself but on behalf of the other members. Can we 
secure a response from you in 2 weeks? Would that be okay?
    Ms. Vasques. Yes.
    Senator Inouye. With that, and on behalf of the chairman of 
the committee, I thank you very much for your presence here 
today and your answers. Thank you very much.
    [Whereupon, at 11:26 a.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


  Prepared Deborah J. Daniels, Assistant Attorney General, Office of 
                Justice Programs, Department of Justice

    Chairman Campbell, Vice Chairman Inouye, and members of the 
committee: The Department of Justice appreciates the opportunity to 
submit this statement to the committee to discuss the Justice 
Department's proposed fiscal year 2004 budget priorities for Indian 
country. As the committee is aware, and as we at the Justice Department 
are aware, the needs of Indian tribal governments in combating crime 
and violence continue to be great. As the Department stated to this 
committee last year, the President and the Attorney General remain 
committed to addressing the most serious law enforcement problems in 
Indian country, including substance abuse, domestic violence, and other 
violent crimes, and to ensuring that Indian tribes are full partners in 
this effort.
    The Justice Department's Office of Justice Programs [OJP] continues 
to be the Department's primary resource for funding and other 
assistance in Indian country. Through OJP and its component bureaus, 
the Department identifies emerging criminal and juvenile justice system 
issues, develops new ideas and tests promising approaches, evaluates 
program results, collects statistics, and disseminates these findings 
and other information to Federal, State, and local units of government, 
Indian tribes, and criminal justice professionals. OJP works to prevent 
and control crime and help crime victims by providing funding to and 
assisting State and local governments, Indian tribes, law enforcement, 
prosecutors, courts, corrections, and other service providers.
    During the past fiscal year, OJP continued its support to American 
Indian and Alaskan Native tribes. OJP has done this through grants to 
support innovative approaches to breaking the cycle of drugs, 
delinquency, crime and violence and through technical assistance and 
training to provide tribal leaders with the knowledge and skills 
required to address these issues.
    Many of the committee members are aware of OJP's efforts with the 
Comprehensive Indian Resources for Community and Law Enforcement, or 
CIRCLE, Project. As was discussed with this committee last year, the 
CIRCLE Project recognizes that the most effective solutions to the 
problems experienced by tribal communities come from the tribes 
themselves. The three tribes that participate in the CIRCLE Project 
have each undertaken efforts to combat crime and violence. These tribes 
designed their own strategies, while we provided support through direct 
funding, training, and technical assistance.
    With the conclusion of another fiscal year we continue to see 
results from the three CIRCLE Project tribes. We at OJP are hopeful 
that the lessons obtained through the CIRCLE Project will be taken as 
both examples and possible roadmaps for other tribes to follow as they 
attempt to deal with their own unique needs and requirements. For 
example, gang activity and domestic violence continue to be a major 
problem for many tribal communities. Under the CIRCLE Project, the 
Oglala Sioux have seen reduced gang activity and domestic violence 
since implementing CIRCLE. We believe that the methods followed by the 
Oglala Sioux can be used by other similarly situated tribes. Juvenile 
delinquency also continues to plague tribal communities. Under the 
CIRCLE project the Northern Cheyenne continue to make progress in this 
area with several promising youth programs. Meanwhile the Pueblo of 
Zuni continues its efforts to adopt community policing practices to its 
community.
    The Administration's continued commitment to American Indian 
communities is reflected in the President's Fiscal Year 2004 request of 
$50.7 million for OJP tribal programs, part of the Department's overall 
effort to assist tribal governments in addressing criminal justice 
issues in Indian country. This plan will allow us to continue most of 
our tribal programs near fiscal year 2003 levels.
    As the committee is aware, many of OJP's tribal programs focus on 
alcohol and drug abuse, which continue to be major problems in Indian 
country. During the last fiscal year, OJP's Bureau of Justice 
Assistance [BJA] issued a solicitation and awarded grants for the 
Indian Alcohol and Substance Abuse Demonstration Program, an effort to 
improve the enforcement of alcohol and drug laws in tribal lands and 
provide treatment and other services to American Indian or Alaskan 
Native offenders with substance abuse problems. Under this initiative, 
recipients are focusing on law enforcement, services, or both. For 
fiscal year 2003, we received $4.9 million for this initiative. For 
fiscal year 2004, the President requested an additional $4.9 to 
continue the effort.
    BJA will also address the issue of drug abuse in Indian country 
through continued assistance to Indian communities under its Drug 
Courts Program, which provides funds for local drug courts that provide 
specialized treatment and rehabilitation for non-violent substance 
abusing offenders. While this is not solely a tribal program, OJP has 
always ensured that tribal governments were included as Drug Court 
grantees. Last fiscal year alone, we awarded 16 Drug Court grants 
totaling over $2.7 million to Indian tribes. In the last 2 years, OJP 
has awarded nearly $6 million in drug court grants to tribal 
governments and has established 37 new drug courts in Indian country. 
We anticipate that American Indian and Alaskan Native tribes will 
continue to apply for drug court funding again this year and that they 
will be well-represented among new grantees. For fiscal year 2003, we 
received $44.7 million for the overall Drug Courts Program, and for 
fiscal year 2004 we have requested $68 million for the overall program.
    Further, Mr. Chairman, it continues to be a sad fact that American 
Indian and Alaskan Native women still suffer disproportionately from 
domestic violence and sexual assault. Since 1994, our Office on 
Violence Against Women [OVW] has administered the STOP Violence Against 
Indian Women Discretionary Grants Program, which support tribes' 
efforts to investigate and prosecute violent crimes against women and 
to strengthen services for victims of these crimes. During fiscal year 
2002, OJP awarded 43 grants totaling over $5 million under this 
program. In fiscal year 2003, we received $9.1 million for this effort. 
For fiscal year 2004, we have requested an additional $9.1 million.
    During fiscal year 2002, we were pleased to launch the Tribal 
Domestic Violence and Sexual Assault Coalitions Grant Program, a new 
program authorized under the Violence Against Women Act of 2000 that is 
designed to help non-profit tribal coalitions improve systemic and 
community responses to victims in Indian country. We have high hopes 
that this program will help tribal communities identify gaps in 
services so that no domestic violence or sexual assault victims fall 
through the cracks. During fiscal year 2002, OJP awarded six grants 
totaling over $1.7 million under this initiative. For fiscal year 2003, 
we received $3.3 million for this effort. For fiscal year 2004, we have 
requested the same amount.
    For fiscal year 2004, we are requesting a total of $20.1 million 
for all of our tribal Violence Against Women Act programs, virtually 
maintaining the fiscal year 2002 and fiscal year 2003 funding levels.
    Similarly, OJP's Office for Victims of Crime [OVC] works with 
Indian tribes to provide services for crime victims in areas that are 
often under-served. OVC provides direct support through its Victim 
Assistance in Indian Country Discretionary Grant Program. Tribes can 
use these funds for many different services, including emergency 
shelters, mental health counseling, and immediate crisis intervention. 
This program is supported through the Crime Victims Fund, which comes 
from Federal criminal fines, forfeited bail bonds, penalty fees, and 
special assessments. Further, and aside from funds that will become 
available through OVC's Crime Victim Fund, the President has also 
requested an additional $1.6 million specifically to support victim 
assistance programs in Indian country for fiscal year 2004.
    OVC also administers grants under the Children's Justice Act to 
improve the investigation, prosecution, and handling of child abuse 
cases in Indian country. Tribal communities nationwide have used these 
grants for activities such as training law enforcement and court staff 
on how to work with child abuse victims, and establishing protocols for 
handling these cases. We are requesting $3 million for this program in 
fiscal year 2004, maintaining the current funding level of $2.9 million 
received for fiscal year 2003.
    During fiscal year 2004, as during fiscal years 2003 and 2002, OJP 
continues its work to help American Indian and Alaskan Native youth 
through the Tribal Youth Program, which is administered by OJP's Office 
of Juvenile Justice and Delinquency Prevention [OJJDP]. The Tribal 
Youth Program supports accountability-based sanctions, training for 
juvenile court judges, strengthening family bonds, substance abuse 
counseling, and other efforts to improve justice operations in Indian 
country. Further, with OJJDP funding, American Indian Development 
Associates provides training and technical assistance to Tribal Youth 
Program grantees. Also, OJP will continue to dedicate funds to support 
tribal-related juvenile justice research activities. For fiscal year 
2003, OJP received $12.3 million for this program. For fiscal year 
2004, the President has requested $12.5 million to allow these efforts 
to continue.
    In addition to focusing on specific offender or victim populations, 
tribes have expressed a need for overall improvement of their justice 
systems. Tribal justice systems have existed for hundreds of years, but 
lately their workload has grown markedly, while the available resources 
have not. OJP has worked to help ease this burden through the Tribal 
Courts Assistance Program, which assists tribes in the development, 
enhancement, and continuing operation of tribal judicial systems. It 
provides resources to help tribes sustain safer and more peaceful 
communities. For fiscal year 2003, we received $7.9 million for this 
effort. For fiscal year 2004, we have requested $5.9 million.
    Another important tool to help tribes enhance their law enforcement 
and criminal justice systems is technology. This past September, OJP's 
Bureau of Justice Assistance [BJA] awarded funds to the National Center 
for Rural Law Enforcement for the first phase of the Inter-tribal 
Integrated Justice Pilot Project, a part of OJP's Information 
Technology Initiative. The Inter-tribal Integrated Justice Pilot 
Project will increase electronic information sharing among the Navajo 
Nation, Hopi Tribe, and Pueblo of Zuni in order to improve 24-hour 
emergency services and enforcement of drunk driving violations and 
protection orders. We look forward to continuing this project and to 
providing training and technical assistance to other tribes that seek 
to undertake similar efforts.
    One of the many challenges that American Indian and Alaskan Native 
tribes face is collecting reliable data on arrests, victimizations, and 
other criminal justice-related issues. Last year OJP awarded a grant to 
the Justice Research and Statistics Association to create the Tribal 
Justice Statistics Assistance Center, which became operational late 
last month. The Center will work with tribal justice agencies to 
develop and enhance their ability to generate and use criminal and 
civil justice statistics. It will provide support specifically tailored 
to the tribal community requesting assistance. Among other activities, 
the Center will offer tribes training in the use of criminal justice 
data to help inform. justice decisionmaking in Indian country.
    Not only will improved data gathering help tribes make better 
policy decisions, it will also help them to better share and receive 
information with the broader criminal justice community, as well as to 
participate in national criminal justice data gathering efforts, such 
as the National Incident Based Reporting System [NIBRS], the Uniform 
Crime Reporting [UCR] program, and other data collections related to 
corrections, criminal victimization, court processing, and juvenile 
justice. In addition, the Center will provide for tribal participation 
and access to national law enforcement data systems, such as the 
National Criminal Information Center [NCIC] and the National Protection 
Order File.
    For fiscal year 2003, we targeted $2 million in Bureau of Justice 
Statistics [BJS] funds for the Tribal Justice Statistics Assistance 
Center and other tribal-related statistics activities, maintaining the 
current funding level. For fiscal year 2004, we plan to dedicate a 
similar amount.
    Through OJP's National Institute of Justice [NIJ], we at OJP 
continue to engage in a number of research efforts to better understand 
criminal and juvenile justice problems in Indian country and the many 
challenges tribal justice agencies face. We consider this type of 
research critical to helping us understand what approaches and 
techniques will best serve tribal governments as they work to improve 
conditions within their communities. In the past this research has 
produced valuable resources such as Policing on American Indian 
Reservations, which was developed through a grant to the John F. 
Kennedy School of Government at Harvard University. We consider 
continuing these types of projects an essential part of our assistance 
to tribal governments.
    Mr. Chairman, so far I have outlined some of our broader efforts to 
work with American Indian and Alaskan Native tribes, but there is also 
a need for day-to-day assistance. In September 2000, with OJP support, 
the National Tribal Justice Resource Center opened its doors. Located 
in Boulder, Colorado, the Resource Center is operated by the National 
American Indian Court Judges Association and provides tribal justice 
systems with assistance that is comparable to that available to Federal 
and state court systems. The Resource Center offers onsite training and 
technical assistance, a calendar of seminars and conferences, and a 
free searchable data base of tribal court opinions. It also features a 
``justice system mentoring project,'' which partners a developing 
tribal court with a more experienced one. The Resource Center makes 
information available through a toll-free number [1-877/976-8572] and a 
comprehensive searchable website [www.tribalresourcecenter.org]. OJP 
plans to continue our support of this project in fiscal year 2004.
    Mr. Chairman, Attorney General Ashcroft has pledged to honor our 
Federal trust responsibility and to work with sovereign Indian Nations 
on a government-to-government basis. The Attorney General, the Justice 
Department, and OJP will honor this commitment and continue to assist 
tribal justice systems in their effort to promote safe communities. We 
also recognize that the most effective solutions to the problems facing 
tribes come from the tribes themselves, and that our role is to help 
the tribes develop and implement their own law enforcement and criminal 
justice strategies. We are confident that our current activities and 
our fiscal year 2004 proposed budget reflect these priorities. This 
concludes my statement.
    Mr. Chairman, I have attached a budget chart to assist the 
committee, and I would welcome the opportunity to answer any questions 
you or members of the committee may have.
[GRAPHIC] [TIFF OMITTED] T5423.109

[GRAPHIC] [TIFF OMITTED] T5423.110

[GRAPHIC] [TIFF OMITTED] T5423.111

[GRAPHIC] [TIFF OMITTED] T5423.112

[GRAPHIC] [TIFF OMITTED] T5423.113

[GRAPHIC] [TIFF OMITTED] T5423.114

[GRAPHIC] [TIFF OMITTED] T5423.115

[GRAPHIC] [TIFF OMITTED] T5423.116

[GRAPHIC] [TIFF OMITTED] T5423.117

[GRAPHIC] [TIFF OMITTED] T5423.118

[GRAPHIC] [TIFF OMITTED] T5423.119

[GRAPHIC] [TIFF OMITTED] T5423.120

[GRAPHIC] [TIFF OMITTED] T5423.121

[GRAPHIC] [TIFF OMITTED] T5423.122

[GRAPHIC] [TIFF OMITTED] T5423.123

[GRAPHIC] [TIFF OMITTED] T5423.124

[GRAPHIC] [TIFF OMITTED] T5423.125

[GRAPHIC] [TIFF OMITTED] T5423.126

[GRAPHIC] [TIFF OMITTED] T5423.127

[GRAPHIC] [TIFF OMITTED] T5423.128

[GRAPHIC] [TIFF OMITTED] T5423.129

[GRAPHIC] [TIFF OMITTED] T5423.130

[GRAPHIC] [TIFF OMITTED] T5423.131

[GRAPHIC] [TIFF OMITTED] T5423.132

[GRAPHIC] [TIFF OMITTED] T5423.133

[GRAPHIC] [TIFF OMITTED] T5423.134

[GRAPHIC] [TIFF OMITTED] T5423.135

[GRAPHIC] [TIFF OMITTED] T5423.136

[GRAPHIC] [TIFF OMITTED] T5423.137

[GRAPHIC] [TIFF OMITTED] T5423.138

[GRAPHIC] [TIFF OMITTED] T5423.139

[GRAPHIC] [TIFF OMITTED] T5423.140

[GRAPHIC] [TIFF OMITTED] T5423.141

[GRAPHIC] [TIFF OMITTED] T5423.142

[GRAPHIC] [TIFF OMITTED] T5423.143

[GRAPHIC] [TIFF OMITTED] T5423.144

[GRAPHIC] [TIFF OMITTED] T5423.145

[GRAPHIC] [TIFF OMITTED] T5423.146

[GRAPHIC] [TIFF OMITTED] T5423.147

[GRAPHIC] [TIFF OMITTED] T5423.148

[GRAPHIC] [TIFF OMITTED] T5423.149

[GRAPHIC] [TIFF OMITTED] T5423.150

[GRAPHIC] [TIFF OMITTED] T5423.151

[GRAPHIC] [TIFF OMITTED] T5423.152

[GRAPHIC] [TIFF OMITTED] T5423.153

[GRAPHIC] [TIFF OMITTED] T5423.154

[GRAPHIC] [TIFF OMITTED] T5423.155

[GRAPHIC] [TIFF OMITTED] T5423.156

[GRAPHIC] [TIFF OMITTED] T5423.157

[GRAPHIC] [TIFF OMITTED] T5423.158

[GRAPHIC] [TIFF OMITTED] T5423.159

[GRAPHIC] [TIFF OMITTED] T5423.160

[GRAPHIC] [TIFF OMITTED] T5423.161

[GRAPHIC] [TIFF OMITTED] T5423.162

[GRAPHIC] [TIFF OMITTED] T5423.163

[GRAPHIC] [TIFF OMITTED] T5423.164

[GRAPHIC] [TIFF OMITTED] T5423.165

[GRAPHIC] [TIFF OMITTED] T5423.166

[GRAPHIC] [TIFF OMITTED] T5423.167

[GRAPHIC] [TIFF OMITTED] T5423.168

[GRAPHIC] [TIFF OMITTED] T5423.169

[GRAPHIC] [TIFF OMITTED] T5423.170

[GRAPHIC] [TIFF OMITTED] T5423.171

[GRAPHIC] [TIFF OMITTED] T5423.172

[GRAPHIC] [TIFF OMITTED] T5423.173

[GRAPHIC] [TIFF OMITTED] T5423.174

[GRAPHIC] [TIFF OMITTED] T5423.175

[GRAPHIC] [TIFF OMITTED] T5423.176

[GRAPHIC] [TIFF OMITTED] T5423.177

[GRAPHIC] [TIFF OMITTED] T5423.178

[GRAPHIC] [TIFF OMITTED] T5423.179

[GRAPHIC] [TIFF OMITTED] T5423.180

[GRAPHIC] [TIFF OMITTED] T5423.181

[GRAPHIC] [TIFF OMITTED] T5423.182

[GRAPHIC] [TIFF OMITTED] T5423.183

[GRAPHIC] [TIFF OMITTED] T5423.184

[GRAPHIC] [TIFF OMITTED] T5423.185

[GRAPHIC] [TIFF OMITTED] T5423.186

[GRAPHIC] [TIFF OMITTED] T5423.187

[GRAPHIC] [TIFF OMITTED] T5423.188

[GRAPHIC] [TIFF OMITTED] T5423.189

[GRAPHIC] [TIFF OMITTED] T5423.190

[GRAPHIC] [TIFF OMITTED] T5423.191

[GRAPHIC] [TIFF OMITTED] T5423.192

[GRAPHIC] [TIFF OMITTED] T5423.193

[GRAPHIC] [TIFF OMITTED] T5423.194

[GRAPHIC] [TIFF OMITTED] T5423.195

[GRAPHIC] [TIFF OMITTED] T5423.196

[GRAPHIC] [TIFF OMITTED] T5423.197

[GRAPHIC] [TIFF OMITTED] T5423.198

[GRAPHIC] [TIFF OMITTED] T5423.199

[GRAPHIC] [TIFF OMITTED] T5423.200

[GRAPHIC] [TIFF OMITTED] T5423.201

[GRAPHIC] [TIFF OMITTED] T5423.202

[GRAPHIC] [TIFF OMITTED] T5423.203

[GRAPHIC] [TIFF OMITTED] T5423.204

[GRAPHIC] [TIFF OMITTED] T5423.205

[GRAPHIC] [TIFF OMITTED] T5423.206

[GRAPHIC] [TIFF OMITTED] T5423.207

[GRAPHIC] [TIFF OMITTED] T5423.208

[GRAPHIC] [TIFF OMITTED] T5423.209

[GRAPHIC] [TIFF OMITTED] T5423.210

[GRAPHIC] [TIFF OMITTED] T5423.211

[GRAPHIC] [TIFF OMITTED] T5423.212

[GRAPHIC] [TIFF OMITTED] T5423.213

[GRAPHIC] [TIFF OMITTED] T5423.214

[GRAPHIC] [TIFF OMITTED] T5423.215

[GRAPHIC] [TIFF OMITTED] T5423.216

[GRAPHIC] [TIFF OMITTED] T5423.217

[GRAPHIC] [TIFF OMITTED] T5423.218

[GRAPHIC] [TIFF OMITTED] T5423.219

[GRAPHIC] [TIFF OMITTED] T5423.220

[GRAPHIC] [TIFF OMITTED] T5423.221

[GRAPHIC] [TIFF OMITTED] T5423.222

[GRAPHIC] [TIFF OMITTED] T5423.223

[GRAPHIC] [TIFF OMITTED] T5423.224

[GRAPHIC] [TIFF OMITTED] T5423.225

[GRAPHIC] [TIFF OMITTED] T5423.226

[GRAPHIC] [TIFF OMITTED] T5423.227

[GRAPHIC] [TIFF OMITTED] T5423.228

[GRAPHIC] [TIFF OMITTED] T5423.229

[GRAPHIC] [TIFF OMITTED] T5423.230

[GRAPHIC] [TIFF OMITTED] T5423.231

[GRAPHIC] [TIFF OMITTED] T5423.232

[GRAPHIC] [TIFF OMITTED] T5423.233

[GRAPHIC] [TIFF OMITTED] T5423.234

[GRAPHIC] [TIFF OMITTED] T5423.235

[GRAPHIC] [TIFF OMITTED] T5423.236

[GRAPHIC] [TIFF OMITTED] T5423.237

[GRAPHIC] [TIFF OMITTED] T5423.238

[GRAPHIC] [TIFF OMITTED] T5423.239

[GRAPHIC] [TIFF OMITTED] T5423.240

[GRAPHIC] [TIFF OMITTED] T5423.241

[GRAPHIC] [TIFF OMITTED] T5423.242

[GRAPHIC] [TIFF OMITTED] T5423.243

[GRAPHIC] [TIFF OMITTED] T5423.244

[GRAPHIC] [TIFF OMITTED] T5423.245

[GRAPHIC] [TIFF OMITTED] T5423.246

[GRAPHIC] [TIFF OMITTED] T5423.247

[GRAPHIC] [TIFF OMITTED] T5423.248

[GRAPHIC] [TIFF OMITTED] T5423.249

[GRAPHIC] [TIFF OMITTED] T5423.250

[GRAPHIC] [TIFF OMITTED] T5423.251

[GRAPHIC] [TIFF OMITTED] T5423.252

[GRAPHIC] [TIFF OMITTED] T5423.253

[GRAPHIC] [TIFF OMITTED] T5423.254

[GRAPHIC] [TIFF OMITTED] T5423.255

[GRAPHIC] [TIFF OMITTED] T5423.256

[GRAPHIC] [TIFF OMITTED] T5423.257

[GRAPHIC] [TIFF OMITTED] T5423.258

[GRAPHIC] [TIFF OMITTED] T5423.259

[GRAPHIC] [TIFF OMITTED] T5423.260

[GRAPHIC] [TIFF OMITTED] T5423.261

[GRAPHIC] [TIFF OMITTED] T5423.262

[GRAPHIC] [TIFF OMITTED] T5423.263

[GRAPHIC] [TIFF OMITTED] T5423.264

[GRAPHIC] [TIFF OMITTED] T5423.265

[GRAPHIC] [TIFF OMITTED] T5423.266

[GRAPHIC] [TIFF OMITTED] T5423.267

[GRAPHIC] [TIFF OMITTED] T5423.268

[GRAPHIC] [TIFF OMITTED] T5423.269

[GRAPHIC] [TIFF OMITTED] T5423.270

[GRAPHIC] [TIFF OMITTED] T5423.271

[GRAPHIC] [TIFF OMITTED] T5423.272

[GRAPHIC] [TIFF OMITTED] T5423.273

[GRAPHIC] [TIFF OMITTED] T5423.274

[GRAPHIC] [TIFF OMITTED] T5423.275

[GRAPHIC] [TIFF OMITTED] T5423.276

[GRAPHIC] [TIFF OMITTED] T5423.277

[GRAPHIC] [TIFF OMITTED] T5423.278

[GRAPHIC] [TIFF OMITTED] T5423.279

[GRAPHIC] [TIFF OMITTED] T5423.280

[GRAPHIC] [TIFF OMITTED] T5423.281

[GRAPHIC] [TIFF OMITTED] T5423.282

[GRAPHIC] [TIFF OMITTED] T5423.283

[GRAPHIC] [TIFF OMITTED] T5423.284

[GRAPHIC] [TIFF OMITTED] T5423.285

[GRAPHIC] [TIFF OMITTED] T5423.286

[GRAPHIC] [TIFF OMITTED] T5423.287

[GRAPHIC] [TIFF OMITTED] T5423.288

[GRAPHIC] [TIFF OMITTED] T5423.289

[GRAPHIC] [TIFF OMITTED] T5423.290

[GRAPHIC] [TIFF OMITTED] T5423.291

[GRAPHIC] [TIFF OMITTED] T5423.292

[GRAPHIC] [TIFF OMITTED] T5423.293

[GRAPHIC] [TIFF OMITTED] T5423.294

[GRAPHIC] [TIFF OMITTED] T5423.295

[GRAPHIC] [TIFF OMITTED] T5423.296

[GRAPHIC] [TIFF OMITTED] T5423.297

[GRAPHIC] [TIFF OMITTED] T5423.298

[GRAPHIC] [TIFF OMITTED] T5423.299

[GRAPHIC] [TIFF OMITTED] T5423.300

[GRAPHIC] [TIFF OMITTED] T5423.301

[GRAPHIC] [TIFF OMITTED] T5423.302

[GRAPHIC] [TIFF OMITTED] T5423.303

[GRAPHIC] [TIFF OMITTED] T5423.304

[GRAPHIC] [TIFF OMITTED] T5423.305

[GRAPHIC] [TIFF OMITTED] T5423.306

[GRAPHIC] [TIFF OMITTED] T5423.307

[GRAPHIC] [TIFF OMITTED] T5423.308

[GRAPHIC] [TIFF OMITTED] T5423.309

[GRAPHIC] [TIFF OMITTED] T5423.310

[GRAPHIC] [TIFF OMITTED] T5423.311

[GRAPHIC] [TIFF OMITTED] T5423.312

[GRAPHIC] [TIFF OMITTED] T5423.313

[GRAPHIC] [TIFF OMITTED] T5423.314

[GRAPHIC] [TIFF OMITTED] T5423.315

[GRAPHIC] [TIFF OMITTED] T5423.317

[GRAPHIC] [TIFF OMITTED] T5423.318

[GRAPHIC] [TIFF OMITTED] T5423.319

[GRAPHIC] [TIFF OMITTED] T5423.320

[GRAPHIC] [TIFF OMITTED] T5423.321

[GRAPHIC] [TIFF OMITTED] T5423.322

[GRAPHIC] [TIFF OMITTED] T5423.323

[GRAPHIC] [TIFF OMITTED] T5423.324

[GRAPHIC] [TIFF OMITTED] T5423.325

[GRAPHIC] [TIFF OMITTED] T5423.326

[GRAPHIC] [TIFF OMITTED] T5423.327

[GRAPHIC] [TIFF OMITTED] T5423.329

[GRAPHIC] [TIFF OMITTED] T5423.330

[GRAPHIC] [TIFF OMITTED] T5423.331

[GRAPHIC] [TIFF OMITTED] T5423.332

[GRAPHIC] [TIFF OMITTED] T5423.333

[GRAPHIC] [TIFF OMITTED] T5423.334

[GRAPHIC] [TIFF OMITTED] T5423.335

[GRAPHIC] [TIFF OMITTED] T5423.336

[GRAPHIC] [TIFF OMITTED] T5423.337

[GRAPHIC] [TIFF OMITTED] T5423.338

[GRAPHIC] [TIFF OMITTED] T5423.339

[GRAPHIC] [TIFF OMITTED] T5423.340

[GRAPHIC] [TIFF OMITTED] T5423.341

[GRAPHIC] [TIFF OMITTED] T5423.342

[GRAPHIC] [TIFF OMITTED] T5423.343

[GRAPHIC] [TIFF OMITTED] T5423.344

[GRAPHIC] [TIFF OMITTED] T5423.345

[GRAPHIC] [TIFF OMITTED] T5423.346

[GRAPHIC] [TIFF OMITTED] T5423.347

[GRAPHIC] [TIFF OMITTED] T5423.348

[GRAPHIC] [TIFF OMITTED] T5423.349

[GRAPHIC] [TIFF OMITTED] T5423.350

[GRAPHIC] [TIFF OMITTED] T5423.351

[GRAPHIC] [TIFF OMITTED] T5423.352

[GRAPHIC] [TIFF OMITTED] T5423.353

[GRAPHIC] [TIFF OMITTED] T5423.354

[GRAPHIC] [TIFF OMITTED] T5423.355

[GRAPHIC] [TIFF OMITTED] T5423.356

[GRAPHIC] [TIFF OMITTED] T5423.357

[GRAPHIC] [TIFF OMITTED] T5423.358

[GRAPHIC] [TIFF OMITTED] T5423.359

[GRAPHIC] [TIFF OMITTED] T5423.360

[GRAPHIC] [TIFF OMITTED] T5423.361

[GRAPHIC] [TIFF OMITTED] T5423.362

[GRAPHIC] [TIFF OMITTED] T5423.363

[GRAPHIC] [TIFF OMITTED] T5423.364

[GRAPHIC] [TIFF OMITTED] T5423.365

[GRAPHIC] [TIFF OMITTED] T5423.366

[GRAPHIC] [TIFF OMITTED] T5423.367

[GRAPHIC] [TIFF OMITTED] T5423.368

[GRAPHIC] [TIFF OMITTED] T5423.369

[GRAPHIC] [TIFF OMITTED] T5423.370

[GRAPHIC] [TIFF OMITTED] T5423.371

[GRAPHIC] [TIFF OMITTED] T5423.372

[GRAPHIC] [TIFF OMITTED] T5423.373

[GRAPHIC] [TIFF OMITTED] T5423.374

[GRAPHIC] [TIFF OMITTED] T5423.375

[GRAPHIC] [TIFF OMITTED] T5423.376

[GRAPHIC] [TIFF OMITTED] T5423.377

[GRAPHIC] [TIFF OMITTED] T5423.378

[GRAPHIC] [TIFF OMITTED] T5423.379

[GRAPHIC] [TIFF OMITTED] T5423.380

[GRAPHIC] [TIFF OMITTED] T5423.381

[GRAPHIC] [TIFF OMITTED] T5423.382

[GRAPHIC] [TIFF OMITTED] T5423.383

[GRAPHIC] [TIFF OMITTED] T5423.384

[GRAPHIC] [TIFF OMITTED] T5423.385

[GRAPHIC] [TIFF OMITTED] T5423.386

[GRAPHIC] [TIFF OMITTED] T5423.387

[GRAPHIC] [TIFF OMITTED] T5423.388

[GRAPHIC] [TIFF OMITTED] T5423.389

[GRAPHIC] [TIFF OMITTED] T5423.390

[GRAPHIC] [TIFF OMITTED] T5423.391

[GRAPHIC] [TIFF OMITTED] T5423.392

[GRAPHIC] [TIFF OMITTED] T5423.393

[GRAPHIC] [TIFF OMITTED] T5423.394

[GRAPHIC] [TIFF OMITTED] T5423.395

[GRAPHIC] [TIFF OMITTED] T5423.396

[GRAPHIC] [TIFF OMITTED] T5423.397

[GRAPHIC] [TIFF OMITTED] T5423.398

[GRAPHIC] [TIFF OMITTED] T5423.399

[GRAPHIC] [TIFF OMITTED] T5423.400

[GRAPHIC] [TIFF OMITTED] T5423.401

[GRAPHIC] [TIFF OMITTED] T5423.402

[GRAPHIC] [TIFF OMITTED] T5423.403

[GRAPHIC] [TIFF OMITTED] T5423.404

[GRAPHIC] [TIFF OMITTED] T5423.405

[GRAPHIC] [TIFF OMITTED] T5423.406

[GRAPHIC] [TIFF OMITTED] T5423.407

[GRAPHIC] [TIFF OMITTED] T5423.408

[GRAPHIC] [TIFF OMITTED] T5423.409

[GRAPHIC] [TIFF OMITTED] T5423.410

[GRAPHIC] [TIFF OMITTED] T5423.411

[GRAPHIC] [TIFF OMITTED] T5423.412

[GRAPHIC] [TIFF OMITTED] T5423.413

[GRAPHIC] [TIFF OMITTED] T5423.414

[GRAPHIC] [TIFF OMITTED] T5423.415

[GRAPHIC] [TIFF OMITTED] T5423.416

[GRAPHIC] [TIFF OMITTED] T5423.417

[GRAPHIC] [TIFF OMITTED] T5423.418

[GRAPHIC] [TIFF OMITTED] T5423.419

[GRAPHIC] [TIFF OMITTED] T5423.420

[GRAPHIC] [TIFF OMITTED] T5423.421

[GRAPHIC] [TIFF OMITTED] T5423.422

[GRAPHIC] [TIFF OMITTED] T5423.423

[GRAPHIC] [TIFF OMITTED] T5423.424

[GRAPHIC] [TIFF OMITTED] T5423.426

[GRAPHIC] [TIFF OMITTED] T5423.427

[GRAPHIC] [TIFF OMITTED] T5423.428

[GRAPHIC] [TIFF OMITTED] T5423.429

[GRAPHIC] [TIFF OMITTED] T5423.430

[GRAPHIC] [TIFF OMITTED] T5423.431

[GRAPHIC] [TIFF OMITTED] T5423.432

[GRAPHIC] [TIFF OMITTED] T5423.433

[GRAPHIC] [TIFF OMITTED] T5423.434

[GRAPHIC] [TIFF OMITTED] T5423.435

[GRAPHIC] [TIFF OMITTED] T5423.436

[GRAPHIC] [TIFF OMITTED] T5423.437

[GRAPHIC] [TIFF OMITTED] T5423.438

[GRAPHIC] [TIFF OMITTED] T5423.439

[GRAPHIC] [TIFF OMITTED] T5423.440

[GRAPHIC] [TIFF OMITTED] T5423.441

[GRAPHIC] [TIFF OMITTED] T5423.442

[GRAPHIC] [TIFF OMITTED] T5423.443

[GRAPHIC] [TIFF OMITTED] T5423.445

[GRAPHIC] [TIFF OMITTED] T5423.446

[GRAPHIC] [TIFF OMITTED] T5423.447

[GRAPHIC] [TIFF OMITTED] T5423.448

[GRAPHIC] [TIFF OMITTED] T5423.449

[GRAPHIC] [TIFF OMITTED] T5423.450

[GRAPHIC] [TIFF OMITTED] T5423.451

[GRAPHIC] [TIFF OMITTED] T5423.452

[GRAPHIC] [TIFF OMITTED] T5423.453

[GRAPHIC] [TIFF OMITTED] T5423.557

[GRAPHIC] [TIFF OMITTED] T5423.558

[GRAPHIC] [TIFF OMITTED] T5423.559

[GRAPHIC] [TIFF OMITTED] T5423.560

[GRAPHIC] [TIFF OMITTED] T5423.561

[GRAPHIC] [TIFF OMITTED] T5423.562

[GRAPHIC] [TIFF OMITTED] T5423.563

[GRAPHIC] [TIFF OMITTED] T5423.564

[GRAPHIC] [TIFF OMITTED] T5423.565

[GRAPHIC] [TIFF OMITTED] T5423.566

[GRAPHIC] [TIFF OMITTED] T5423.567

[GRAPHIC] [TIFF OMITTED] T5423.568

[GRAPHIC] [TIFF OMITTED] T5423.569

[GRAPHIC] [TIFF OMITTED] T5423.570

[GRAPHIC] [TIFF OMITTED] T5423.571

[GRAPHIC] [TIFF OMITTED] T5423.572

[GRAPHIC] [TIFF OMITTED] T5423.454

[GRAPHIC] [TIFF OMITTED] T5423.455

[GRAPHIC] [TIFF OMITTED] T5423.456

[GRAPHIC] [TIFF OMITTED] T5423.457

[GRAPHIC] [TIFF OMITTED] T5423.458

[GRAPHIC] [TIFF OMITTED] T5423.459

[GRAPHIC] [TIFF OMITTED] T5423.460

[GRAPHIC] [TIFF OMITTED] T5423.461

[GRAPHIC] [TIFF OMITTED] T5423.462

[GRAPHIC] [TIFF OMITTED] T5423.463

[GRAPHIC] [TIFF OMITTED] T5423.464

[GRAPHIC] [TIFF OMITTED] T5423.465

[GRAPHIC] [TIFF OMITTED] T5423.466

[GRAPHIC] [TIFF OMITTED] T5423.467

[GRAPHIC] [TIFF OMITTED] T5423.468

[GRAPHIC] [TIFF OMITTED] T5423.469

[GRAPHIC] [TIFF OMITTED] T5423.470

[GRAPHIC] [TIFF OMITTED] T5423.471

[GRAPHIC] [TIFF OMITTED] T5423.472

[GRAPHIC] [TIFF OMITTED] T5423.473

[GRAPHIC] [TIFF OMITTED] T5423.474

[GRAPHIC] [TIFF OMITTED] T5423.475

[GRAPHIC] [TIFF OMITTED] T5423.476

[GRAPHIC] [TIFF OMITTED] T5423.477

[GRAPHIC] [TIFF OMITTED] T5423.478

[GRAPHIC] [TIFF OMITTED] T5423.479

[GRAPHIC] [TIFF OMITTED] T5423.480

[GRAPHIC] [TIFF OMITTED] T5423.481

[GRAPHIC] [TIFF OMITTED] T5423.482

[GRAPHIC] [TIFF OMITTED] T5423.483

[GRAPHIC] [TIFF OMITTED] T5423.484

[GRAPHIC] [TIFF OMITTED] T5423.485

[GRAPHIC] [TIFF OMITTED] T5423.486

[GRAPHIC] [TIFF OMITTED] T5423.487

[GRAPHIC] [TIFF OMITTED] T5423.488

[GRAPHIC] [TIFF OMITTED] T5423.489

[GRAPHIC] [TIFF OMITTED] T5423.490

[GRAPHIC] [TIFF OMITTED] T5423.491

[GRAPHIC] [TIFF OMITTED] T5423.492

[GRAPHIC] [TIFF OMITTED] T5423.493

[GRAPHIC] [TIFF OMITTED] T5423.495

[GRAPHIC] [TIFF OMITTED] T5423.496

[GRAPHIC] [TIFF OMITTED] T5423.497

[GRAPHIC] [TIFF OMITTED] T5423.498

[GRAPHIC] [TIFF OMITTED] T5423.499

[GRAPHIC] [TIFF OMITTED] T5423.500

[GRAPHIC] [TIFF OMITTED] T5423.501

[GRAPHIC] [TIFF OMITTED] T5423.502

[GRAPHIC] [TIFF OMITTED] T5423.503

[GRAPHIC] [TIFF OMITTED] T5423.504

[GRAPHIC] [TIFF OMITTED] T5423.505

[GRAPHIC] [TIFF OMITTED] T5423.506

[GRAPHIC] [TIFF OMITTED] T5423.507

[GRAPHIC] [TIFF OMITTED] T5423.508

[GRAPHIC] [TIFF OMITTED] T5423.509

[GRAPHIC] [TIFF OMITTED] T5423.510

[GRAPHIC] [TIFF OMITTED] T5423.511

[GRAPHIC] [TIFF OMITTED] T5423.512

[GRAPHIC] [TIFF OMITTED] T5423.513

[GRAPHIC] [TIFF OMITTED] T5423.514

[GRAPHIC] [TIFF OMITTED] T5423.515

[GRAPHIC] [TIFF OMITTED] T5423.516

[GRAPHIC] [TIFF OMITTED] T5423.517

[GRAPHIC] [TIFF OMITTED] T5423.518

[GRAPHIC] [TIFF OMITTED] T5423.519

[GRAPHIC] [TIFF OMITTED] T5423.520

[GRAPHIC] [TIFF OMITTED] T5423.521

[GRAPHIC] [TIFF OMITTED] T5423.522

[GRAPHIC] [TIFF OMITTED] T5423.523

[GRAPHIC] [TIFF OMITTED] T5423.524

[GRAPHIC] [TIFF OMITTED] T5423.525

[GRAPHIC] [TIFF OMITTED] T5423.526

[GRAPHIC] [TIFF OMITTED] T5423.527

[GRAPHIC] [TIFF OMITTED] T5423.528

[GRAPHIC] [TIFF OMITTED] T5423.529

[GRAPHIC] [TIFF OMITTED] T5423.530

[GRAPHIC] [TIFF OMITTED] T5423.531

[GRAPHIC] [TIFF OMITTED] T5423.532

[GRAPHIC] [TIFF OMITTED] T5423.533

[GRAPHIC] [TIFF OMITTED] T5423.534

[GRAPHIC] [TIFF OMITTED] T5423.535

[GRAPHIC] [TIFF OMITTED] T5423.536

[GRAPHIC] [TIFF OMITTED] T5423.537

[GRAPHIC] [TIFF OMITTED] T5423.538

[GRAPHIC] [TIFF OMITTED] T5423.539

[GRAPHIC] [TIFF OMITTED] T5423.540

[GRAPHIC] [TIFF OMITTED] T5423.541

[GRAPHIC] [TIFF OMITTED] T5423.542

[GRAPHIC] [TIFF OMITTED] T5423.543

[GRAPHIC] [TIFF OMITTED] T5423.544

[GRAPHIC] [TIFF OMITTED] T5423.545

[GRAPHIC] [TIFF OMITTED] T5423.546

[GRAPHIC] [TIFF OMITTED] T5423.547

[GRAPHIC] [TIFF OMITTED] T5423.548

[GRAPHIC] [TIFF OMITTED] T5423.549

[GRAPHIC] [TIFF OMITTED] T5423.550

[GRAPHIC] [TIFF OMITTED] T5423.551

[GRAPHIC] [TIFF OMITTED] T5423.552

[GRAPHIC] [TIFF OMITTED] T5423.553

[GRAPHIC] [TIFF OMITTED] T5423.554

[GRAPHIC] [TIFF OMITTED] T5423.555

[GRAPHIC] [TIFF OMITTED] T5423.556


</pre></body></html>
